                      U.S. Department of Agriculture
                         Office of Inspector General




    Effectiveness and Enforcement of
Suspension and Debarment Regulations in
   the U.S. Department of Agriculture




                              Audit Report 50601-14-AT
                                           August 2010
                                U.S. Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250


DATE:         August 16, 2010

REPLY TO
ATTN OF:      50601-14-At

TO:           Dallas Tonsager, Under Secretary, Rural Development
              Pearlie Reed, Assistant Secretary, Departmental Management
              Jonathan Coppess, Administrator, Farm Service Agency
              Julie Paradis, Administrator, Food and Nutrition Service
              Thomas Tidwell, Chief, Forest Service
              Jon Holladay, Acting Chief Financial Officer, Office of the Chief
                Financial Officer

ATTN:         Phyllis Holmes, Departmental Management, Freedom of Information Act Officer
              Kathleen Donaldson, Audit Liaison Officer, Office of the Chief Financial Officer
              Philip Sharp, Director, Operations Review and Analysis, Farm Service Agency
              Donna M. Carmical, Chief Financial Officer, Forest Service
              John Purcell, Director, Financial Management, Operations and Management
              Katherine Day, Director, Office of Internal Control, Food and Nutrition Service

FROM:         Gil H. Harden, Assistant Inspector General, for Audit /s/

SUBJECT:      Effectiveness and Enforcement of Suspension and Debarment Regulations in the
              U.S. Department of Agriculture


This report presents the results of our audit of the Department’s implementation of the
Governmentwide suspension and debarment authorities designed to ensure Department of
Agriculture (USDA) agencies conduct business only with responsible persons and entities and
suspend and debar non-responsible violators of agency programs to alert and thereby protect
other Federal agency programs. Written responses to the official draft report were received from
Departmental Management, Office of Procurement and Property Management; and Office of the
Chief Financial Officer (OCFO); Farm Service Agency; Forest Service; Rural Development; and
Food and Nutrition Service. Excerpts from the responses and the Office of Inspector
General’s (OIG) positions are incorporated into the Findings and Recommendations sections of
the report, where applicable.

We accept management decisions on Recommendations 1, 4, 5, 6, 8, 9, 16, 18, 19, 20, 21, 23, 24,
26, and 27. We can accept management decisions on Recommendations 2, 3, 7, 10, 11, 12, 13,
14, 15, 17, 22, and 25, once we have been provided the information as outlined in the report
sections, OIG Position.
Dallas Tonsager, et al.                                                                    2


In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. For
agencies other than OCFO, please follow your internal agency procedures in forwarding final
action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary.................................................................................. 1
Background & Objectives ........................................................................ 9
  Background ............................................................................................ 9
  Objectives ............................................................................................ 12
Section 1: Nonprocurement Suspension and Debarment .................. 13
  Finding 1: USDA Needs to Finalize New Regulations Implementing a
  More Active Nonprocurement Suspension and Debarment Program
  .............................................................................................................. 13
       Recommendation 1........................................................................ 21
       Recommendation 2........................................................................ 21
       Recommendation 3........................................................................ 22
       Recommendation 4........................................................................ 23
       Recommendation 5........................................................................ 24
       Recommendation 6........................................................................ 24
  Finding 2: FSA Needs to Implement a Nonprocurement Suspension
  and Debarment Program ..................................................................... 25
       Recommendation 7........................................................................ 28
       Recommendation 8........................................................................ 29
       Recommendation 9........................................................................ 30
       Recommendation 10 ...................................................................... 31
  Finding 3: FNS Needs to Implement a Nonprocurement Suspension
  and Debarment Program ..................................................................... 31
       Recommendation 11 ...................................................................... 34
       Recommendation 12 ...................................................................... 35
       Recommendation 13 ...................................................................... 36
       Recommendation 14 ...................................................................... 36
  Finding 4: USDA’s Scientific, Inspection and Grading, Marketing,
  and Natural Resources Agencies Need to Implement a
  Nonprocurement Suspension and Debarment Program................... 37
        Recommendation 15 ...................................................................... 40
        Recommendation 16 ...................................................................... 41
        Recommendation 17 ...................................................................... 41
Section 2: Organization of Suspension and Debarment Activities .... 43
  Finding 5: USDA Needs to Centralize its Overall Organization for its
  Nonprocurement Suspension and Debarment Program................... 43
        Recommendation 18 ...................................................................... 47
        Recommendation 19 ...................................................................... 48
        Recommendation 20 ...................................................................... 49
        Recommendation 21 ...................................................................... 50
        Recommendation 22 ...................................................................... 50
        Recommendation 23 ...................................................................... 51
        Recommendation 24 ...................................................................... 52
Section 3: Procurement Suspension and Debarment ......................... 53
  Finding 6: USDA Needs to Implement a More Effective Suspension
  and Debarment Program for its Procurement Activities ................... 53
        Recommendation 25 ...................................................................... 56
        Recommendation 26 ...................................................................... 56
        Recommendation 27 ...................................................................... 57
Scope and Methodology ........................................................................ 58
Abbreviations .......................................................................................... 60
Exhibit A: History of USDA’s Implementation of Federal Suspension
and Debarment Procedures ................................................................... 61
Agencies’ Responses ............................................................................. 66
Effectiveness and Enforcement of Suspension and Debarment
Regulations in the U.S. Department of Agriculture

Executive Summary
Debarment and suspension are tools used by the Government to ensure that it does business with
only responsible persons and entities. A debarment is an action taken to exclude persons or
entities from doing business with the Government generally for periods up to 3 years for certain
causes, such as commission of a fraud or certain other crimes, or violations of certain statutes. 1
Suspension, which can precede a debarment, is a temporary action. It can be used pending the
completion of an investigation or legal proceeding. Suspension and debarment actions may be
pursued concurrently with civil or criminal proceedings. Subpart 9.4 of the Federal Acquisition
Regulation (FAR) covers procurement suspension and debarment; these regulations are
supplemented at the Department of Agriculture (USDA) through USDA Acquisition Regulation,
48 Code of Federal Regulations (CFR), subpart 409.4.2

In 1986, the President signed an Executive order3 directing Federal departments and agencies to
participate in a system for debarment and suspension from programs and activities involving
Federal financial and nonfinancial assistance and benefits (nonprocurement). The President
authorized the Director of the Office of Management and Budget (OMB) to issue guidelines to
Executive departments and agencies governing which programs and activities are covered by the
order and setting forth other details for effective administration of the guidelines. USDA
implemented the Executive order in 1989, apart from the Governmentwide rule, through issuance
of its own regulation.

In May 1987, OMB implemented the Executive order with its issuance of guidelines for
nonprocurement suspension and debarment. In May 1988, 27 agencies, not including USDA,
published a Common Rule that set forth a uniform system of suspension and debarment in the
nonprocurement area. USDA’s nonprocurement suspension and debarment rule became
effective March 1, 1989.4 In August 1989, the President ordered5 that suspension and debarment
actions under FAR and the nonprocurement common rule be given reciprocal effect.

The regulations require that agency officials list suspended and debarred individuals and entities
on a Governmentwide database maintained by the General Services Administration (GSA) to


1
  OMB’s suspension and debarment regulations, 2 CFR 180, provide broad authority for agencies to debar program violators for several causes
including conviction or civil judgment for fraud related to public agreements; violation of antitrust statutes for price fixing or bid rigging;
embezzlement, theft, forgery or making false statements; willful failure or a history of failure to perform in accordance with public agreements;
knowingly doing business with an ineligible person; failure to pay outstanding debts; violation of a voluntary exclusion agreement; violation of
the Drug-Free Workplace Act of 1988; or any other cause so serious that if affects the program recipient’s present responsibility.
2
  See Title 48 FAR, chapter 1, FAR, section 9.4. Also see USDA Acquisition Regulation, Title 48, chapter 4, parts 432.006, 423.506, and
449.106.
3
  Executive Order 12549, dated February 18, 1986.
4
  Apart from the March 1, 1989, rule that provided administrative suspension and debarment authority, many USDA agencies also have statutory
authority to sanction, fine, and disqualify those who abuse their programs. For example, the Risk Management Agency (RMA) may disqualify
those who intentionally violate its crop insurance statutes. Disqualification under such authority is limited to the particular program and agency
in which the abuse occurred. In contrast, suspensions and debarments have Governmentwide effect. Nevertheless, the regulations require that
disqualification actions be listed on the GSA’s Excluded Parties Listing System, which will give effective notice to other agencies of the
disqualification. 7 CFR 3017.515, 3017.520.
5
  Executive Order 12689, dated August 16, 1989.



Audit Report 50601-14-At                                                                                                                         1
alert and thereby protect other Federal agencies when those agencies award future contracts,
grants, and other program benefits. The database is called the Excluded Parties Listing System
(EPLS).

The Office of Inspector General (OIG) conducted its first audit of USDA’s implementation of
suspension and debarment in 1990. (See Exhibit A for a discussion of the history and resolution
of the 1990 audit.) We found that USDA had not implemented an adequate system to suspend
and debar program abusers, and we recommended agency officials reevaluate their policies that
excluded their programs from coverage by the suspension and debarment regulations and fully
implement the authorities. We initiated the current audit to determine whether today’s agency
officials are aware of their responsibility to suspend and debar nonresponsible program violators
and if they are actively doing so.

We found that USDA has still not fully implemented either procurement or nonprocurement
suspension and debarment programs. USDA’s efforts have fallen far short of several other
Federal departments that actively suspend and debar individuals and contractors for program and
contract fraud, waste, and abuse to protect Federal resources. From 1989 to 1995, USDA
established exclusions for many of its programs6 and effectively much of its budget (see
exhibit A for a detailed historical explanation of how these exclusions were established) from
application of the suspension and debarment rules related to program activities. Some of these
exclusions were justified by the 1986 Executive order, such as those for food assistance; others
were unsupported, such as those for the Department’s scientific, inspection and grading,
marketing, and natural resources programs. For example, USDA agency officials chose not to
implement suspension and debarment for Department scientific, inspection and grading,
marketing, and natural resources programs, stating that to do so would endanger the public health
and safety. The Environmental Protection Agency, however, suspends and debars violators of its
clean air and water statutes to protect the public health and safety. The Department also
misapplied justifiable exclusions to exclude entire programs from any suspension or debarment
action. A program participant who abuses a program not covered by the suspension and
debarment regulations should still be considered for suspension or debarment based on the
misconduct or abuse that occurred. The suspended or debarred program participant would not be
rendered ineligible for continued participation in the noncovered program. However, the
program abuser, if suspended or debarred, would not be able to participate in other programs
covered by the suspension and debarment regulations so that the Government’s interests can be
protected.

Due to the agencies’ program exclusions, suspension and debarment was not implemented in
programs making up $98 billion of the Department’s $124 billion budget (79 percent) in fiscal
year (FY) 2007. In addition, USDA lacked a centralized suspension and debarment division and
instead dispersed the authority throughout the Department, without providing guidance to the
responsible officials. Departmental and agency officials assigned to oversee suspension and
debarment were not always trained and did not fully understand the process. Some agency

6
 The suspension and debarment regulations, 2 CFR 180, do not provide for entire Federal programs to be excluded from suspension and
debarment implementation. The regulations specify how the authorities will be implemented at the transaction level. Program transactions are
classified as either covered or noncovered by the authorities. For example, entitlements and mandatory awards are noncovered transactions. In
contrast, USDA’s implementation of suspension and debarment authorities effectively excluded entire Federal programs.



Audit Report 50601-14-At                                                                                                                        2
officials were unaware they possessed the authority to suspend and debar nonresponsible
program violators. Given these problems, USDA suspended and debarred few program
violators. Of the 1,073 individuals convicted of crimes involving USDA programs as reported
by the OIG Office of Investigations to USDA agencies from FY 2004 to 2007, only 38 were
debarred, even though a conviction meets the standard of proof7 needed to debar an individual.8

In April 2009, the Office of the Chief Financial Officer (OCFO) stated that the Department was
revising its current regulations with respect to suspension and debarment and moving ahead
toward implementing the regulations. OCFO acknowledged that individuals abusing a program
excluded from covered transaction status in the regulations can and should be referred to the
suspension and debarment official for a determination on whether a suspension and/or debarment
action should be taken to protect other covered Federal programs. However, OCFO later held
discussions with the agencies and tentatively decided to retain the majority of its program
exclusions from suspension and debarment. These exclusions are reflected in the Department’s
new interim final rule published May 25, 2010.

USDA has recently taken suspension and debarment actions in at least two high-profile cases. In
February 2009, the Agricultural Marketing Service suspended a peanut company for delivering
peanut products containing salmonella as part of the National School Lunch Program. In
December 2006, the Foreign Agricultural Service took debarment actions against a wheat board
because of evidence indicating it engaged in bribery and kickbacks. USDA’s actions in this
foreign case reflect increasing interest in using suspension and debarment in cases of
international fraud and corruption. For example, between 1999 and 2008, the World Bank
debarred, in many cases permanently, 343 companies and individuals from doing project-related
development work due to corrupt practices.

During 2008, USDA agencies suspended or debarred another 38 individuals or entities. In 2009,
the agencies suspended or debarred 39 individuals or entities. RMA remained active in
implementing these authorities, as it took nine actions in 2008 and four actions in 2009. In 2009,
Farm Service Agency (FSA) debarred nine individuals or entities. We recognize this increased
activity from past performance. As the Department moves forward to fully implement both
procurement and nonprocurement suspension and debarment, USDA needs to (1) remove or
justify its program exclusions from nonprocurement suspension and debarment, (2) centralize the
organization of the suspension and debarment program, and (3) more effectively implement
suspension and debarment for its procurement programs.




7
  The 68 Federal Register 66,543 (Nov. 26, 2003) states, “Suspension or debarment may not be imposed upon mere suspicion of misconduct.”
While suspending or debarring officials are not required to follow formal rules of evidence, they are required to meet certain standards of proof
before suspending or debarring a person. These standards require adequate evidence for suspension and preponderance of the evidence for
debarment. If the proposed debarment is based upon a conviction or civil judgment, a standard of proof is met. 2 CFR 180.850(b). For
procurement actions, the FAR lists a conviction as the first cause for debarment. For FAR actions based on violations other than a conviction, the
FAR states that actions will be based on a preponderance of the evidence. FAR 9.406-2 “Causes for debarment.”
8
  RMA was responsible for 27 of these 38 debarments, as it was much more vigorous in implementing suspension and debarment than other
USDA agencies.



Audit Report 50601-14-At                                                                                                                        3
USDA Needs to Remove or Justify its Program Exclusions from Suspension and Debarment

When USDA excluded entire programs from the application of the suspension and debarment
rules on nonprocurement in the 1980s and 1990s, it compromised its efforts to implement the
suspension and debarment authorities. The President’s Executive order and OMB’s guidance
allowed for the exclusion of certain transactions, such as food assistance, from suspension and
debarment; but they did not authorize the exclusion of entire Federal programs. We maintain
that the Department should reconsider these exclusions and remove them. If they are not
removed, the Department should offer adequate statutory language justifying its action to
exclude a specific program or sound program rationale supporting why the program should be
excluded. USDA should also take steps to ensure that program violators of justifiably
noncovered program transactions are considered for debarment from covered programs.

As an example, the Food and Nutrition Service (FNS) considered its programs (with an overall
budget of $55 billion) exempt from suspension and debarment. The major reason given was that
food assistance was an entitlement, and that program participants—even retailers and
wholesalers who abused the program—could not be suspended or debarred from entitlements.9
However, OMB’s guidance explains that individuals on food assistance are indeed recipients of
an entitlement, but they can be debarred, for example, based on fraud related to the receipt of that
food assistance. Moreover, the retailers and wholesalers who run the food assistance programs
are not recipients of entitlements, and they should be considered for suspension or debarment if
they abuse the program. From 2004 to 2008, FNS permanently disqualified 3,981 retailers and
wholesalers from its own programs, but it did not take steps to suspend or debar them so that
other USDA or Federal programs would be protected.10

Other significant exclusions exempted the programs of FSA (overall budget of $31 billion) and
the Department’s scientific, inspection and grading, marketing, and natural resources agencies
($13 billion). In FSA’s case, all of the agency’s programs were excluded from coverage based
on FSA officials’ belief that payments to agricultural producers are either mandatory awards or
entitlements. Some of FSA’s program transactions may be mandatory awards or entitlements as
required by the program’s statutory language, and are thus properly not covered by suspension
and debarment in accordance with the Executive order and OMB guidance. However, other FSA
noncovered program transactions are questionable, such as agricultural loan transactions. For
example, some agricultural loans related to emergencies and natural disasters may be
entitlements. However, farm ownership and operating loans are traditional business loans, not
entitlements. In order to bring FSA’s programs under the protection of suspension and
debarment regulations, USDA should remove unjustifiable exclusions from its programs, and it
should also consider suspending and debarring program violators based on offenses related to
even justifiably noncovered programs to protect other covered Federal programs.

USDA excluded many of the programs belonging to its scientific, inspection and grading,
marketing, and natural resources agencies—Animal and Plant Health Inspection Service, Food

9
   For purposes of this report, an entitlement is defined as a benefit that an individual has a right to by law and, in the context of suspension and
debarment, without respect to present responsibility.
10
   In a May 2, 1990, letter from OMB to the USDA General Counsel, OMB stated, “For example, the common rule intends to strengthen
sanctions by excluding entities guilty of wrongdoing with one agency from all dealings with all other Executive Branch agencies.”



Audit Report 50601-14-At                                                                                                                                4
Safety and Inspection Service, Agricultural Research Service, National Institute of Food and
Agriculture,11 Forest Service (FS), and Natural Resources Conservation Service. These
exclusions were justified for various reasons, including that the programs issued mandatory
awards, were vital for the public’s health and safety, or were necessary for agricultural
commerce.

We question the agencies’ program exclusions. We concluded that the agencies’ reasons for
exempting certain transactions from suspension and debarment may not be advisable and the
exemptions may not be applied appropriately. Also, the agencies have not provided adequate
statutory language supporting the exclusions. Finally, the exclusions do not parallel the practices
of other Federal agencies who implement suspension and debarment in similar programs
specifically to protect the public interest. We maintain that such questionable program
exclusions must be either removed or adequately justified.

USDA Needs to Centralize its Overall Organization for its Nonprocurement Suspension and
Debarment Program

USDA’s efforts to implement nonprocurement suspension and debarment have also been
hindered because the Department has not established a centralized division that specializes in
suspension and debarment. At present, the Department has 21 suspension and debarment
officials spread throughout its agencies, but those officials have not received formal training in
suspension and debarment procedures, and often were not fully aware of their responsibilities or
the possibility of legal challenges to their decisions. We found that agency administrators, who
are the designated suspension and debarment officials, typically relied on their staffs and the
Office of the General Counsel attorneys to develop cases.12

A centralized division should be established to develop policies and procedures to ensure the
regulations are consistently applied. USDA’s suspension and debarment decisions have been
inconsistently applied, which has been recognized by a Federal court. In one case, USDA’s
decision to suspend was overturned by a Federal court because it was arbitrary and capricious.13
A more consistent, centralized process is needed to correct these problems. For example, a
centralized division could relieve agency administrators by processing case actions; provide
training and guidance to agency officials in implementing the authorities; and ensure more
timely and uniform case processing and decision making.

USDA Needs to Actively Use Suspension and Debarment for its Procurement Programs

The Department has not effectively implemented a suspension and debarment process for its
procurement activities. The Office of Procurement and Property Management (OPPM) was
assigned responsibility by the Secretary for overseeing Departmental implementation of the
procurement regulations relating to suspension and debarment. However, OPPM assigned only

11
   The Food, Conservation, and Energy Act of 2008 created the National Institute of Food and Agriculture. It replaced the former Cooperative
State Research, Education, and Extension Service.
12
   The FS was unique in the Department in that the Chief of the FS delegated suspension and debarment responsibilities to the Associate Deputy
Chief, National Forest System. However, suspension and debarment was not implemented in FS’ other mission areas. See Finding 5.
13
   Lion Raisins, Inc. v. United States, 51 Fed. Cl. 238 (Fed. Cl. 2001).



Audit Report 50601-14-At                                                                                                                     5
one staff official to handle procurement suspension and debarment cases as one of a number of
the official’s collateral duties, and that official was relatively inexperienced in suspension and
debarment actions. In addition, OPPM had not provided suspension and debarment training to
the Department’s contracting officers.14 OPPM stated that suspension and debarment training is
included in several procurement courses required for all contracting specialists and officers.
Therefore, OPPM did not consider providing this training as part of its responsibility. However,
the required training has not been effective in ensuring that the contracting officers implement
the suspension and debarment provisions in the FAR. From 2004 to 2007, USDA undertook no
procurement suspension cases and only two debarment cases.

This lack of activity contrasts with other Federal departments where procurement suspension and
debarment is pursued much more aggressively. For example, GSA has taken actions in high
profile cases of large contractors in the past 2 years and uses the process as a deterrent to ensure
its contractors abide by their contracts. Although GSA had a greater volume of procurement
transactions, GSA and USDA dealt with roughly the same number of contractors in 2007 and
2008. GSA used 14,985 contractors in 2007 and 15,044 contractors in 2008; whereas, USDA
used 15,158 contractors in 2007 and 15,253 contractors in 2008.15 However, GSA currently, as
of March 2010, has numerous active suspensions and debarments listed on GSA’s EPLS:
26 actions to date in 2010, 68 actions in 2009, 70 actions in 2008, and 12 actions in 2007. These
numbers do not include GSA actions that have expired and are now archived in GSA’s EPLS
listing. By contrast, USDA has taken few suspension and debarment actions involving
procurement cases.

Recent Congressional interest in suspension and debarment, due to the magnitude of Federal
spending on contracts and high-profile cases of contractor misconduct, has led to the enactment
of new laws related to suspension and debarment.16 Most relevant to USDA was the part of the
2008 Farm Bill that strengthened the authority of the Secretary to permanently debar an
individual, organization, corporation, or other entity convicted of a felony for knowingly
defrauding the United States in connection with any program administered by USDA from any
subsequent participation in USDA programs. OCFO included this statutory debarment authority
in its May 25, 2010, interim final rule for nonprocurement suspension and debarment.
Nonetheless, even though the 2008 Farm Bill now contains statutory language allowing
permanent debarment, this authority extends only to USDA programs and does not provide for
Governmentwide debarment. Therefore, USDA needs to fully implement the Governmentwide
suspension and debarment authorities to protect other Federal agency programs.

Some USDA agency officials have expressed concerns that older USDA program statutes do not
incorporate the Governmentwide suspension and debarment authorities. However, in the
absence of express authority in program statutes, agencies also possess inherent authority to

14
   After our fieldwork was completed, one OPPM official attended formal suspension and debarment training and the office has begun to conduct
some training for procurement staff.
15
   For example, in 2008, USDA dealt with 15,253 contractors and GSA dealt with 15,044. In terms of transactions for 2008, USDA had 56,909
transactions with its contractors valued at $5 billion; whereas, GSA had 880,967 transactions with its contractors valued at $12 billion.
16
   These laws include requirements for: (1) contractors to notify agency officials of overpayments or Federal crimes in connection with the award
or performance of government contracts; (2) the creation of a database with information about contractors beyond that in GSA’s EPLS, e.g.,
administrative agreements and terminations for default; and (3) contractors that have been found to have intentionally affixed a “Made in
America” inscription on ineligible products to be debarred.



Audit Report 50601-14-At                                                                                                                       6
debar program violators that is incidental to the effective administration of their programs. This
inherent authority was recognized by the District of Columbia Circuit Court.17

USDA should strengthen its efforts to implement both nonprocurement and procurement
suspension and debarment within the Department. This should include (1) removing or
justifying USDA’s program exclusions from nonprocurement suspension and debarment,
(2) centralizing the organization of the suspension and debarment program, and (3) more
effectively implementing suspension and debarment for its procurement programs.

        Recommendation Summary
        Issue a secretarial directive to all agencies, directing that they fully implement both
        procurement and nonprocurement suspension and debarment, according to the FAR,
        President’s Executive orders, and OMB’s guidance. Clarify, in that directive, that those who
        abuse transactions excluded from covered transaction status in the suspension and debarment
        regulations can still be suspended and debarred so that they cannot abuse other Federal
        programs covered by the regulations.

        As part of Departmental efforts to fully implement the authorities, finalize USDA’s May
        2010 interim final rule for nonprocurement suspension and debarment. This should include
        the removal of noncovered programs and program transactions from USDA’s suspension and
        debarment rules unless they are adequately justified. For programs and transactions to be
        excluded from the application of the suspension and debarment rules, provide statutory
        language justifying the exclusions or an acceptable program rationale supporting their
        noncovered status.

        Establish a centralized division that specializes in suspension and debarment procedures for
        both procurement and nonprocurement; provides coordination, guidance, and training to all
        relevant agency officials; promotes consistency in handling the Department’s suspension and
        debarment cases; and processes case referrals for all actions.

        In accordance with control standards and guidance issued by the centralized division and
        those standards outlined in the FAR, direct OPPM and Departmental contracting officials to
        develop and implement internal controls to identify and refer cases warranting consideration
        for procurement suspension and debarment to the centralized division.

        Agency Response
        We received written responses from Departmental Management, Office of Procurement and
        Property Management; Office of the Chief Financial Officer; Farm Service Agency; Forest
        Service; Rural Development; and Food and Nutrition Service. These responses are included
        at the end of this report.




17
     Gonzalez v. Freeman, 334 F. 2d 570 (D.C. Cir.1964).



Audit Report 50601-14-At                                                                               7
   OIG Position
   We accept the management decisions on Recommendations 1, 4, 5, 6, 8, 9, 16, 18, 19, 20, 21,
   23, 24, 26, and 27. The actions needed to reach management decisions on Recommendations
   2, 3, 7, 10, 11, 12, 13, 14, 15, 17, 22, and 25 are provided in the OIG Position section after
   these recommendations.




Audit Report 50601-14-At                                                                       8
Background & Objectives

Background
Debarment and suspension are tools used by the Government to ensure that it does business with
only responsible persons and entities. A debarment is an action taken to exclude persons or
entities from doing business with the Government generally for periods up to 3 years for certain
causes,18 such as commission of a fraud or certain other crimes, or violations of certain statutes.
Suspension, which can precede a debarment, is a temporary action. It can be used pending
completion of an investigation or legal proceeding. Suspension and debarment actions may be
pursued concurrently with civil or criminal proceedings. These remedies have been part of the
Federal procurement system since the 1940s, but lacked a consistent and uniform regulatory
structure until the enactment of the Federal Acquisition Regulation (FAR) in 1983. Subpart 9.4
of the FAR covers suspension and debarment; these regulations are supplemented at the
Department of Agriculture (USDA) through the USDA Acquisition Regulation, 48 Code of
Federal Regulations (CFR), subpart 409.4.19

Recognizing that a significant part of Federal monies is also expended on nonprocurement
activities and programs such as grants, loans, loan guarantees, and other Federal assistance
programs, efforts were also undertaken to incorporate the suspension and debarment remedies
into the nonprocurement area. In 1986, the President signed an Executive order directing Federal
departments and agencies to participate in a system for debarment and suspension from programs
and activities involving Federal financial and nonfinancial assistance and benefits. In May 1987,
the Office of Management and Budget (OMB) implemented the Executive order with its
issuance of guidelines for nonprocurement suspension and debarment. In May 1988,
27 agencies, not including USDA, published a common rule that set forth a uniform system of
suspension and debarment in the nonprocurement area. USDA’s nonprocurement suspension
and debarment rule became effective March 1, 1989.20 In August 1989, the President ordered
suspension and debarment actions under the FAR and the nonprocurement common rule to have
reciprocal effect.21

The nonprocurement regulations parallel the FAR procurement rules on significant process
issues such as notice, opportunity to contest, and requirements for cause to exist. Both
suspended and debarred contractors and program participants are listed on the General Service
Administration’s (GSA) Excluded Parties Listing System (EPLS). Federal agencies are required


18
   The suspension and debarment regulations provide agencies broad authority to take actions to protect public programs against any individual or
entity that presents a rational business risk to the Government’s programs. 68 Federal Register 66,533, 66,542 (Nov. 26, 2003). For example,
agency officials may debar due to serious conduct resulting in a criminal conviction or civil judgment, violation of Federal statutes or the terms of
public agreements, a history of failure to perform or unsatisfactory performance on a public agreement, or any other cause serious enough to
affect the present responsibility of the individual. 2 CFR 180.800.
19
   See also 48 CFR pt. 432.006; 48 CFR section 423.506; 48 CFR section 449.106.
20
   Apart from the March 1, 1989, rule that provided administrative suspension and debarment authority, many USDA agencies also have statutory
authority to sanction, fine, and disqualify those who abuse their programs. For example, the Risk Management Agency (RMA) may disqualify
those who intentionally violate its crop insurance statutes. Disqualification under such authority is limited to the particular program and agency
in which the abuse occurred. In contrast, suspensions and debarments have Governmentwide effect. Nevertheless, the regulations require that
disqualification actions be listed on the GSA’s Excluded Parties Listing System, which will give effective notice to other agencies of the
disqualification. 7 CFR 3017.515, 3017.520.
21
   When a program violator is debarred from obtaining new contracts, grants, or other assistance under the nonprocurement common rule, the
violator is also debarred from obtaining new procurement contracts regulated by the FAR, and vice versa.



Audit Report 50601-14-At                                                                                                                           9
to consult this listing before granting new benefits or issuing new contracts 22 so that they may be
certain they are dealing with responsible persons and entities.

USDA implemented the President’s Executive orders and OMB guidance for nonprocurement
suspension and debarment in 7 CFR 3017 and has defined covered transactions to be transactions
at the primary tier between a Federal agency and a person; and at the lower tier between a
participant in a covered transaction and another person.23 The regulation defined
nonprocurement transactions24 as grants, cooperative agreements, scholarships, fellowships,
contracts of assistance, loans, loan guarantees, subsidies, insurances, payments for specified
uses, and donation agreements. The regulation further stated that a nonprocurement transaction
at any tier does not require the transfer of Federal funds. The USDA regulation also listed the
transactions excluded from covered transaction status in the nonprocurement suspension and
debarment rules by the President’s 1986 Executive order and OMB guidance to include:

     ·     statutory entitlements or mandatory awards;
     ·     direct awards to foreign government entities or public international organizations;
     ·     benefits to an individual as a personal entitlement;
     ·     Federal employment;
     ·     incidental benefits derived from ordinary Governmental operations;
     ·     permits, licenses, and certificates issued to regulate public health;
     ·     transactions pursuant to national or agency-recognized emergencies or disasters; and
     ·     other transactions where the application of the guidelines would be prohibited by law.

In USDA’s implementation of the nonprocurement common rule, including subsequent
modifications to its rule, the Department excluded numerous major programs and program
transactions from implementation, either because the programs were entitlements or required
mandatory awards, or due to the Department’s position that the program exclusions were
necessary and in the public interest. See exhibit A for a detailed discussion of the history of
implementation of the suspension and debarment authorities within USDA.

Recent USDA Suspension and Debarment Actions

USDA has recently taken suspension and debarment actions in at least two high-profile cases.

     ·    In February 2009, the Agricultural Marketing Service (AMS) suspended the Peanut
          Corporation of America for delivering peanut products containing salmonella as part of
          the National School Lunch Program.
     ·    In December 2006, the Foreign Agricultural Service (FAS) took debarment actions
          against the Australian Wheat Board because of evidence indicating the Board engaged in
          bribery and kickbacks.



22
   2 CFR 180.300, 180.425, 180.430; 7 CFR 3017.425, 3017.430, 3017.505.
23
   7 CFR 3017.200.
24
   7 CFR 3017.210 and 3017.970.



Audit Report 50601-14-At                                                                            10
USDA’s actions in this foreign case reflect the upswing in using suspension and debarment in
cases of international fraud and corruption. For example, between 1999 and 2008, the World
Bank debarred 343 firms and individuals from doing project-related development work due to
corrupt practices—in many cases permanently. Also, the European Commission adopted new
public procurement directives in 2004 containing provisions for mandatory exclusion of
candidates for participating in criminal organizations, corruption, fraud, and money laundering.

New Laws Strengthen Suspension and Debarment

According to the Congressional Research Service, Congressional interest in suspension and
debarment has dramatically increased due to recent high profile cases of contractor misconduct
including failure to pay taxes, bribery, falsifying Government records, and poor contractor
performance. Since 2007, Congress has enacted new legislation to make suspension and
debarment more effective.25

In the 2008 Farm Bill, Congress granted the Secretary authority to permanently debar
individuals, organizations, corporations, or other entities convicted of a felony for knowingly
defrauding the United States in connection with any USDA program from any subsequent
participation in USDA programs. The Secretary may reduce the permanent debarment to a
period of 10 years and exclude food assistance programs as appropriate. However, this is not
Governmentwide debarment. Therefore, USDA needs to fully implement Governmentwide
debarment authorities to protect other Federal agency programs.

On May 25, 2010, the USDA Office of Chief Financial Officer (OCFO) published a new interim
final rule for implementing Governmentwide nonprocurement debarment and suspension that
includes the above new statutory authority. After discussions with agency officials, OCFO has
tentatively decided to retain the majority of its program exclusions in the new rule to
implementing suspension and debarment, with two exceptions.

First, USDA is narrowing its exclusions for nonprocurement and some limited procurement
transactions26 below the primary tier in its export credit guarantee and foreign assistance
programs.27 These exclusions will apply only to lower tier transactions implemented outside the
United States which usually involve foreign language contracts and foreign contractors. While
there will be no covered transactions below the primary tier transaction in these programs,
USDA will still require primary tier participants in the programs to check GSA’s EPLS and not
enter into a transaction exceeding $25,000 at the first lower tier with a person who is excluded or
disqualified. For example, a United States private voluntary organization in a food aid program
would be prohibited from entering into, at the first lower tier, an agreement with a subrecipient


25
   These laws include requirements for: (1) contractors to notify agency officials of overpayments or Federal crimes in connection with the award
or performance of government contracts; (2) the creation of a database with information about contractors beyond that in GSA’s EPLS, e.g.,
administrative agreements and terminations for default; and (3) contractors that have been found to have intentionally affixed a “Made in
America” inscription on ineligible products to be debarred.
26
   OCFO’s interim final rule is for nonprocurement suspension and debarment. Procurement suspension and debarment is regulated by the FAR
subpart 9.4. However, some procurement transactions are covered by the nonprocurement rule. These are procurement contracts awarded by
non-Federal program participants needed to carry out their nonprocurement contracts, e.g., purchases of goods and services. 2 CFR section
417.220.
27
   7 CFR 3017.215(i) and 7 CFR 3017.220(c).



Audit Report 50601-14-At                                                                                                                     11
or procurement contract, above $25,000, with an entity listed as excluded or disqualified on
GSA’s EPLS.

Second, OCFO proposed to remove the exclusion applied to transactions under USDA’s
conservation programs, warehouse licensing programs, and programs that provide statutory
entitlements and make available loans to individuals and entities in their capacity as producers of
agricultural commodities.28 With regard to USDA’s conservation and commodity programs, the
May 25, 2010, interim final rule states that USDA has determined that the interests of the United
States are not adequately protected if persons who have been suspended or debarred are allowed
to participate in these programs. Regarding the warehouse licensing programs, these would
continue to be excluded from covered transaction status under another section of the rule 29 which
excludes the receipt of licenses, permits, certificates, and indemnification under regulatory
programs conducted in the interest of public health and safety. With respect to programs
providing statutory entitlements and loans to agricultural producers, personal entitlement
transactions would remain excluded from covered transaction status in the rule. For example, an
agricultural producer would continue to be eligible for a loan related to an emergency or natural
disaster that is classified as a personal entitlement even though the producer was suspended or
debarred from other Federal programs covered by the suspension and debarment regulations.
Other traditional agricultural loans, including farm ownership and operating loans, would be
covered by suspension and debarment.

Objectives
Our overall objective was to assess USDA agencies’ awareness and use of the suspension and
debarment authorities and regulations. Specifically, we determined if the authorities and
regulations were being effectively utilized and if they were enforced so that Government
programs are protected from harm and losses.




28
     7 CFR 3017.215(j).
29
     See 2 CFR 417.215(a)(3).



Audit Report 50601-14-At                                                                        12
Section 1: Nonprocurement Suspension and Debarment

Finding 1: USDA Needs to Finalize New Regulations Implementing a
More Active Nonprocurement Suspension and Debarment Program
When USDA implemented suspension and debarment in its nonprocurement programs in the late
1980s and 1990s, it established in regulation a wide range of program exclusions that
compromised the Department’s participation in this important Federal initiative. In fiscal year
(FY) 2007, due to these exclusions, the agencies did not implement suspension and debarment in
programs comprising $98 billion of the Department’s $124 billion budget (79 percent). As we
discuss in Findings 2, 3, and 4, the agencies have provided reasons for why their programs
should be excluded. However, we question the agencies’ reasons. These reasons may not be
advisable and the agencies’ program exemptions may not be applied appropriately. USDA’s
program exclusions do not parallel the practices of other Federal agencies who implement
suspension and debarment in similar programs specifically to protect the public interest. Finally,
the agencies have not submitted adequate statutory language supporting their exclusions. Even
in cases where the exclusions are justifiable, the exclusions have been misinterpreted to mean
that nonresponsible parties cannot be debarred based on the misconduct at issue. Senior
Departmental officials published a new interim final rule for suspension and debarment on
May 25, 2010. However, the new interim final rule retains the majority of the agencies’ existing
program exclusions. Swift and effective action to implement the suspension and debarment
authorities is important because, at present, USDA is suspending and debarring very few
program violators. Of the 1,073 convictions the OIG Office of Investigations reported to USDA
agencies from FYs 2004 to 2007, only 38 individuals (4 percent) were debarred.30

In 1986, the President signed an Executive order directing all Executive departments and
agencies to develop a regulatory system to suspend and debar from Federal programs and
activities individuals and entities that proved themselves nonresponsible by violating or
otherwise abusing Federal programs.31 The President authorized the Director of OMB to issue
guidelines to Executive Departments and agencies governing which programs and activities are
covered by the order, and setting forth other details for effective administration of the guidelines.
Suspensions and debarments are intended to protect the public interest by ensuring that Federal
programs conduct business with responsible persons and entities. Administrative suspension and
debarment may not be used for the purpose of punishment.32 If an individual abuses a
Government program, then that person can be excluded from the program through statutory
disqualification within that program, or punished through criminal prosecution. Suspension and
debarment protects the entire Government by preventing program abusers from entering into
future Government contracts and nonprocurement transactions with that agency and other
agencies or Departments.




30
   Between 2004 and 2007, USDA agencies performed 27 fact-based debarments of individuals due to program violations, contract abuse, or
procurement transactions. See figures 2-4 on pages 16-18. These debarments were initiated for causes other than conviction of a crime;
generally, debarments based on convictions of crimes do not require a separate fact finding.
31
   Executive Order 12549, February 18, 1986.
32
   7 CFR 3017.110.



Audit Report 50601-14-At                                                                                                                  13
According to the President’s Executive order and OMB’s guidance, certain assistance and
benefit transactions were classified as noncovered by the suspension and debarment regulations.
Those included personal entitlements such as social security and food assistance benefits,
Federal employment, and incidental benefits resulting from ordinary Government operations
such as use of the U.S. Postal Service or national forests. Nonresponsible persons might
continue receiving statutory entitlements, such as food assistance, from a noncovered program,
yet those persons can still be suspended and debarred for misconduct from other Federal
programs that are covered by the regulations.

As USDA implemented these Executive orders and OMB guidance from 1989 to 1995, it
excluded most of its programs from suspension and debarment,33 as illustrated below.

           Figure 1: USDA Dollars (in billions) Excluded from Suspension and Debarment
           (79 percent - shown in Red) and Included in Suspension and Debarment
           (21 percent - shown in Green)34
                                                               Departmental
                                                                   $1
           Scientific/Inspection/
            Grading/Marketing
                     $8

                                                                                        FSA
                                                                                        $30

                                                                                                              Commodity
                                                                                                           Purchase (FSA) $1



                                                                                                 RMA
                                                                                                  $6
                                          FNS
                                           $55
                                                                                                       FAS, $4

                                                                                        RD
                                                                                        $14



                                            Forest Service                                National Forest
                                            (non-NFS), $4                                System (NFS), $1


Figure 1 above is a pie chart that shows the FY 2007 USDA budgetary program dollars excluded
from suspension and debarment implementation in red. Budgetary program dollars included in
suspension and debarment implementation are in green. In 2007, 79 percent of USDA’s
$124 billion program budget ($98 billion) was excluded from implementation while 21 percent
(26 billion) was included in implementation. The following agency programs are shown in red
in the pie chart and were excluded as follows.

33
  For simplicity’s sake, we have summarized the history of these exclusions in exhibit A.
34
  Figure Source: USDA FY 2009 Budget Summary and Annual Performance Plan: 2007 Actual Program Level. Wildland Fire Activities are
included in Forest Service (non-National Forest System) because those activities do not fall under the Deputy Chief for the National Forest
System, where suspension and debarment was implemented.



Audit Report 50601-14-At                                                                                                                      14
Departmental                                        $1 billion
Scientific/Inspection/Grading/Marketing             $8 billion
Food and Nutrition Service                          $55 billion
Forest Service (non-National Forest Service
Programs)                                           $4 billion
Farm Service Agency                                 $30 billion
Total Excluded                                      $98 billion

The following agency programs are shown in green in the pie chart and were included as
follows.

Farm Service Agency (Commodity Purchase)            $1 billion
Risk Management Agency                              $6 billion
Foreign Agricultural Service                        $4 billion
Rural Development                                   $14 billion
Forest Service (National Forest System)             $1 billion
Total Included                                      $26 billion

Total 2007 USDA Budget                              $124 billion

As we demonstrate in Findings 2, 3, and 4, many of these program exclusions are questionable—
we discuss individual exclusions within the context of the relevant agency. As USDA moves
forward to finalize its new interim final rule on nonprocurement suspension and debarment, the
Department should remove exclusions that are not adequately justified. For programs the
agencies continue to exclude from suspension and debarment, the agencies need to provide
statutory language justifying their exclusions, or acceptable program rationale supporting the
exclusions. The Department should seek to minimize its program exclusions from suspension
and debarment to more fully implement its authorities.

Additionally, we found that USDA misinterpreted the concept of exclusions. It interpreted an
exclusion to mean that, if individuals have abused a noncovered program, then they will not be
subject to any suspension and debarment action. However, OMB guidance provides that
program abusers should be suspended or debarred even while they continue to receive benefits
from a noncovered program. This is the reason why suspension and debarment have
Governmentwide effect—to protect other Federal agencies and departments from individuals
who have abused one program and are likely to repeat such behavior.

Yet, in general, we found that USDA agencies did not use suspension and debarment to protect
other USDA and Federal agencies. For example, the Food and Nutrition Service (FNS) fined,
sanctioned, and disqualified those who abused its programs, but it did not suspend or debar
nonresponsible individuals. Nor did FNS list program abusers it disqualified in compliance with
its program statutes on GSA’s EPLS to alert other Federal agencies as required by USDA’s
suspension and debarment regulation. Farm Service Agency (FSA) and Rural Development
agency officials told us they did not see the need to protect other Federal agencies from
nonresponsible program recipients they had disqualified from their own programs. They cited as
reasons for their inaction their limited resources and interest only in their assigned programs.


Audit Report 50601-14-At                                                                         15
Even in cases where the agencies obtained convictions against abusers for program fraud, the
agencies did not initiate any action to suspend and debar them.

Several agency officials stated their internal statutory program sanctions and disqualifications
were sufficient to address the misconduct of program violators. They stated these sanctions and
disqualifications frequently put the violators out of business and further debarment actions were
unnecessary. However, statutory program sanctions (including disqualifications) and suspension
and debarment actions have different purposes and are not mutually exclusive. Statutory
program sanctions are punitive in nature and address a program participant’s misconduct in
violating an agreement or contract. These sanctions typically protect the resources of the current
agency program or programs being violated. In contrast, the suspension and debarment
regulations are not punitive. Suspensions and debarments protect other USDA and Federal
agencies when the agencies make future business decisions about awarding new Federal
contracts or assistance. The agencies can identify previous program abusers who have been
debarred and protect their program resources by awarding their new contracts or assistance to
other responsible parties.

Other agency officials told us their older program statutes do not include Governmentwide
suspension and debarment authorities. However, in the absence of express authority in program
statutes, the agencies also possess inherent authority to debar program violators that is incidental
to the effective administration of their programs. This inherent authority was recognized by the
District of Columbia Circuit Court in 1964 in a case involving the Commodity Credit
Corporation (CCC).35 The CCC had debarred a private firm from participating in CCC contracts
for 5 years. The contractor challenged CCC’s authority to debar because there was no explicit
statutory authorization for this restriction. In rejecting the contractor’s broad statutory argument,
the court ruled that the power to debar contractors is “inherent and necessarily incidental to the
effective administration of CCC’s statutory scheme.” Following this case, the only impediments
to USDA agencies’ implementation of suspension and debarment were the lack of regulatory
standards and uniform procedures for providing notice to contractors proposed for debarment
and an opportunity to respond. USDA established its suspension and debarment regulations and
case procedures in 1989.

How USDA responded to program participants convicted of committing a crime against the
Government is an important gauge of the Department’s implementation of suspension and
debarment, because a conviction is an established basis to debar a proven nonresponsible
individual from future Federal programs.36 If a debarment action is based on a conviction, the
standard of proof for debarment is met. Further fact finding is not required. Therefore, if the
Department aggressively pursued suspension and debarment, it would have debarred more of its
program participants convicted of crimes. Instead, of the 1,073 individual convictions the Office
of Inspector General’s (OIG) Office of Investigations reported to the agencies from FYs 2004 to



35
  Gonzalez v. Freeman, 334 F. 2d 570 (D.C. Cir. 1964).
36
  USDA’s suspension and debarment regulation, 7 CFR 3017.800, states that, “We may debar a person for—(a) Conviction of or civil judgment
for---(1) Commission of fraud or a criminal offense in connection with obtaining, attempting to obtain, or performing a public or private
agreement or transaction; * * *.”



Audit Report 50601-14-At                                                                                                              16
2007,37 only 38 individuals (4 percent) were debarred, and 27 of these debarments were
conducted by the Risk Management Agency (RMA)—the only USDA agency with an active and
comprehensive suspension and debarment program.

Figure 2: Cases, Convictions, and Debarments by Agency, FYs 2004 – 2007 for Farm,
Food Assistance, and Disaster Payments (Findings 2 and 3)
                                                                                                               Debarments
                                                      OIG/I Cases with           OIG/I Individual           Reported by Agency
                    Agency
                                                        Convictions                Convictions                  (Based on
                                                                                                               Convictions)
FSA38                                                           84                        147                           0
FNS (wholesalers and retailer)                                 208                        615                           0
FNS – Supplemental Nutrition
                                                                28                        136                           0
Assistance Program (SNAP) recipients


Figure 2 above shows the cases, convictions, and debarments by agency for FYs 2004 to 2007
for USDA farm, food assistance, and disaster payments. These agency suspension and
debarment practices are discussed in findings 2 and 3. The first column lists the agency; the
second column lists the number of OIG Investigation cases where convictions were obtained; the
third column lists the number of individual convictions; the fourth column lists the number of
debarment actions reported by the agencies based on those convictions.




37
   We obtained a listing of convictions of violators of USDA programs for FYs 2004 through May 2007 from OIG’s Office of Investigations.
During fieldwork between July 2007 and April 2009, we provided these convictions to the agencies to determine whether they had taken
suspension or debarment actions.
38
   FSA performed no nonprocurement debarments. FSA did make three fact-based debarments, all of which were under commodity procurement
programs. These three debarments were initiated for causes other than conviction of a crime.



Audit Report 50601-14-At                                                                                                             17
Figure 3: Cases, Convictions, and Debarments by Agency, FYs 2004 - 2007 for Scientific,
Inspection and Grading, Marketing and Natural Resource (Finding 4)
                                                                                                         Debarments
                                                 OIG/I Cases
                Agency                                                    OIG/I Individual               Reported by
                                                    With
                                                                            Convictions                Agency (Based on
                                                 Convictions
                                                                                                         Convictions)
     Animal and Plant Health
                                                       26                          42                            139
     Inspection Service (APHIS)
     AMS40                                              4                          16                             0
     Agricultural Research Service
                                                        5                           6                             9
     (ARS)41
     National Institute of Food and
                                                        1                           1                             0
     Agriculture (NIFA)42
     Food Safety and Inspection
                                                       15                          23                             0
     Service (FSIS)
     Grain Inspection, Packers and
     Stockyards Administration                          1                           6                             0
     (GIPSA)
     Natural Resources
     Conservation Service                               5                          10                             0
     (NRCS)


Figure 3 above shows the cases, convictions, and debarments by agency for FYs 2004 to 2007
for USDA scientific, inspection and grading, marketing and natural resources agencies. These
agency suspension and debarment practices are discussed in finding 4. The first column lists the
agency; the second column lists the number of OIG Investigation cases where convictions were
obtained; the third column lists the number of individual convictions; the fourth column lists the
number of debarment actions reported by the agencies based on those convictions.




39
   APHIS’ only debarment was for a procurement fraud case rather than a nonprocurement action. The case was pursued by the Office of
Procurement and Property Management (OPPM), not by the agency itself.
40
   In February 2009, AMS suspended Peanut Corporation of America due to its delivery of peanut products containing salmonella as part of the
National School Lunch Program.
41
   ARS referred nine individuals for debarment action to OPPM between 2004 and 2007. The nine resulted from one case in which four
individuals were convicted in 2003 and 2005. Although the remaining five individuals were not convicted, sufficient evidence was discovered
during the investigation to debar them. However, the cases were not timely processed: debarment letters were not sent out until November 2007.
These convictions were not included in the list of convictions we received from OIG Investigations, therefore they were not included here.
However, since OPPM was working on the actions in FY 2007 during our audit, the nine debarments are listed in the table.
42
   The Food, Conservation, and Energy Act of 2008 created the NIFA. It replaced the former Cooperative State Research, Education and
Extension Service.



Audit Report 50601-14-At                                                                                                                  18
Figure 4: Cases, Convictions, and Debarments by Agency, FYs 2004 - 2007 for Agencies
not claiming program exemptions, with totals for Figures 2 - 4
                                                                                                       Debarments
                Agency                       OIG/I Cases                 OIG/I Individual              Reported by
                                            With Convictions               Convictions               Agency (Based on
                                                                                                       Convictions)
     FAS43                                             2                           3                        0
     Rural Business-Cooperative
     Service (RBS)                                     3                           7                            0
     Rural Housing Service
     (RHS)44                                          22                          29                            1
     RMA45                                            17                          26                            27
     Rural Utility Service (RUS)46                     3                           6                            0
     TOTALS (Figures 2 - 4)                           424                       1,073                           38


Figure 4 above shows the cases, convictions, and debarments by agency for FYs 2004 to 2007
for USDA agencies not claiming program exemptions. The last line of the figure lists the totals
for all agencies listed in figures 2-4. The first column lists the agency; the second column lists
the number of OIG Investigation cases where convictions were obtained; the third column lists
the number of individual convictions; the fourth column lists the number of debarment actions
reported by the agencies based on those convictions.

We found that FSA officials often were unaware of the differences between the FSA and RMA
regulations for internal program statutory disqualifications and nonprocurement debarment. In
accordance with the Agricultural Risk Protection Act of 2000, violators of crop insurance
regulations are excluded from receiving monetary or other benefits under a variety of USDA
statutes for a period not to exceed 5 years. For example, FSA officials at the State level knew
they had to honor an RMA disqualification action of a producer when making a decision about
awarding program benefits; however, they were unsure about how to respond to an RMA
debarment action. In addition, the President’s Executive order requires that agencies post their
statutory disqualification actions on GSA’s EPLS along with their debarments. USDA’s
nonprocurement suspension and debarment regulation also includes this requirement. However,
FSA officials were not posting their disqualification actions of program abusers on GSA’s EPLS.
These problems will need to be addressed before the agencies can fully implement the
suspension and debarment authorities.

In April 2009, OCFO stated that it wanted to more fully implement its authority to suspend and
debar program violators. On May 25, 2010, OCFO issued an interim final rule for


43
   FAS made two fact-based debarments not shown. They applied to a foreign quasi-governmental organization and a private voluntary
organization involved in a foreign food aid program.
44
   RHS made eight fact-based debarments not shown (see Finding 5).
45
   RMA made 11 fact-based debarments not shown.
46
   RUS also made three fact-based debarments not shown (see Finding 5).



Audit Report 50601-14-At                                                                                                             19
nonprocurement suspension and debarment. As documented in the interim final rule, OCFO
decided to retain the majority of the agencies’ program exclusions from implementing
suspension and debarment. The interim final rule is subject to change based on comments
received through July 26, 2010. We discuss the agencies’ program exclusions in Findings 2, 3,
and 4.

During our audit fieldwork, USDA has taken suspension and debarment actions in at least two
high-profile cases.

   ·   In February 2009, AMS suspended the Peanut Corporation of America for delivering
       peanut products containing salmonella as part of the National School Lunch Program.
   ·   In December 2006, FAS took debarment actions against the Australian Wheat Board
       because of evidence indicating the Board engaged in bribery and kickbacks.

During 2008, USDA agencies suspended and/or debarred another 38 individuals or entities. In
2009, the agencies had suspended or debarred 38 individuals. RMA remained active in
implementing the authorities. In 2008, 9 of 38 actions were taken by RMA and in 2009, 4 of 38
actions were taken by RMA. Since working with OCFO on the new interim final rule for
suspension and debarment, FSA has debarred one individual in 2008 and nine in 2009.

We regard these developments as steps in the right direction. However, USDA has much to
accomplish before it will have an active and effective suspension and debarment program. For
example, the finalized rule for suspension and debarment must adequately justify the agencies’
program exclusions that have prevented USDA from fully implementing this Governmentwide
initiative and clarify how exclusions should be interpreted for program abusers in entitlement
programs. In addition, OCFO and the agencies should work together to develop performance
indicators and measures to assess the effectiveness of USDA’s implementation of the suspension
and debarment regulations. The agencies’ performance results should be reported annually to
OCFO.

Agency officials, and OIG, involved in the potential suspension or debarment of an indicted or
convicted individual or entity should coordinate with the Department of Justice attorney handling
the case. This coordination is even more critical for indictments. OIG is currently working to
make this process more effective through participation on the Interagency Suspension and
Debarment Committee. This Committee is drafting a Governmentwide memorandum on the
coordination of suspension and debarment proceedings with concurrent civil and criminal
actions. This effort addresses the need, in some cases, to pursue both criminal and civil actions
concurrently with the pursuit of suspension and debarment actions. One benefit, of many, is to
be able to impose suspension and debarment in a timely manner, rather than to wait for the
conclusion of civil or criminal actions.




Audit Report 50601-14-At                                                                      20
   Recommendations to the Assistant Secretary for Departmental Management and Chief
   Financial Officer

   Recommendation 1
   Issue a secretarial directive to all agencies, directing them to fully implement
   nonprocurement suspension and debarment, according to the President’s Executive orders
   and OMB’s guidance. Clarify, in that directive, that those who abuse transactions excluded
   from covered transaction status in the suspension and debarment regulations should still be
   considered for suspension and debarment to protect other Federal programs that are covered
   by the regulations.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Department will issue a memo to all agencies providing clarification that those who
   abuse excluded transactions should be suspended and debarred. OCFO will issue a new
   Departmental regulation on Federal Financial Assistance that will require full
   implementation of nonprocurement suspension and debarment requirements and clarify that
   those who abuse excluded transactions should be suspended and debarred.

   OCFO expected corrective action to be completed by July 31, 2010. The revised regulations
   were approved by the Secretary of Agriculture on March 24, 2010, and published in the
   Federal Register by May 31, 2010. The Secretary’s memorandum would be issued by
   July 31, 2010. On August 11, 2010, OCFO confirmed that the Departmental memorandum
   has not been issued and is currently in clearance.

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 2
   Direct USDA agency administrators to review their program statutes and operations to
   identify program transactions that are excludable from suspension and debarment
   implementation. For program transactions to be excluded from suspension and debarment,
   provide adequate statutory language justifying the exclusions or an acceptable program
   rationale supporting their noncovered status.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Office of the Chief Financial Officer and Office of the General Counsel fully reviewed,
   with applicable agencies, all of USDA’s suspension and debarment not covered transactions
   in the latest round of regulation updates. All transactions that remain not covered by
   suspension and debarment have been justified. As a result of this review, two types of
   transactions were removed from the listing. They are:


Audit Report 50601-14-At                                                                     21
   ·   With respect to the Department of Agriculture’s export and foreign assistance programs,
       any transaction below the primary tier covered transaction other than a nonprocurement
       transaction under the Market Access Program between a nonprofit trade association or
       state regional group and a United States entity; and
   ·   Any transaction under the Department of Agriculture’s conservation programs,
       warehouse licensing programs, or programs that provide statutory entitlements and make
       available loans to individuals and entities in their capacity as producers of agricultural
       commodities.

   OCFO stated that corrective action would be completed May 31, 2010, when justifications
   were provided for all noncovered transactions and the revised regulation was published in the
   Federal Register. The Secretary of Agriculture approved the revised regulation on March 24,
   2010.

   OIG Position
   As reported in this finding, USDA’s program exclusions do not parallel the practices of other
   Federal agencies who implement suspension and debarment in similar programs to protect
   the public interest. Moreover, the agencies could not provide to us during our audit
   fieldwork adequate statutory language supporting the agencies’ exclusions.

   To reach management decision, OCFO needs to provide the written justifications provided
   by the agencies and OGC to support the exclusions that remain in the interim final rule
   published on May 25, 2010. The written justifications should provide adequate statutory
   language supporting the exclusion or an acceptable program rationale supporting their non-
   covered status.

   Recommendation 3
   As part of Departmental efforts to fully implement the authorities, finalize USDA’s new rule
   concerning nonprocurement suspension and debarment. This should include the removal of
   noncovered programs and program transactions from USDA’s suspension and debarment
   rule unless they are adequately justified by program statutory language or acceptable
   program rationale.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Secretary of Agriculture has approved the revised rule and it is awaiting publication in
   the Federal Register. The Office of the Chief Financial Officer and Office of the General
   Counsel fully reviewed, with applicable agencies, all of USDA’s suspension and debarment
   not covered transactions in the latest round of regulation updates. All transactions that
   remain not covered by suspension and debarment have been justified. As a result of this
   review, two types of transactions were removed from the listing. They are:

   ·   With respect to the Department of Agriculture’s export and foreign assistance programs,
       any transaction below the primary tier covered transaction other than a nonprocurement


Audit Report 50601-14-At                                                                       22
      transaction under the Market Access Program between a nonprofit trade association or
      state regional group and a United States entity; and
   · Any transaction under the Department of Agriculture’s conservation programs,
      warehouse licensing programs, or programs that provide statutory entitlements and make
      available loans to individuals and entities in their capacity as producers of agricultural
      commodities.
   OCFO stated corrective action would be completed by May 31, 2010, when the regulation
   was published in the Federal Register. The Secretary of Agriculture approved the revised
   regulation on March 24, 2010.

   OIG Position
   As reported in this finding, USDA’s program exclusions do not parallel the practices of other
   Federal agencies who implement suspension and debarment in similar programs to protect
   the public interest. Moreover, the agencies could not provide to us during our audit
   fieldwork adequate statutory language supporting the agencies’ exclusions.

   To reach management decision, OCFO needs to provide the written justifications provided
   by the agencies and OGC to support the exclusions that remain in the interim final rule
   published on May 25, 2010. The written justifications should provide adequate statutory
   language supporting the exclusion or an acceptable program rationale supporting their non-
   covered status.

   Recommendation 4
   Require timely referrals by agency officials of indicted and convicted program violators to
   suspension and debarment officials for case determination. Also, require USDA agency
   debarring officials to prepare an annual report of suspension and debarment actions taken in
   cases of indictments and convictions, including reasons where no suspension and debarment
   action was taken for indictment and conviction cases.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Department will issue a memo to all agencies requiring timely referrals by agency
   officials of indicted and convicted program violators to suspension and debarment officials
   for case consideration. The letter will also require agencies to justify not taking suspension
   and debarment action in quarterly reports. OCFO will develop supplementary guidance that
   will be issued as a [Chief Financial Officer] CFO bulletin.

   OCFO stated corrective action would be completed January 31, 2011. The memorandum
   would be issued July 31, 2010, and the CFO Bulletin would be issued September 30, 2010.
   On August 11, 2010, OCFO confirmed that the Departmental memorandum has not been
   issued and is currently in clearance.




Audit Report 50601-14-At                                                                        23
   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 5
   Require the agencies to develop performance indicators and measures to assess the
   effectiveness of the agencies’ implementation of the suspension and debarment regulations.
   Agencies should report their performance to OCFO.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Department will issue a memo to all agencies creating the Debarment and Suspension
   Council and reestablishing the Federal Financial Assistance Committee (FFAC). The letter
   will also require reporting of performance indicators. The council and committee will have
   participation from all agencies and will develop recommended performance indicators and a
   required reporting schedule. OCFO will develop supplementary guidance that will be issued
   as a CFO bulletin.

   OCFO stated corrective action will be completed January 31, 2011. The FFAC held its first
   meeting April 29, 2010. The first Debarment and Suspension Council meeting was
   originally planned for June 30, 2010. OCFO is now in the process of establishing
   membership roles and formulating the meeting parameters. The Council meeting will be
   scheduled as soon as these tasks are completed. FFAC will develop performance indicators
   and issue its FFAC Charter July 31, 2010. A CFO Bulletin will be issued September 30,
   2010. The first performance metrics are to be reported to OCFO October 30, 2010.

   On August 12, 2010, OCFO informed OIG that the FFAC had completed its charter and the
   debarment and suspension performance indicators before July 31, 2010, as planned.

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 6
   Provide Departmental clarification and guidance concerning the differences between
   Governmentwide suspension and debarment actions and internal agency statutory
   disqualification actions and how the actions are to be used in response to program violations.
   Require the agencies to report their statutory disqualification actions in GSA’s EPLS in
   accordance with USDA’s suspension and debarment regulation.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.




Audit Report 50601-14-At                                                                       24
        The Department will issue a memo to all agencies clarifying the differences between
        Governmentwide suspension and debarment actions and internal agency statutory
        disqualifications actions. The memorandum will also require agencies to report their
        statutory disqualification actions in the General Services Administration Excluded Parties
        List System in accordance with USDA’s suspension and debarment regulation.

        OCFO stated corrective action was to be completed July 31, 2010. On August 11, 2010,
        OCFO confirmed that the Departmental memorandum has not been issued and is currently in
        clearance.

        OIG Position
        We agree with management decision for this recommendation.

Finding 2: FSA Needs to Implement a Nonprocurement Suspension
and Debarment Program
Responsible for approximately one quarter of USDA’s annual budget, FSA used the $31 billion
it received in FY 2007 to make a wide variety of program payments to farmers and ranchers. We
found, however, that FSA did not effectively implement a suspension and debarment process
protecting these funds—officials did not understand that recipients under noncovered programs
should still be considered for suspension or debarment. FSA officials instead believed that their
programs were statutory entitlements or mandatory awards, and were excluded from all
suspension and debarment action. Due to this confusion about the suspension and debarment
process, FSA suspended or debarred few program abusers. Of the 147 individuals who were
convicted of abusing FSA’s programs as reported by OIG’s Office of Investigations between
FYs 2004 and 2007, the agency debarred none.

In 1986, the President’s Executive order directed all departments and agencies to participate in
the system for suspension and debarment from programs and activities involving Federal
financial and nonfinancial assistance and benefits. USDA implemented the President’s
Executive order and OMB guidance for nonprocurement suspension and debarment in 7 CFR
3017 and defined covered transactions to be transactions at the primary tier between a Federal
agency and a person and at the lower tier between a participant in a covered transaction and
another person.47 The regulation defined nonprocurement transactions48 as grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurances, payments for specified uses, and donation agreements. The regulation further stated
that a nonprocurement transaction at any tier does not require the transfer of Federal funds. The
USDA regulation also listed the transactions excluded from covered transaction status in the
nonprocurement suspension and debarment rules by the President’s Executive order and OMB
guidance which included statutory entitlements or mandatory awards among other transactions.

OMB issued guidance in 1988 to implement the President’s Executive order which explained
that only certain transactions—not entire programs—including statutory entitlement transactions

47
     7 CFR 3017.200 and 3017.100.
48
     7 CFR 3017.210 and 3017.970.



Audit Report 50601-14-At                                                                             25
or mandatory awards were to be excluded from suspension and debarment enforcement. In cases
of excluded transactions, an individual’s abuse of a statutory entitlement or mandatory award
would not prevent that individual from receiving the statutory entitlement or mandatory award,
but such an individual should be considered for debarment based on the misconduct related to
the statutory entitlement or mandatory award. As a result of the debarment, the individual would
be prohibited from participating in other Federal programs covered by the suspension and
debarment regulations.

We found, however, that FSA excluded all of its programs from suspension and debarment,
including the agency’s conservation programs, warehouse licensing programs, and farm loan
programs. These exclusions were made because FSA officials concluded that all payments made
to agricultural producers are entitlements or mandatory awards. In our discussions with senior
FSA officials, they affirmed their position that all agricultural loans were also excluded.49
Some of FSA’s program transactions may be classified in their program statutes as entitlements
or mandatory awards; and if so, such transactions are properly considered noncovered by
suspension and debarment. For example, some FSA loans may be entitlements. However, not
all of the agency’s programs are classified in this manner. FSA’s farm ownership and operating
loans are traditional business loans, not entitlements, and are covered by the suspension and
debarment regulations.

Recently, the Department has agreed with this principle and has further questioned if excluding
all of FSA’s programs from suspension and debarment is justifiable. OCFO has been working
with FSA and the Office of the General Counsel (OGC) to review FSA’s program exclusions. In
the May 25, 2010, interim final rule for nonprocurement suspension and debarment, FSA
removed the exclusions which applied to transactions under the agency’s conservation programs,
warehouse licensing programs, and programs that make loans to individuals and entities as
producers of agricultural commodities. With regard to USDA’s conservation and commodity
programs, the rule states that USDA has determined that the interests of the United States are not
adequately protected if persons who have been suspended or debarred are allowed to participate
in these programs. With respect to programs providing statutory entitlements and loans to
agricultural producers, personal entitlement transactions would remain excluded from covered
transactions status in the rule. For example, an agricultural producer would continue to be
eligible for a loan related to an emergency or natural disaster that is classified as a personal
entitlement even though the producer was suspended or debarred from other Federal programs
covered by the suspension and debarment regulations. Other traditional agricultural loans,
including ownership and operating loans, would be covered by suspension and debarment.

Removing these exclusions brings the Department closer to more fully implementing suspension
and debarment, but the interim rule may not yet cover all FSA transactions that should not be
excluded. For example, while the rule eliminates the exclusion from covered transaction status
for transactions in warehouse licensing programs, these transactions will continue to be excluded
from covered transaction status under another section of the rule50 which excludes the receipt of


49
   7 CFR 3017.215(j) exempted from coverage any transaction that “make[s] available loans to individuals and entities in their capacity as
producers of agricultural commodities.”
50
   See 2 CFR 417.215(a)(3).



Audit Report 50601-14-At                                                                                                                     26
licenses, permits, certificates, and indemnification under regulatory programs conducted in the
interest of public health and safety.

As USDA finalizes this rule, it should identify all transactions that are not statutory entitlements
or mandatory awards, and justify their classification as excluded from suspension and debarment.
Clarifying exactly which FSA program transactions are statutory entitlements or mandatory
awards and how the agency will respond to other agencies’ suspensions and debarments is
another important step to move USDA towards fuller implementation of suspension and
debarment. Also, as presented in Finding 1, FSA should recognize its responsibility to consider
suspending and debarring violators of its noncovered program transactions. Even though
violators may continue receiving the mandatory FSA program benefits, they should not receive
future awards from other Federal programs. For example, we identified six cases involving eight
individuals who were convicted of violations of FSA’s emergency loan and disaster program
transactions, which are considered noncovered transactions, between FYs 2004 and 2007; yet
FSA undertook no debarment actions.

We found that RMA was more actively suspending and debarring nonresponsible agricultural
producers, and it used violations of both RMA and FSA regulations as support for these actions.
Between 2004 and 2007, RMA completed 42 suspensions and 38 debarments of producers,
insurance adjusters, and agents, often citing violations of FSA’s programs as support. In
contrast, FSA considered these same violators and violations excluded from suspension and
debarment. In 2008, RMA suspended or debarred 9 of 38 individuals excluded by USDA
agencies; and in 2009, RMA debarred or suspended an additional 4 of 38 individuals excluded
by USDA agencies.

The fact that RMA enforced the suspension and debarment regulations, while FSA did not,
resulted in inconsistent enforcement among USDA agencies. For example, in June 2007, RMA
debarred a producer who pled guilty to charges he made false statements regarding an insurance
policy within the Federal Crop Insurance Program. RMA notified FSA of the debarment, but
FSA instructed State and county officials that certain farm programs are excluded from
debarment and advised consultation with OGC should a question arise about the producer’s
eligibility for future FSA program participation. Thus, while other Federal agencies will respect
RMA’s debarment of this producer, FSA is uncertain about its own position should the
respondent apply for future farm program benefits.

In addition to the suspension and debarment regulations, RMA has statutory authority to
disqualify program violators for willfully and intentionally providing false or inaccurate
information with respect to a policy or plan of crop insurance. Under this statutory authority,
disqualified persons are also prohibited from receiving monetary or other benefits under several
other USDA statutes.51 FSA is bound to honor RMA’s statutory disqualifications. However, an

51
  Under the Agricultural Risk Protection Act of 2000 (Public Law 106-224, Section 121, 114, Stat. 358, 375-76), disqualified producers and
other entities are excluded from purchasing catastrophic risk protection or receiving non-insured assistance for up to 2 years, or other crop
insurance program benefits for up to 10 years. Fines not to exceed $10,000 may also be imposed. The Act also excludes violators from receiving
monetary or other benefits under a variety of USDA statutes for up to 5 years. These USDA statutes include the Agricultural Market Transition
Act, Agricultural Act of 1949, Commodity Credit Corporation Charter Act, Agricultural Adjustment Act of 1938, Title XII of the Food Security
Act of 1985, Consolidated Farm and Rural Development Act, and any law that provides assistance to a producer affected by crop loss or a decline
in commodity prices.



Audit Report 50601-14-At                                                                                                                   27
FSA official told us that FSA officials are uncertain as to how they should respond to a statutory
disqualification of a producer versus a suspension or debarment action.

Disqualifications are punitive internal program sanctions to respond to violations of current
contracts and are only effective within USDA. In contrast, suspensions and debarments are not
punitive, but administrative actions to protect both USDA and other Federal agencies when they
make business decisions about awarding future contracts. The President’s Executive order and
USDA’s suspension and debarment regulation require agencies to post disqualifications,
suspensions, and debarments on GSA’s EPLS. Agencies are required to check GSA’s EPLS
prior to awarding contracts to ensure that bidding contractors have not been debarred before
awarding contracts. This action also serves to warn other USDA and Federal agencies about
disqualifications within the Department.

We also noted that FSA needs to improve its database used for tracking indictments and
convictions of program participants. FSA officials explained that they had not established a
tracking system within its Direct Loan System database to record producers’ convictions into
their program histories because they believed their local county employees’ knowledge of
producers in their area was adequate to prevent subsequent payments to producers convicted of a
crime. However, between FYs 2004 and 2007, we found that FSA made additional program
payments totaling $1.4 million to 19 producers after they were convicted of program violations.
Since indictments and convictions are compelling reasons for suspension and debarment actions,
FSA will need to improve its database system to track these legal actions. Agency officials will
then need to refer indicted and convicted producers to the suspension and debarment official for
case determinations.

Finally, FSA programs are carried out by State and county committees at the local level with the
assistance of FSA headquarters and State officials. Therefore, FSA needs to train these
individuals to ensure compliance with the suspension and debarment regulations. The agency
then needs to conduct followup reviews to validate that the procedures are effectively
implemented.

Since working with OCFO on the new proposed suspension and debarment regulation, FSA has
increased its suspension and debarment actions against program violators. In 2008, FSA
debarred one individual and in 2009, FSA has debarred nine additional individuals.

   Recommendations to the FSA Administrator

   Recommendation 7
   In collaboration with OGC and OCFO, review all FSA program transactions to determine if
   they should be classified as noncovered by suspension and debarment according to the
   President’s Executive orders and OMB’s guidance. For program transactions to be excluded
   from covered transaction status for suspension and debarment, provide adequate statutory
   language justifying the exclusions or acceptable program rationale supporting their
   noncovered status.




Audit Report 50601-14-At                                                                        28
   Agency Response
   In its May 13, 2010, response, FSA stated the following:

   FSA agrees with the need to identify those FSA program transactions that should be
   classified as noncovered by suspension and debarment. On April 29, 2010, FSA was notified
   that the Secretary cleared a substantial revision to Departmental suspension and debarment
   regulations. This revised rule will be published in the Federal Register. It is anticipated that
   many of FSA’s nonprocurement programs will no longer be exempt from the suspension and
   debarment process. Within 180 days from the date the revised regulations are published,
   FSA will work with OCFO and OGC to review what program transactions should be
   classified as noncovered by suspension followed by debarment.

   OIG Position
   We cannot agree with management decision for this recommendation.

   In its response above to this recommendation, FSA agrees that further review is needed to
   identify those FSA program transactions that should be classified as noncovered by
   suspension and debarment, and FSA plans to work with OCFO and OGC within 180 days
   after the regulations are published to review what program transactions should be classified
   as noncovered by suspension and debarment. We agree that due to the number and
   complexity of farms programs administered by the agency, detailed review of farm program
   statutes and transactions is necessary to appropriately implement the suspension and
   debarment authorities. FSA’s response, however, is not consistent with the actions reported
   by OCFO in response to Recommendation 2. OCFO’s May 14, 2010, response explains that
   the OCFO and OGC fully reviewed with applicable agencies, all of USDA’s suspension and
   debarment not covered transactions. All transactions that remain not covered by suspension
   and debarment have been justified.

   To reach management decision, FSA needs to provide the written justifications it and OGC
   provided to support the exclusions that remain in the interim final rule published on May 25,
   2010. The written justifications should provide adequate statutory language supporting the
   exclusion or an acceptable program rationale supporting their non-covered status.

   Recommendation 8
   Issue guidance to agency officials clarifying that those who abuse any noncovered program
   should still be considered for suspension and debarment to protect other Federal programs
   that are covered by the suspension and debarment regulations.

   Agency Response
   In its May 13, 2010, response, FSA stated the following:

   FSA understands that suspension and debarment is a serious action used to protect the public
   interest and is reserved for the most serious cases where immediate suspension, followed by
   debarment, serves as a tool to ensure integrity of the Government’s programs by conducting


Audit Report 50601-14-At                                                                        29
   business only with responsible persons. As discussed in Recommendation 7 above, the
   Secretary has cleared revised suspension and debarment rules that will be published in the
   Federal Register. FSA recognized that, following publication of the new rule, there may be
   very few noncovered transactions. Within 180 days of publication of the revised rules, FSA
   will issue guidance to agency officials implementing the new regulations. This guidance will
   outline the purpose of suspension and debarment and that FSA program transactions
   determined to be noncovered should be considered for suspensions followed by debarment in
   order to protect the integrity of other covered Federal programs.

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 9
   Implement a tracking system within the Direct Loan System to record indictments and
   convictions of agricultural producers so that FSA officials will be alerted if convicted
   producers should reapply for farm program benefits. Establish controls and procedures to
   ensure that indicted, convicted, and other nonresponsible program violators are referred to
   the suspension and debarment official for case determinations.

   Agency Response
   In its May 13, 2010, response, FSA stated the following:

   FSA does not agree with the recommendation to implement a tracking system to record
   indictments and convictions of agricultural producers within the Direct Loan System (DLS).
   FSA’s DLS is limited to tracking the Farm Loan Programs’ direct loan application and loan
   making process, and loan servicing activities. This web-based system is not used by FSA to
   track the application and payment process, and compliance activities for FSA’s direct
   subsidy and non-credit commodity loan programs. Further, due to the sensitive nature of the
   information contained in DLS that concerns FSA’s direct farm loan borrowers, only FSA
   employees responsible for Farm Loan Programs have access to the database. Employees
   responsible for Farm Programs, such as the County Executive Director, do not have access to
   DLS. OIG found that between FYs 2004 to 2007, 19 producers received additional program
   payments after they were convicted of program violations. A total of 19 cases in the span of
   4 years, in relation to the billions of dollars of direct subsidy payments and loan
   disbursements issued by FSA to millions of participants in that same timeframe does not
   justify the substantial cost to enhance DLS in order to track participants who are indicted,
   convicted, or otherwise determined to be irresponsible.

   FSA agrees with the recommendation to establish controls and procedures that will help
   ensure that program violations are referred to the designated suspension and debarment
   official in order to determine if suspension and debarment is warranted. Within 180 days
   from the date of publication of the revised regulations in the Federal Register, FSA will
   develop and establish the necessary controls and procedures for determining when to refer
   program participants who have been indicted, convicted, or otherwise determined to be
   irresponsible to FSA’s designated suspension and debarment official.


Audit Report 50601-14-At                                                                         30
   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 10
   Provide training to FSA headquarters and State officials, and State and county committees,
   about suspension and debarment; develop and implement procedures to refer the violators for
   case determinations for suspension and debarment actions; and conduct followup reviews to
   ensure effective implementation.

   Agency Response
   In its May 13, 2010, response, FSA stated the following:

   FSA agree[s] with the recommendation. FSA will consider the use of the Agriculture
   Learning (Aglearn) System and other tools to provide the necessary training to all FSA
   headquarters and State office officials about suspension and debarment. Automation
   modernization programs currently in development within FSA will also be considered when
   designing training. Further, training will also be provided to FSA State and county
   committees. FSA will issue directives based on applicable Departmental regulations to all
   FSA offices that outline the procedures for referring violators for suspension and debarment
   determinations.

   After suspension and debarment training and issuance of referral procedures throughout FSA,
   followup reviews will be conducted as necessary.

   The actions listed above will begin after the revised suspension and debarment rules have
   been published in the Federal Register.

   OIG Position
   We agree with FSA’s proposed corrective actions; however, to reach management decision,
   FSA needs to provide timeframes for providing suspension and debarment directives and
   training to FSA headquarters and State officials and county committees and conducting
   reviews to determine the effectiveness of the agency’s implementation of the suspension and
   debarment authorities.

Finding 3: FNS Needs to Implement a Nonprocurement Suspension
and Debarment Program
Responsible for almost half of USDA’s annual budget, FNS used the $55 billion it received in
FY 2007 to provide food assistance through a number of programs. We found, however, that
FNS did not effectively implement a suspension and debarment process for protecting
Government funds. FNS officials did not believe suspension and debarment should apply to
FNS programs since they believed the programs were entitlements. Therefore, they excluded
FNS programs from suspension and debarment. In particular, FNS did not recognize that three
broad categories of program violators should be subject to debarment: (1) recipients of food aid


Audit Report 50601-14-At                                                                       31
and disaster benefits who have been convicted of crimes or obtained illegal benefits, (2) retailers
and wholesalers convicted of crimes against USDA, and (3) retailers and wholesalers whom FNS
disqualified from future participation. We found that FNS did not consider for debarment
136 food aid recipients convicted of food assistance program violations between FYs 2004 and
2007, nor did it consider for debarment fraudulent recipients of emergency and disaster aid. We
also found that FNS did not consider for debarment 615 wholesalers and retailers convicted of
food assistance program violations between FYs 2004 and 2007.52 According to FNS’ annual
reports,53 the agency permanently disqualified 3,981 retailers between 2004 and 2008 under
FNS’ own statutory program authorities.54 However, the agency did not consider for debarment
these wholesalers and retailers under USDA’s nonprocurement regulation which would have
Governmentwide effect. FNS’ disqualification actions only serve to protect its own agency
programs from repeat violations by the same disqualified wholesalers and retailers, whereas
Governmentwide debarments would have protected other USDA and Federal agencies from
repeat violations by the nonresponsible wholesalers and retailers. Also, FNS did not post its
statutory disqualification actions on GSA’s EPLS in accordance with the Department’s
suspension and debarment regulations.

In 1986, the President’s Executive order directed all departments and agencies to participate in
the system for suspension and debarment from programs and activities involving Federal
financial and nonfinancial assistance and benefits. Entitlement benefit transactions (such as food
assistance) are considered noncovered by suspension and debarment, but an individual who
abuses an entitlement should be considered for Governmentwide debarment even as that person
continues to receive the entitlement.

Much of FNS’ budget and many of its programs—such as the SNAP, the National School Lunch
and Breakfast Programs, and food disaster and emergency benefits—are considered entitlements,
and USDA therefore correctly classified these program transactions as excluded from covered
transaction status for suspension and debarment. However, FNS interpreted this exclusion to
mean that it would not suspend or debar program violators or those convicted of crimes
involving FNS programs. According to OMB guidance for implementing the President’s
Executive orders authorizing suspension and debarment, such individuals may continue to
receive entitlements, but they can be subject to Governmentwide debarment for misconduct
related to that entitlement program.

Between FYs 2004 and 2007, FNS identified and referred 136 individual food assistance
recipients for prosecution that resulted in a conviction, yet the agency did not refer them for
debarment consideration. Food assistance cases for individuals submitted for prosecution
frequently involved illegal trafficking in food assistance benefits. We acknowledge that
debarring end users of food assistance from other Federal programs may not always be practical,
especially if the dollar impact is relatively small. However, weighing the magnitude of cases
involving end users is entirely consistent with suspension and debarment guidance, and is one of

52
   OIG found that in most of the 615 conviction cases we reviewed, FNS had disqualified the retailers and wholesalers in addition to the criminal
convictions for program violations.
53
   FNS Benefit Redemption Division, Food Stamp Program, Annual Reports from 2004 to 2008.
54
   From 1994 to 2004, FNS’ Child Nutrition Program staff debarred 123 dairy producers pursuant to a Department of Justice initiative to target
bid rigging by dairy farmers. The Child Nutrition Program has not implemented suspension and debarment since 2004. However, FNS officials
stated the agency had retained in-house expertise gained during the Department of Justice initiative that could be used as a training resource.



Audit Report 50601-14-At                                                                                                                      32
the regulatory factors a debarment official would consider in deciding whether to initiate a
debarment. Likewise, FNS did not debar individuals who fraudulently received disaster benefits.
In the aftermath of Hurricane Katrina, FNS did not refer for debarment applicants who had made
false statements regarding their eligibility even though other agencies such as the Small Business
Administration debarred fraudulent recipients of their disaster benefits.

Retailers and wholesalers participating in FNS’ food assistance programs should also be subject
to suspension and debarment. While their services are essential to this entitlement program, they
are not themselves recipients of an entitlement in the same way as an end user of food assistance.
Providing food benefits requires the services of these retailers, who receive food assistance
payments from low-income individuals in exchange for food, and wholesalers who provide food
to these retailers. As we described in Figure 2, FNS did not refer for debarment consideration
615 program recipients—primarily retailers and wholesalers—who were convicted of crimes
against USDA between 2004 and 2007. Food assistance cases for retailers submitted for
prosecution frequently involved illegal trafficking in food assistance benefits such as exchanging
food assistance benefits for cash.

FNS disqualifies retailers and wholesalers from program participation based on a variety of
reasons such as illegal trafficking and other program violations. Retailers and wholesalers who
abuse food assistance programs should be more actively suspended and debarred, as there is the
potential for abusing programs in other departments. In general, a program disqualification
should be adequate grounds for considering these entities for debarment. From FYs 2004
through 2008, FNS permanently disqualified 3,981 retailers and wholesalers from SNAP for
various violations. Despite these disqualifications, FNS did not refer these firms for suspension
and debarment determination. In addition, FNS does not post its disqualification actions on
GSA’s EPLS in accordance with Department regulations to alert other USDA and Federal
agencies.

In April 2009, the Acting Chief Financial Officer explained that the Department better
understands that those who abuse entitlement programs can still be debarred while continuing to
receive entitlement benefits. He stated that food assistance recipients who abuse the program
will no longer be totally excluded from suspension and debarment proceedings. In addition, he
stated that, along with disqualifying retailers and wholesalers who abuse the program under
FNS’ own authorities, FNS will now consider them for debarment under the nonprocurement
regulations with Governmentwide applicability to protect the Government as a whole.

We concluded that, as USDA moves towards a fuller implementation of suspension and
debarment, it needs to direct FNS to initiate suspension and debarment proceedings for its
programs, particularly for: (1) recipients of food aid and disaster benefits who have been
convicted of crimes against USDA or obtained illegal benefits; (2) retailers and wholesalers
convicted of crimes against USDA; and (3) retailers and wholesalers whom FNS disqualified
from future participation.




Audit Report 50601-14-At                                                                        33
   Recommendations to FNS Administrator

   Recommendation 11
   In collaboration with OGC and OCFO, review all FNS program transactions to determine if
   they should be classified as noncovered by suspension and debarment, pursuant to the
   President’s Executive orders and in OMB’s guidance. For programs to be excluded from
   suspension and debarment, provide statutory language justifying the exclusions or acceptable
   program rationale supporting their noncovered status.

   Agency Response
   In its May 24, 2010, response, the FNS Administrator stated that:

   FNS has consulted with the OGC and performed a comprehensive review of FNS program
   transactions. FNS and OGC have determined that program benefits are transactions that are
   not covered by suspension/debarment rules. Departmental Regulations at 7 CFR 3017.215,
   list non-procurement transactions that are excluded, which includes benefit payments to
   individuals, and “entitlement or mandatory awards required by statute, including a lower tier
   entitlement or mandatory award that is required by statute.”

   The vast majority of program transactions conducted by FNS fall under the category of
   benefits, entitlements, and mandatory awards. Therefore, most of FNS’ transactions are
   excluded from suspension and debarment activities by Departmental Regulation 3017.
   SNAP retailer authorizations are not program benefits, and are also not covered by
   suspension/debarment rules. Administrative actions taken against retailers who violate
   program rules include disqualification and termination. FNS has determined that (1) the
   possibility of administratively disqualified SNAP retailers doing business with other Federal
   agencies is relatively low because few Federal benefit programs provide benefits by
   augmenting their beneficiaries’ buying power in the retail system; and (2) the initiation of
   suspension/debarment procedures against such entities, which have already been disqualified
   via program-specific sanctions, would be costly and in most cases not result in a net benefit
   to the Government.

   FNS agrees that the need to protect the interests of other Federal agencies may necessitate
   initiating suspension and debarment actions (or other actions) against disqualified or
   terminated SNAP retailers. One example of action that could be taken would be to list such
   retailers on GSA’s Excluded Parties Listing System (EPLS). While there are some
   confidentiality and administrative issues which need to be fully researched, we believe that
   we may be able to post some retailers with the proper notice. FNS will investigate our
   disqualification and termination actions to develop a protocol for initiating suspension and
   debarment actions, and other possible actions, against SNAP retailers where appropriate and
   cost effective.




Audit Report 50601-14-At                                                                      34
   OIG Position
   We cannot agree with management decision for this recommendation. We do not agree that
   retailers or wholesalers who participate in FNS programs to earn business profits have a
   statutory exclusion from suspension and debarment activities. FNS’ authority to disqualify
   and terminate retailers and wholesalers does not preclude them from suspension and
   debarment activities. Rather, we believe that FNS should consider each disqualified retailer
   and wholesaler for suspension and debarment, and justify those cases where such actions are
   not taken.

   We reviewed the language in the Food Stamp Act and concluded there is no statutory
   entitlement for retailers or wholesalers in the Act. Authorization of a retail food store that
   meets eligibility requirements is not required by statute. Rather the Secretary is required to
   make a “discretionary judgment” about the business integrity and reputation of the applicant,
   the nature of the food business, and the expected SNAP volume. In addition, while the
   President’s Executive order provided for exclusion of benefits to an individual as a personal
   entitlement, benefits received in an individual’s business capacity were not excluded.
   Therefore, we concluded that retailer and wholesaler authorizations are subject to the
   suspension and debarment regulations.

   FNS replied that they had alternative program-specific processes that exist to protect the
   public interest against retailers who violate program rules. However, disqualification
   protects only FNS—not other USDA agencies or other Federal agencies—from the
   disqualified nonresponsible retailer or wholesaler. In its response, FNS questioned the
   benefit of suspending or debarring retailers because of the cost of the process and their
   doubts on whether retailers would be engaged in business with other Federal agencies.
   However, FNS agreed to investigate its disqualification and termination actions to develop a
   protocol for initiating suspension and debarment actions, and other possible actions, against
   SNAP retailers where appropriate and cost effective.

   To reach management decision, FNS needs to provide the timeframe for completing its
   investigation into the agencies disqualification and termination actions. In addition, FNS
   needs to provide the written justifications the agency and OGC developed to support the
   exclusions that remain in the interim final rule published on May 25, 2010. The written
   justifications should provide adequate statutory language supporting the exclusion or
   acceptable program rationale supporting their non-covered status.

   Recommendation 12
   Issue guidance to FNS officials at headquarters and in its regional offices as well as State
   agency officials clarifying that those who abuse entitlement programs should be considered
   for suspension and debarment for misconduct related to those entitlement programs.

   Agency Response
   In its May 24, 2010, response, the FNS Administrator stated the following:




Audit Report 50601-14-At                                                                        35
   FNS has no specific responses at this time to Recommendations 12-14, as these
   recommendations stipulate administrative actions for FNS to undertake that are contingent
   upon the results of the review called for in Recommendation 11.

   We believe it would be more appropriate for the OIG to hold off on making specific
   recommendations at this time pending the results of our review described above and our
   consultations with OGC.

   OIG Position
   We will consider management decision for the recommendation when FNS submits a
   response with its plan and timeframes for implementing the recommended actions to
   implement the suspension and debarment authorities.

   Recommendation 13
   Post all FNS disqualification, suspension, and debarment actions on GSA’s EPLS as
   required.

   Agency Response
   In its May 24, 2010, response, the FNS Administrator stated the following:

   FNS has no specific responses at this time to Recommendations 12-14, as these
   recommendations stipulate administrative actions for FNS to undertake that are contingent
   upon the results of the review called for in Recommendation 11.

   We believe it would be more appropriate for the OIG to hold off on making specific
   recommendations at this time pending the results of our review described above and our
   consultations with OGC.

   OIG Position
   We will consider management decision for the recommendation when FNS submits a
   response with its plan and timeframes for implementing the recommended actions to
   implement the suspension and debarment authorities.

   Recommendation 14
   Provide training and guidance to State agencies who administer FNS entitlement programs to
   require enforcement of the suspension and debarment regulations and perform followup
   reviews to ensure effective implementation.

   Agency Response
   In its May 24, 2010, response, the FNS Administrator stated the following:




Audit Report 50601-14-At                                                                       36
        FNS has no specific responses at this time to Recommendations 12-14, as these
        recommendations stipulate administrative actions for FNS to undertake that are contingent
        upon the results of the review called for in Recommendation 11.

        We believe it would be more appropriate for the OIG to hold off on making specific
        recommendations at this time pending the results of our review described above and our
        consultations with OGC.

        OIG Position
        We will consider management decision for the recommendation when FNS submits a
        response with its plan and timeframes for implementing the recommended actions to
        implement the suspension and debarment authorities.

Finding 4: USDA’s Scientific, Inspection and Grading, Marketing, and
Natural Resources Agencies Need to Implement a Nonprocurement
Suspension and Debarment Program
Responsible for 11 percent of the Department’s budget, USDA’s scientific, inspection and
grading, marketing, and natural resources agencies—APHIS, FSIS, ARS, GIPSA, AMS, NIFA,
Forest Service (FS), and NRCS—spent the $13 billion they received in FY 2007 on a wide range
of program activities including inspecting and grading food; researching new technologies;
certifying and licensing stockyards and slaughter houses; permitting new uses of biotechnology;
issuing permits and licenses; and transacting exchanges and other acquisitions of real property,
rights of way, and easements under natural resource management programs. We found,
however, that USDA excluded many of these agencies’ programs from application of the
nonprocurement suspension and debarment regulations, justifying the exclusions because the
programs are mandatory awards; vital for animal, plant, and public health and safety; or
necessary for agricultural commerce.55 Due to these exclusions, USDA’s scientific, inspection
and grading, marketing, and natural resources agencies did not subject violators of their
programs to suspension and debarment. For example, APHIS is a multi-faceted agency with a
broad mission that includes protecting and promoting the United States’ agricultural health,
regulating genetically engineered organisms, administering the Animal Welfare Act, and
carrying out wildlife damage management. However, we found that 42 individuals had been
convicted for violating APHIS program statutes, yet only 1 individual was referred for
suspension or debarment. Thus, 41 convicted violators who have the ability to impact American
agriculture and other Federal agency programs in the United States have not been considered for
debarment to prevent their repeated illegal activities.

In 1986, the President’s Executive order directed all departments and agencies to participate in
the system for suspension and debarment from programs and activities involving Federal
financial and nonfinancial assistance and benefits. Subsequently, in letters to the USDA Office
of Finance and Management between November 1989 and July 1990, USDA’s scientific,
inspection and grading, marketing, and natural resources agencies explained that many of their


55
     7 CFR 3017.215 (a) through (p).



Audit Report 50601-14-At                                                                            37
programs should be excluded from the nonprocurement debarment and suspension rules for a
variety of reasons. APHIS, FSIS, GIPSA, and AMS excluded from covered transaction status
their programs related to the receipt of licenses, permits, certificates, and grading and inspection
services under regulatory programs in the interest of animal, plant, and public health and safety,
and ensuring fair trade practices. FS excluded its natural resource management programs related
to inspections, permits, licenses, and exchanges and acquisitions of real property and rights of
way. ARS excluded any transaction determined by its agency head to be exempt including
memoranda of understanding and research, cooperative, and development agreements. NIFA
(which was then the Extension Service and Cooperative State Research Service) excluded its
cooperative extension and mandated program awards as statutory entitlements or mandatory
awards. At the time, OGC and the Department accepted these reasons, and implemented the
requested exclusions in the Department’s suspension and debarment regulations.56

In May 2010, OCFO published an interim final rule for nonprocurement debarment and
suspension. As written, the new rule would remove some program exclusions limiting the
implementation of the authorities by the Department’s agencies. However, the new rule would
not make changes to the scientific, inspection and grading, marketing, and natural resources
agencies’ current policies allowing exclusions.

The scientific, inspection and grading, marketing, and natural resources agencies have relied on
the above exclusions to covered transaction status to exclude their programs from suspension and
debarment implementation. However, the agencies have broadly interpreted the exclusions
which are intended to mainly allow the Government to conduct its daily business. This business
includes such things as issuing permits for national forest use, issuing licenses for animal and
plant import and exports, inspecting and grading food without the agencies needing to check
GSA’s EPLS to avoid providing services to suspended or debarred persons. These steps would
be required if a program is subject to the suspension and debarment regulations. Nevertheless,
the OMB guidance quoted below specifically cautions that violations that threaten health and
safety should be considered for debarment.57

Although the causes for debarment do not specifically identify by name violations that threaten
the health and safety of workers or threaten the environment, serious violations of these laws and
regulations have always been subject to suspension or debarment * * *. Any violation of law,
regulation or agreement; or any conduct, failure to perform or other event that seriously threatens
a Federal nonprocurement or procurement activity, is subject to potential suspension and
debarment under this rule.* * *

For example, FS issues thousands of free and nominal value permits for forest uses and products,
e.g., firewood removal, Christmas trees, and recreation. An individual violation of one of these
free or nominal value permits may not rise to the level of a serious violation capable of
threatening the permitted activity. FS would need to review these types of transactions to
determine if they are significant enough to warrant suspension and debarment action. At the
same time, FS also issues commercial/industrial permits for timber sales, concession operators,

56
      7 CFR 3017.215 (a) through (p).
57
     68 Federal Register 66,533, 66,542 (Nov. 26, 2003).



Audit Report 50601-14-At                                                                          38
etc. These permits are frequently of considerable monetary value and the privileges granted to
the permit recipients directly impact the natural resource areas involved. FS will need to review
its permits and licenses to identify those permits which are high dollar, commercial or industrial
in nature, and directly impact the resource area involved. These types of permits should be
considered for suspension and debarment implementation.

The above agencies should reevaluate the breadth of their noncovered transactions to focus only
on specific transactions that are adequately justified for exclusion. Even if a program transaction
is not covered, as we have noted in previous findings, a participant who abuses a noncovered
transaction may still be considered for debarment for misconduct related to that transaction. For
example, the former Environmental Protection Agency (EPA) debarment official explained that
EPA excludes licenses needed to regulate pollution from suspension and debarment, but
routinely suspends and debars polluters who violate clean air and water statutes.

We found that by excluding so many of its scientific, inspection and grading, marketing, and
natural resources programs, USDA was excluding from its nonprocurement suspension and
debarment program the types of violators who are routinely debarred by other Federal agencies.
For example, laboratory research misconduct has become both a domestic and international
problem, and other Federal agencies have used suspension and debarment to protect themselves
from nonresponsible researchers. From January 1995 to March 2010, EPA suspended or
debarred 18 research or laboratory firms. Other Federal agencies conducting research—the
National Science Foundation, the Army, the Air Force, Defense Logistics Agency, Office of
Personnel Management, and the Departments of Transportation, Housing and Urban
Development, and Health and Human Services—currently, as of March 2010, list on GSA’s
EPLS, debarment actions for a total of 51 laboratory and research firms. In contrast, USDA’s
ARS reported no suspensions or debarments between FY 2004 and 2007, even though during
this period, OIG’s Office of Investigations reported convicting six individuals involving
violations of ARS programs. In a May 1990 letter to the USDA Office of Finance and
Management, ARS had cited statutory non-assistance authorities to exclude any transaction
determined by its agency head to be exempt as well as memoranda of understanding and research
support agreements. While ARS officials during our audit may not have been aware of this
history, these long-standing program transaction exclusions from suspension and debarment have
continued in the agency. We found in one ARS case of laboratory misconduct at the University
of California, ARS excluded the principal researcher from that particular grant agreement.
However, ARS took no action to debar the researcher, so the nonresponsible researcher was free
to seek other USDA and Federal research grants.

From FY 2004 through 2007, USDA’s scientific, inspection and grading, marketing, and natural
resources agencies received notice from OIG’s Office of Investigations of 104 individuals
convicted of crimes involving their programs, yet they only initiated debarment actions in

10 cases.58 Even in cases where the agencies had programs that were covered, they had not
established processes to implement the regulations.

58
  Nine of the 10 actions referred by ARS to OPPM were related to convictions that occurred between 2003 and 2005 (see Finding 6). However,
the cases were not timely processed. OPPM sent out notices of proposed debarment to the nine respondents in November 2007. Also,



Audit Report 50601-14-At                                                                                                               39
As USDA moves forward to implement its new rule on suspension and debarment, it should
remove any noncovered transactions for its scientific, inspection and grading, marketing, and
natural resource agencies that are not adequately justified by program statutory language or
acceptable program rationale.

     Recommendations to the Assistant Secretary for Departmental Management

     Recommendation 15
     Require USDA scientific, inspection and grading, marketing, and natural resources agencies
     to reassess their program transactions not covered by the suspension and debarment
     regulations, and amend the interim final rule for nonprocurement suspension and debarment
     to reclassify transactions that are currently considered noncovered and are not adequately
     justified. For program transactions to be excluded from suspension and debarment, provide
     adequate statutory language justifying the exclusions or acceptable program rationale
     supporting their noncovered status.

     Agency Response
     In its May 14, 2010, response, OCFO stated that it concurred with the recommendation:

     * * * [OCFO] and * * * [OGC] fully reviewed, with applicable agencies, all of USDA’s
     suspension and debarment not covered transactions in the latest round of regulation updates.
     All transactions that remain not covered by suspension and debarment have been justified.
     As a result of this review, two types of transactions were removed from the listing. They are:

     ·    With respect to * * * [USDA’s] export and foreign assistance programs, any transaction
          below the primary tier covered transaction other than a nonprocurement transaction under
          the Market Access Program between a nonprofit trade association or State regional group
          and a * * * [United States] entity; and
     ·    Any transaction under * * * [USDA’s] conservation programs, warehouse licensing
          programs, or programs that provide statutory entitlements and make available loans to
          individuals and entities in their capacity as producers of agricultural commodities.

     OCFO stated that the revised regulation was approved by the Secretary of Agriculture on
     March 24, 2010. Corrective action would be completed May 31, 2010, when justifications
     would be provided for all noncovered transactions and the revised regulation would be
     published in the Federal Register.

     OIG Position
     As reported in Finding 1, USDA’s program exclusions do not parallel the practices of other
     Federal agencies who implement suspension and debarment in similar programs to protect




convictions of those abusers violating FS programs are not included in these numbers, which represent convictions reported to USDA agencies by
OIG’s Office of Investigations. FS has its own internal law enforcement officers who report separately to FS management. Also, see Finding 5.



Audit Report 50601-14-At                                                                                                                  40
   the public interest. Moreover, the agencies could not provide to us during our audit
   fieldwork adequate statutory language supporting the agencies’ exclusions.

   To reach management decision, OCFO needs to provide the written justifications provided
   by the agencies and OGC to support the exclusions that remain in the interim final rule
   published on May 25, 2010. The written justifications should provide adequate statutory
   language supporting the exclusion or an acceptable program rationale supporting their non-
   covered status.

   Recommendation 16
   Direct the administrators of USDA’s scientific, inspection and grading, marketing, and
   natural resources agencies to issue guidance to agency officials clarifying that those who
   abuse noncovered entitlement programs or mandatory awards are subject to consideration for
   suspension and debarment from other Federal programs covered by suspension and
   debarment.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Department will issue a memo to all agencies providing clarification that those who
   abuse noncovered entitlement programs or mandatory awards are subject to consideration for
   suspension and debarment from other Federal programs covered by suspension and
   debarment.

   OCFO stated corrective action would be completed July 31, 2010, when the memorandum of
   direction is issued. On August 11, 2010, OCFO confirmed that the Departmental
   memorandum has not been issued and is currently in clearance.

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 17
   Provide training and guidance to USDA scientific, inspection and grading, marketing, and
   natural resources agency officials regarding the suspension and debarment regulations.
   Require the agencies to establish controls and procedures to identify fraud and misconduct
   related to their programs and to refer for suspension and debarment determination indicted,
   convicted, and other nonresponsible program violators. Perform followup reviews to ensure
   effective implementation of the regulations.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Debarment and Suspension Council will develop Departmental debarment and
   suspension training to be posted on Aglearn. The Debarment and Suspension Council will


Audit Report 50601-14-At                                                                    41
   also develop and require reporting of performance indicators. The Debarment and
   Suspension Council will use the performance indicators to ensure implementation of the
   regulations and determine when additional actions may be required. Finally, the Secretary’s
   memorandum will include guidance regarding the suspension and debarment regulations.

   OCFO stated corrective action will be completed October 30, 2010. OCFO will issue the
   Department memorandum and FFAC will develop performance indicators July 31, 2010.
   Performance metrics are to be reported to OCFO October 30, 2010.

   On August 12, 2010, the OCFO informed OIG that the FFAC had approved its debarment
   and suspension performance indicators at its July 8, 2010, meeting.

   OIG Position
   We agree with the proposed corrective actions. However, to reach management decision, the
   OCFO needs to provide a plan or timeframes to require agency officials to:

   ·   study the suspension and debarment training provided on Aglearn and to certify the
       training is completed or a plan to monitor and ensure that all agency officials who may be
       impacted by the suspension and debarment regulations have completed the training;
   ·   establish controls and procedures to identify fraud and misconduct related to their
       programs and to timely refer for suspension and debarment determinations indicted,
       convicted, and other nonresponsible program violators, and
   ·   develop and perform followup reviews at agencies to ensure effective implementation of
       the regulations.




Audit Report 50601-14-At                                                                      42
Section 2: Organization of Suspension and Debarment Activities

Finding 5: USDA Needs to Centralize its Overall Organization for its
Nonprocurement Suspension and Debarment Program
The Secretary delegated oversight and guidance responsibility for nonprocurement suspension
and debarment to OCFO, but that office did not develop internal controls to identify cases for
suspension and debarment; provide direction, training, and guidance to responsible agency
officials; or review the results of the Department’s efforts. Although OCFO has recently become
more active in advocating USDA’s implementation of a nonprocurement suspension and
debarment program consistent with applicable Executive orders and OMB guidance, that office
has not historically emphasized the suspension and debarment program. Also, neither OGC nor
OCFO endorsed the creation of a centralized suspension and debarment division when it was
considered in 1997, citing concerns about whether there would be enough work for such a
division. Without guidance from OCFO, agency officials have implemented the program
inconsistently, and in some cases not at all. Just as we found wide variances in agency officials’
knowledge, experience, and inclination in the area of suspension and debarment, we also found
wide variability in how their agencies were attempting to apply the regulations. As a result,
USDA implemented an inconsistent and decentralized nonprocurement suspension and
debarment program.

In 1986, the President’s Executive order directed all departments and agencies to participate in
the system for suspension and debarment from programs and activities involving Federal
financial and nonfinancial assistance and benefits.

For a department to implement an effective suspension and debarment program, it must
(1) develop an internal control plan for identifying and processing cases, (2) provide written
policy guidance for applying that plan throughout the department, (3) train all appropriate
department and agency officials in that plan, (4) monitor the effectiveness of the suspension and
debarment program through a system of reviews,59 and (5) improve controls over awards to
assure that debarred entities do not participate in covered transactions. We found that USDA’s
suspension and debarment program did not meet these minimum standards.

The lack of a coherent and consistent suspension and debarment process led to the decentralized
and ineffective suspension and debarment program that exists at USDA. At present, the
Department has 21 suspension and debarment officials, usually agency administrators. In the
agencies we reviewed, the suspension and debarment officials had not received formal training in
suspension and debarment regulations and procedures. In addition, the officials were unaware of
the overall Federal suspension and debarment environment, including current practice and legal
precedent. They relied heavily on their OGC attorneys, but we found that the OGC attorneys
were separately attempting to develop form letters and gain experience with the process as they


59
  “The George Washington University Law School, Public Law and Legal Theory Working Paper No. 88, Suspension and Debarment:
Emerging Issues in Law and Policy,” Public Procurement Law Review (Draft) Volume 13; “Emerging Issues in Suspension and Debarment:
Some Observations from an Experienced Head,” Richard J. Bednar, Senior Counsel, Crowell & Moring LLP, Washington, D.C., former Army
debarring official. These papers derive from a November 20, 2003, colloquium at the George Washington University Law School.



Audit Report 50601-14-At                                                                                                          43
handled individual cases. Thus, the individual agency actions were uncoordinated and subject to
inconsistencies in processing and determinations on final actions.

Decentralizing the process has resulted in some notable inconsistencies in those agencies that
attempted to implement suspension and debarment without Departmental guidance. For example,
Rural Development’s attempt to implement a nonprocurement suspension and debarment
program has been ineffective. From 2004 to 2007, Rural Development State offices and its
Financial Management Division received 42 notices from OIG’s Office of Investigations that
individuals participating in Rural Development programs had been convicted of crimes involving
those programs. However, none of these cases were brought to the attention of the agency’s
suspension and debarment coordinator by the Financial Management Division. Therefore, no
debarment actions were taken in response to 40 of the 42 convictions to debar these individuals
from Federal programs.60 While debarment actions were not taken in the 40 cases, agency
officials stated their notification policies and other administrative program actions were taken.

Without Departmental guidance, USDA agencies were also inconsistent in how they initiated
suspension and debarment actions. For instance, Rural Housing Service (RHS) considered
debarring 14 firms for defective work. One case that was referred cost just $5,412 to correct,
even though other cases—costing as much as $75,000 to correct—were not referred for
debarment. Meanwhile, FS had established an effective system of suspension and debarment but
limited its reach to only one area: timber sales. FS was unique in the Department, in that the
Chief of the FS delegated responsibility for suspension and debarment below the head of agency
level to the Associate Deputy Chief, National Forest System. Thus, an active suspension and
debarment program was established within the National Forest System mission area for timber
sales. Between FY 2004 and 2007, FS officials stated they debarred 27 and suspended
18 individuals and/or entities respectively. These actions are not included in Figure 3 on
page 17 because OIG’s Office of Investigations did not refer the cases to the agency. FS has its
own separate law enforcement officers. Even though FS established an effective suspension and
debarment operation within the National Forest System mission area for timber sales, it did not
implement suspension and debarment within its procurement or other mission areas.

Such apparent inconsistencies can leave USDA’s debarment decisions open to challenges in
court, as occurred in Lion Raisins, Inc., v. United States.61 In that case, a Federal court
overturned a suspension because it found USDA’s actions were arbitrary and capricious, and
therefore punitive.62 Having a centralized division to process all suspension and debarment
actions would help to build consistency. In addition, a centralized division would add more
credibility to the process by establishing independence between those experts who identify the
violations and prepare the case referral packages for suspension and debarment actions and the
suspension and debarment official in the centralized division who must make a determination on
the cases.



60
   For 2 of the 42 convictions, State officials referred the cases directly to the suspension and debarment coordinator without going through the
Financial Management Division. In one case, the violator was debarred; the other violator accepted a voluntary exclusion.
61
   51 Fed. Cl. 238 (Fed. Cl. 2001).
62
   Suspension and debarment cannot be for purposes of punishment. Rather, suspension and debarment is a business decision made by agency
officials to protect the public interest by conducting business only with responsible persons and entities. (7 CFR 3017.110)



Audit Report 50601-14-At                                                                                                                        44
The problems associated with decentralizing the Department’s suspension and debarment
activities were not limited to initiating cases for debarment. Agencies also did not always check
new program applicants against GSA’s EPLS to verify that they had not been debarred by other
agencies. For example, Rural Development had not established computer software controls on
its lending systems to require users to document that GSA’s EPLS had been checked before
allowing an application review to be completed. Rural Development’s Management Control
Reviews covering its lending programs showed that up to 100 percent of loan program
applications were missing the required GSA’s EPLS check documentation and up to 70 percent
had not documented that recipients had certified their lower tier transactions at various offices.63

We discussed with agency officials the need for improving Rural Development’s loan processing
controls for checking new loan applicants against GSA’s EPLS and documenting the reviews.
Since the agency’s manual controls for documenting the reviews have not been effective in the
past, we suggested including a software control within Rural Development’s automated loan
processing system to require loan specialists to certify they had reviewed GSA’s EPLS before
the loan application could be finalized by the system. While Rural Development is in agreement
that GSA’s EPLS check controls need to be strengthened, officials stated the timing is not right
for instituting new software controls because the current loan processing systems are now in the
process of being retired. A new Comprehensive Loan Program, Common Loan Origination
System is in its final planning phase. In the interim, Rural Development proposed a
compensating control—a strengthened manual system to require a sign-off sheet to be completed
by the loan specialist and the approving official that GSA’s EPLS had been reviewed and
properly documented. This compensating control would permit Rural Development to evaluate
GSA’s EPLS deficiency, identify the root cause, and implement both automated and manual
controls to address the deficiency. Given the status of Rural Development’s automated system,
we will agree to the manual compensating control with the understanding that the new system
will include an automated control to require loan specialists to certify GSA’s EPLS has been
reviewed and the review documented before the system will allow the application to be finalized.

We maintain the Department would benefit from establishing a centralized division specializing
in debarment and suspension actions. OGC outlined the disadvantages of a decentralized process
in a March 1997 decision memorandum to the Secretary:

           The absence of a Departmentwide policy official and the decentralized arrangement for
           the imposition of nonprocurement debarment and suspension leaves the Department
           without a helmsman to guide Department policy in this important area and to coordinate
           the Department’s interaction with the Office of Management and Budget (“OMB”), the
           General Services Administration (“GSA”), and other Federal agencies with respect to
           Governmentwide policy. The considerable day-to-day burden of coordinating the
           Department’s debarment and suspension activities with other agencies presently is being
           borne by the Office of the Chief Financial Officer even though that office does not have
           personnel specifically dedicated to this important function.



63
  Rural Development requires borrowers to certify that they have checked their suppliers and contractors and that they have not been suspended
or debarred.



Audit Report 50601-14-At                                                                                                                    45
In 1997, neither OGC nor the Department endorsed the creation of a centralized suspension and
debarment division, citing concerns about whether there would be enough work for such a
division. As noted however, from FY 2004 to FY 2007, OIG notified agencies of 1,073
individuals convicted of crimes involving USDA programs. Although only 38 individuals were
debarred due to a variety of reasons, such as lack of training and program exclusions, the number
of convictions indicates that a centralized division would have an ample case workload. In
addition, those numbers do not incorporate suspension and debarment actions that should be
taken in other cases of poor or substandard contractor performance or default, or other fraudulent
or wasteful actions that did not meet the U.S. Attorney’s threshold for initiating an indictment or
prosecution of the violator. Nor does the number of convictions include those resulting from FS
law enforcement actions since these are not tracked by OIG’s Office of Investigations. Finally,
with only one staff official assigned part-time to suspension and debarment, OCFO will not be
able to effectively train, guide, and oversee the increasing suspension and debarment caseload as
all the Department’s agencies begin to fully implement the nonprocurement suspension and
debarment regulations.

A centralized suspension and debarment division could serve a number of functions that would
help USDA better implement suspension and debarment. However, it is important to emphasize
that we do not envision that the centralized division would remove the responsibility of
implementing suspension and debarment authorities from agency officials and OGC. Agency
officials at the headquarters, regional, and State levels are program experts and are often the first
to become aware of program violations. OGC is instrumental in assisting agency officials to
make determinations of wrongdoing, and these wrongdoings also form the basis for
documentation in the suspension and debarment referral package. It is currently, and will
continue to be, the responsibility of agency officials and OGC to develop a case referral package
in cases of program violations for review by the suspension and debarment official. The purpose
of the referral is to provide the relevant case facts and allow for an independent and
knowledgeable determination whether the program violator has been proven to be non-
responsible. Agency officials and OGC sometimes work with OIG’s Office of Investigations in
order to identify program violations, develop case facts, and prepare the case referral package.
However, the responsibility of developing the case referral should remain with the agency
program officials and OGC who have expertise in their program operations and regulations.
After completion, the case referral package should be sent to the centralized suspension and
debarment division to assure the case is processed by a suspension and debarment official with
the requisite suspension and debarment knowledge and expertise. The centralized suspension
and debarment division would add considerable value to the process, because it

   ·   Would be responsible for developing and promulgating written Departmental policy
       guidance, providing necessary training and guidance to agency officials, and monitoring
       agencies’ implementation including conducting periodic oversight reviews as warranted;
   ·   Could develop expertise regarding legal precedents in suspension and debarment cases
       and apply that expertise to current cases;
   ·   Could develop and use uniform suspension and debarment correspondence, process
       referrals more timely, track allowed response times, promptly schedule any hearings for
       matters of opposition, and timely render final decisions;



Audit Report 50601-14-At                                                                          46
   ·   Would have a record of the decision processes used to make similar decisions, including
       the lengths of suspension and debarment actions imposed in the cases, to maintain
       consistency in case actions across all USDA agencies; and
   ·   Would relieve agency officials of the responsibility for carrying out the suspension and
       debarment actions, yet it could keep the officials informed of case progress and seek their
       input as necessary, therefore allowing them to concentrate their limited time and
       resources on their program objectives.

We note that the OGC in a January 12, 2010, letter to OIG agreed with our assessment that it will
take some startup time for a centralized division to fully develop the necessary foundation of
suspension and debarment knowledge and experience. The Department will need to ensure that
appropriate staffing resources, funding, and training are provided to the centralized division to
enable it to effectively and efficiently carry out its responsibilities. One of the fundamental
weaknesses in USDA’s current suspension and debarment structure is that the responsibility for
implementation has been assigned to already over-burdened agency administrators as a collateral
duty. To address this weakness, the Department will need to assign staff to the division that is
fully dedicated to suspension and debarment. During our audit, we have observed that agencies
with active suspension and debarment operations, including EPA and GSA, have separate
suspension and debarment divisions with staff fully dedicated to implementing the authorities.

Finally, the centralized division would be responsible for monitoring the effectiveness of the
suspension and debarment program, including:

   ·   Requiring annual agency reports on the numbers of referrals to the division in cases of
       indictments and convictions of program violators, including reasons for those cases
       where no referrals were made;
   ·   Requiring annual agency reports on the numbers of referrals in cases of fact-based
       violations or nonperformance not involving an indictment or conviction;
   ·   Working with OCFO and the agencies to develop performance indicators and measures to
       track and assess the effectiveness of the Department’s implementation of the suspension
       and debarment authorities; and
   ·   Reporting on the agencies’ progress in achieving established performance measures.

The centralized division should provide an annual report on the agency’s performance in
implementing suspension and debarment to the OCFO.

   Recommendations to the Assistant Secretary for Departmental Management

   Recommendation 18
   Establish a centralized division that specializes in suspension and debarment; provides
   coordination, guidance, and training to all relevant agency officials; promotes consistency in
   handling the Department’s suspension and debarment cases; and processes case referrals for
   all actions. Provide appropriate staffing resources, funding, and training to the centralized
   division to enable it to effectively and efficiently carry out its responsibilities.



Audit Report 50601-14-At                                                                         47
   Agency Response
   In its May 14, 2010, response, OCFO stated that it did not concur with the recommendation.

   USDA will establish the Debarment and Suspension Council (Council), and reestablish the
   Federal Financial Assistance Committee (Committee). The Committee will provide
   coordination, guidance and training to all relevant agency officials and promote consistency
   in handling the Department’s suspension and debarment cases. The Council will provide
   executive oversight over the debarment and suspension process while the Committee will
   provide working level knowledge to implement decisions and make recommendations to the
   Council. However, referrals for debarment and suspension actions will be conducted by
   agency program staff. USDA Federal financial assistance programs are diverse and complex.
   There is impressive program and legal expertise at the agency level relative to each program,
   making it inappropriate to consolidate this activity into a centralized unit. As a compensating
   control, the Council and Committee will develop performance metrics to be used in
   monitoring program compliance with debarment and suspension requirements.

   OCFO stated corrective action would be completed June 30, 2011. [Federal Financial
   Assistance Committee] FFAC held its first meeting April 29, 2010. The Debarment and
   Suspension Council originally planned to hold its first meeting June 30, 2010. OCFO is now
   in the process of establishing membership roles and formulating the meeting parameters.
   The meeting will be held as soon as the process is completed.

   OIG Position
   We continue to believe that a centralized division would be the most effective way to
   implement a strong suspension and debarment program at USDA. As noted in the finding,
   we agree with OCFO that program expertise resides at the agency level and legal expertise to
   assist in developing case referral packages resides with the OGC attorneys who work with
   agency legal issues on a daily basis. We also agree that case referral packages for suspension
   and debarment cases would continue to be developed at the agency and OGC level.

   In our view these factors would not prevent the use of a centralized division to ensure
   consistency, effectiveness, and efficiency among the agencies of the Department in handling
   individual cases. However, we agree that the organizational structure proposed by OCFO for
   the Department to implement suspension and debarment incorporates many of the control
   and oversight responsibilities that OIG envisioned for the centralized unit we described in
   our finding and recommendation. Accordingly, we agree with the management decision for
   this recommendation.

   Recommendation 19
   Require the centralized suspension and debarment division to develop and promulgate
   Departmental policy and an internal control plan for identifying cases to be referred for
   suspension and debarment consideration, and assuring suspended and debarred entities do not
   do business with USDA.




Audit Report 50601-14-At                                                                       48
   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Debarment and Suspension Council will develop a training program, performance
   indicators and policy that will be issued as a CFO bulletin. In addition, each agency will be
   required to develop an internal review plan to identify cases to be referred for suspension and
   debarment consideration.

   OCFO stated corrective action would be completed January 31, 2011, according to the
   following schedule.

   Hold first Debarment and Suspension Council meeting                             6/30/2010
   (The first Council meeting, originally planned for June 30, 2010,
   will now be held as soon as OCFO completes the process of establishing
   membership roles and formulating the meeting parameters.)
   Performance indicators developed                                                7/31/2010
   (On August 12, 2010, the OCFO informed OIG that the FFAC had
   approved its debarment and suspension performance indicators at its
   July 8, 2010, meeting.)
   Agencies provide internal review plan                                           8/30/2010
   CFO Bulletin issued                                                             9/30/2010
   Performance metrics are reported to OCFO                                        10/30/2010
   Departmental debarment and suspension training posted to Aglearn                11/30/2010

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 20
   Amend the Department’s suspension and debarment regulations to require that the
   centralized division monitor how the agencies implement suspension and debarment,
   including establishing agency performance indicators and measures, and reporting
   requirements; identifying and correcting any problems detected; and reporting annually on
   the agencies’ performance in implementing the suspension and debarment authorities to the
   OCFO.

   Agency Response
   In its May 14, 2010, response, OCFO stated that it concurred with the recommendation.

   The Debarment and Suspension Council will develop a training program, performance
   indicators and policy that will be issued as a CFO bulletin.

   Corrective action will be completed January 31, 2011 according to the following schedule.

   Hold first Debarment and Suspension Council meeting                     6/30/2010



Audit Report 50601-14-At                                                                        49
   (The first Council meeting, originally planned for June 30, 2010,
   will now be held as soon as OCFO completes the process of establishing
   membership roles and formulating the meeting parameters.)
   Performance indicators developed                                     7/31/2010
   (On August 12, 2010, the OCFO informed OIG that the FFAC had
   approved its debarment and suspension performance indicators at its
   July 8, 2010, meeting.)
   CFO Bulletin issued                                                  9/30/2010
   Performance metrics are reported to OCFO                             10/30/2010
   Departmental debarment and suspension training posted to Aglearn     11/30/2010

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation to the Under Secretary for Rural Development

   Recommendation 21
   Require the Rural Development Administrators for Business and Cooperative Programs,
   Housing and Community Facilities, and Rural Utility Programs to inform the agency’s
   suspension and debarment coordinator upon notification from OIG’s Office of Investigations
   that a program violator has been indicted or convicted.

   Agency Response
   In its May 21, 2010, response, the Office of the Under Secretary for Rural Development
   provided the following comments.

   The intent of this recommendation is to expedite notification of the Agency’s suspension and
   debarment coordinator of currently indicted and/or convicted program violators. Rural
   Development has implemented a process effective April 2010, which accomplishes this end
   result. The Financial Management Division, upon notification by the OIG Office of
   Investigations, is providing the Rural Development suspension and debarment coordinator
   with this information. The coordinator, in turn, is following up with field staff in the affected
   State Offices to ensure the appropriate proposed debarments/suspensions are executed.

   OIG Position
   We agree with management decision for this recommendation.

   Recommendation 22
   Require the Rural Development Administrators for Business and Cooperative Programs,
   Housing and Community Facilities, and Rural Utility Programs to develop a manual system
   to be used by the loan specialist and approving official as an interim compensating control to
   ensure GSA’s EPLS is reviewed and the review documented for new loan applicants.




Audit Report 50601-14-At                                                                         50
   Agency Response
   In its May 21, 2010, response, the Office of the Under Secretary for Rural Development
   provided the following comments.

   The intent of this recommendation is to ensure a reliable process for debarment screenings of
   new applicants to Rural Development programs is in operation. While regulations are in
   place to require loan making staff to check the Excluded Parties List System (EPLS) for loan
   and grant applicant names, documentation of such screenings has not been consistent in
   many cases. To orient our newly appointed State Directors and any new loan making staff in
   the field, an unnumbered letter will be issued during May 2010, reinforcing the debarment
   screening and documentation requirements promulgated in our regulations. Direction will
   also be provided to our Debarment Program intranet website where a link to the EPLS web
   site for debarment queries is provided.

   OIG Position
   We cannot agree with management decision for this recommendation. Rural Development’s
   proposed action to provide a reminder to its staff regarding the required check of GSA’s
   EPLS will be helpful. However, as described in the finding, Rural Development proposed an
   interim compensating control—a strengthened manual system to require a signoff sheet to be
   completed by the loan specialist and the approving official that GSA’s EPLS had been
   reviewed and properly documented. To reach management decision on the recommendation,
   Rural Development needs to provide a plan and timeframe for establishing the manual
   signoff process as discussed.

   Recommendation 23
   Require the Rural Development Administrators for Business and Cooperative Programs,
   Housing and Community Facilities, and Rural Utility Programs to include an automated
   system control in the Comprehensive Loan Program, Common Loan Origination System to
   require a certification by the loan specialist that GSA’s EPLS has been reviewed and the
   review documented before the system will allow the application to be finalized.

   Agency Response
   In its May 21, 2010, response, the Office of the Under Secretary for Rural Development
   provided the following comments.

   The intent of this recommendation is to ensure compliance with debarment screening due
   diligence using an automated process. Rural Development will include an automated system
   control in its Common Loan Origination System, which will require debarment screening
   certifications by loan specialists making loans in order to finalize loan applications.

   This automated system control will be accomplished by adding an input field to the Common
   Loan Origination System’s application entry page. The loan specialist’s required response to
   this input field will certify they reviewed EPLS and documented the certification in the
   applicant’s file. Validation of the loan specialist’s response will be performed manually.


Audit Report 50601-14-At                                                                      51
   Deployment of the Common Loan Origination System is expected to occur by September 30,
   2015.

   OIG Position
   We agree with management decision for this recommendation. Normally, final actions on
   management decisions are to be accomplished within 1 year of management decision.
   However, in this instance, the proposed automated system will not be deployed until 2015.
   In the interim, OIG has agreed with Rural Development to the manual control described in
   Recommendation 22.

   Recommendation to the Chief of the Forest Service

   Recommendation 24
   Establish and implement a suspension and debarment program for all FS mission areas in
   addition to the already operating unit established for the agency’s timber program.

   Agency Response
   In its May 21, 2010, response, FS stated the following:

          1. The FS concurs with this audit recommendation and will establish and implement
             a suspension and debarment program for all its mission areas, as applicable. The
             FS would also like to acknowledge that many of the recommendations in this
             report require a corporate approach, and the actual corrective actions have not yet
             been determined by the Department. In the interim, the agency will: Designate a
             lead to oversee this effort for the entire agency by June 30, 2010,
          2. Convene its first meeting with a representative from all affected mission areas by
             mid August 2010 and begin formulating a plan of action that moves FS toward
             full implementation of this recommendation,
          3. Present the plan to the ELT [FS Executive Leadership Team] for approval by
             October 29, 2010, and
          4. Implement the suspension and debarment program in applicable mission areas by
             April 29, 2011.

   Estimated Completion Date: April 29, 2011

   OIG Position
   We agree with management decision for this recommendation.




Audit Report 50601-14-At                                                                       52
Section 3: Procurement Suspension and Debarment

Finding 6: USDA Needs to Implement a More Effective Suspension
and Debarment Program for its Procurement Activities
As we have described in Findings 1 through 5, USDA did not effectively implement
nonprocurement suspension and debarment—administrative proceedings that would apply to a
wide range of program activities, both financial and nonfinancial. Although there are many
reasons—such as lack of centralized organization—for USDA’s ineffective nonprocurement
program, at the heart lies a regulatory structure that excludes many program areas from
suspension and debarment rules. In contrast, the USDA procurement suspension and debarment
program has had both a sound regulatory structure and a centralized office. In spite of this, the
Department has not been effective in establishing a rigorous program which results in actual
suspensions and debarments. The Secretary assigned responsibility for procurement suspension
and debarment to OPPM, but the office provided little guidance or training to agencies’
contracting officials. OPPM stated that suspension and debarment training is included in several
procurement courses required for all contracting specialists and officers. Therefore, OPPM did
not consider providing this training as part of its responsibility. However, the required training
has not been effective in ensuring that the contracting officers implement the suspension and
debarment provisions in the FAR. OPPM also did not perform reviews of agencies’
implementation of the procurement suspension and debarment procedures. OPPM officials
stated that they did not have sufficient staff to deal with this responsibility; recently, the office
assigned one employee to handle procurement suspension and debarment cases as one of a
number of collateral duties, but that employee is relatively inexperienced in suspension and
debarment actions. As a result of OPPM’s incomplete implementation of the procurement
suspension and debarment process, only two procurement debarment cases and no suspension
cases were initiated by the Department’s contracting officials between FYs 2004 and 2007.

Suspension and debarment have been part of the Federal procurement system since the 1940’s
but lacked a consistent and uniform regulatory structure until the enactment of the FAR in 1983.
Subpart 9.4 of the FAR covers suspension and debarment; these regulations are supplemented at
USDA through the USDA Acquisition Regulation, 48 CFR, subpart 409.4.64 OPPM issues the
USDA Acquisition Regulation which implements procurement policy for USDA, including
suspension and debarment.

USDA needs a vigorous and effective system for procurement suspension and debarment
because, as the National Procurement Fraud Task Force Legislation Committee indicated in a
July 2007 report, Federal agencies are increasingly reliant on contractors.65 USDA is no
exception. In 2000, USDA used 4,199 contractors; in 2008, it contracted with 15,253.
We found, however, that OPPM did little to implement suspension and debarment for the
Department’s procurement activities. It had not documented its processing and handling of
suspension and debarment actions at the Departmental level, provided procedural guidance on


64
 See also 48 CFR, part 432.006; 48 CFR, section 423.506; 48 CFR, section 449.106.
65
 “Procurement and Grant Fraud: Legislative and Regulatory Reform Proposals,” by National Procurement Fraud Task Force Legislation
Committee, July 9, 2007.



Audit Report 50601-14-At                                                                                                            53
suspension and debarment to the contracting officers in USDA agencies, conducted followup
reviews to determine the progress of the agencies’ implementation efforts, or trained its own
staff and agency officials regarding the procurement suspension and debarment process.

Given this lack of guidance and training from OPPM, USDA’s agency contracting staffs did not
sufficiently understand suspension and debarment to identify and refer contractors who violated
contract terms, failed to perform contracts, or otherwise were not responsible contractors. One
senior contracting agency official stated that he had not been involved in a suspension or
debarment action or referral during his 30-year career. Thus, from FYs 2004 to 2007, OPPM did
not receive any case referrals from its own Management Services.66 In January 2010, OPPM
informed us it provided training to Management Services within the past year.

When we discussed the low level of procurement suspension and debarment implementation,
OPPM officials explained that they normally deal with contractors who are preapproved by GSA
and are listed on the Central Contractor Registration. The OPPM official assigned part-time to
suspension and debarment told us that USDA relies on these contractors, their office has a good
working relationship with them, and thus, suspension and debarment has not been an issue.
OPPM officials we interviewed believed that there were other procedures in place to deal with
any contractor noncompliance outside of suspension and debarment.

We agree that the FAR contains mechanisms such as cure letters for dealing with contractors’
non-compliance with regulations. However, in cases of material contract violations and non-
compliance or poor performance that is not corrected, the FAR also anticipates use of suspension
and debarment. 67 The Secretary delegated responsibility to the chief acquisition officer and
senior procurement executive who heads OPPM to serve as the Department debarring official
responsible for overseeing and ensuring implementation of the procurement suspension and
debarment regulations in the FAR. Thus, the senior procurement executive and OPPM should
ensure that the FAR’s suspension and debarment provisions are fully implemented to protect
USDA and other Federal agencies from repeated abuse by the same contractors.

As an example of how OPPM could have used suspension and debarment to supplement other
contract actions, we found that a security contractor working for USDA had failed to pay
employees who were assigned to protect USDA and other Federal buildings in Washington D.C.
The contractor had not paid employees for a 6-week period and had not paid their benefits for up
to 1 year. USDA experienced declining guard service, reaching a point where half of the
security guard posts required under the USDA contract were unmanned. After warning the
contractor, OPPM terminated his security contract for default because the contractor was not
performing due to lack of staff, but took no action to refer the contractor for suspension or
debarment case determination. Due to this inaction, the contractor could have obtained other
contracts despite its irresponsible employment practices.



66
   Within OPPM, Management Services, formerly the Procurement Operations Division, provides procurement contracting support for the USDA
headquarters office in Washington, D.C., for the National Finance Center in New Orleans, Louisiana, and for the National Information Technical
Center in Kansas City, Missouri.
67
   FAR, 48 CFR 9.4.



Audit Report 50601-14-At                                                                                                                  54
Since OPPM did not train agency contracting officials on suspension and debarment procedures,
agency officials did not always check GSA’s EPLS to verify that new contractors were not
debarred by other Federal agencies. In four cases, USDA awarded contracts to firms that had
been debarred. The Government Accountability Office identified three cases where awards were
made after the vendor had been suspended or debarred.68 We identified one additional case
where USDA awarded a contract to a company debarred by the Air Force. The four cases
involved parties that had been debarred for reasons such as Securities and Exchange Commission
violations, fraudulent labeling and environmental violations, and failure to disclose a conflict of
interest.

We discussed GSA’s suspension and debarment activities with its suspension and debarment
official. Unlike OPPM, GSA has actively used procurement suspension and debarment to ensure
compliance from large and well-established contractors. In one such instance, GSA provided a
“show-cause” letter to a contractor that required the contractor to explain why it should not be
suspended due to its noncompliance with Federal travel regulations. GSA’s warning convinced
the contractor in question to correct its problems so that it could avoid the consequences of
regulatory suspension actions. USDA could benefit from GSA’s experience and use the
suspension and debarment regulations as a tool to improve contractor compliance.

Since our fieldwork, OPPM has begun moving toward implementing its existing authorities.
One OPPM official attended formal suspension and debarment training in January 2008, and the
office conducted training for FS’ procurement policy staff in October 2008. As stated above,
OPPM officials told us that within the last year they provided training to their Management
Services staff. However, OPPM has not yet provided training to USDA’s heads of contracting
authority, even though OPPM holds regular monthly meetings for these Departmental
contracting officials who are responsible for providing suspension and debarment referrals to
OPPM.

In November 2007, OPPM sent out notices of proposed debarments to nine individuals related to
convictions for fraud and bribery in the bidding process for ARS contracts. We note that OPPM
did not suspend the individuals in these cases in response to their earlier indictments, even
though the FAR provides that an indictment of such crimes constitutes adequate evidence for
suspensions.69 The convictions, upon which the proposed debarments were based, occurred as
early as 2003. OPPM’s failure to move to debar in a more timely manner allowed convicted
individuals to do business with the Government for a longer period of time. Debarment actions
due to a conviction need to be taken as soon as possible following the conviction. The passage
of time after the conviction can eventually give rise to legal challenge to the debarment action
based on a “staleness” argument, where the offending conduct occurred so far in the past that it
has questionable bearing on the individual’s present responsibility. 70




68
   “EPLS: Suspended and Debarred Businesses and Individuals Improperly Receive Federal Funds” (Report number GAO-09-174, issued
February 26, 2009).
69
   48 CFR 9.407-2(b).
70
   The Practitioner’s Guide to Suspension and Debarment, Third Edition, Committee on Debarment and Suspension Section of Public Contract
Law, American Bar Association, page 194, 195.



Audit Report 50601-14-At                                                                                                               55
Also, the Department needs to make improvements in its suspension and debarment program in
terms of documenting, processing, and handling of debarments; procedural guidance to
contracting officials; and training. Because of the significant similarities between the
procurement and nonprocurement regulations and their reciprocal effect, the Department should
consider moving both functions into the same centralized division described in Finding 5. The
OMB guidance issued in 1987 specifically encouraged agencies to integrate their administration
of these complementary debarment and suspension programs.71 Many other agencies, like EPA,
have followed this model. Such centralization of both functions would provide efficiencies in
terms of staffing and training.

        Recommendations to the Assistant Secretary for Departmental Management

        Recommendation 25
        Issue a secretarial directive to all agencies directing that they fully implement procurement
        suspension and debarment actions according to the FAR, the President’s Executive orders,
        and OMB guidance.

        Agency Response
        In its May 14, 2010, response, OPPM stated that it concurred with the recommendation.

        OPPM Actions Planned and Taken: In support of a vibrant suspension and debarment
        program in the public interest for the Government’s protection, OPPM has initiated
        debarment and suspension training for the procurement staff of USDA agencies. OPPM will
        continue the training with all agencies on a regular basis. Training will include a discussion
        of performance and integrity issues regarding agency contractors and will stress the
        importance of debarment and suspension as a Government-wide practice. OPPM will also
        require all agencies to establish a suspension and debarment coordinator to establish and
        maintain internal agency procedures, provide a point of contact for OPPM, and monitor that
        proper practices are being followed.

        OIG Position
        Although we agree with the actions taken and planned, OPPM’s response does not address
        the recommended action. A secretarial directive to all agencies is needed to emphasize the
        Department’s strong support for implementing procurement suspension and debarment to
        protect the resources of USDA and other Federal agency programs.

        Recommendation 26
        Assign responsibility to the centralized division, established to process nonprocurement
        suspension and debarment actions for all USDA agencies, to also process all procurement
        suspension and debarment actions for all USDA agencies.

        Agency Response

71
     See 52 Federal Register 20360, page 11, May 29, 1987.



Audit Report 50601-14-At                                                                                56
   In its May 14, 2010, response, OPPM stated the following:

   OPPM concurs with the recommendation on the condition that the differences between the
   FAR and the nonprocurement rule are acknowledged and that the FAR and AGAR continue
   to be used as the authority for suspensions and debarments regarding procurements.

   OIG Position
   We agree with OPPM’s management decision for this recommendation and expect actions to
   implement it will be appropriately modified to work with the alternative response offered to
   Recommendation 18.

   Recommendation 27
   In accordance with control standards and guidance issued by the centralized division and
   those standards outlined in the FAR, direct OPPM and Departmental contracting officials to
   develop and implement internal controls to identify and refer cases warranting consideration
   for procurement suspension and debarment actions to the centralized division.

   Agency Response
   In its May 14, 2010, response, OPPM stated the following:

   OPPM concurs with the recommendation on the condition that the Heads of Contracting
   Activities (or their designees) are included in the process and so cited.

   OIG Position
   We agree with OPPM’s management decision for this recommendation and expect actions to
   implement it will be appropriately modified to work with the alternative response offered to
   Recommendation 18.




Audit Report 50601-14-At                                                                     57
Scope and Methodology

This audit evaluated USDA’s implementation of suspension and debarment regulations for
FYs 2004 through 2007. We reviewed USDA agencies’ business plans and management’s
internal control structures for implementing suspension and debarment regulations. We obtained
records of indictments and convictions of USDA program recipients from OIG’s Office of
Investigations for this time period, and evaluated what administrative actions the agencies had
taken in response. Specifically, we determined if Government programs and procurement
contracts were being protected from harm and dollar losses due to nonresponsible parties and
habitual abusers.

Audit fieldwork was performed in Washington, D.C., at the Departmental offices of OCFO,
OPPM, OGC, and at the agency’s headquarters offices of RMA, FSA, Rural Development, and
FNS. Audit fieldwork was performed from July 2007 through April 2009. We updated the
report to incorporate recently available statistics through March 2010 and the Department’s new
interim final rule published on May 25, 2010.

Apart from our site visits, we submitted questionnaires to AMS, ARS, APHIS, NIFA, FSIS,
FAS, FS, GIPSA, and NRCS. The questionnaires were used to establish a baseline of data about
the Department’s implementation of suspension and debarment. Followup interviews were
conducted with these agencies’ officials to obtain additional information and verify the accuracy
of responses.

We selected USDA agencies for review because they were included on OIG’s Office of
Investigation’s list of agencies whose program participants had been convicted of statutory
program violations. These agencies included AMS, APHIS, ARS, NIFA, FAS, FNS, FSA, FSIS,
GIPSA, NRCS, Rural Development (including RBS, RHS, and RUS), and RMA. We also
selected agencies with responsibilities for the Department’s major mission areas to ensure
comprehensive coverage of the Department’s suspension and debarment activities. Finally, we
also selected agencies based on their levels of suspension and debarment activity:

   ·   FSA was selected because of its farm program mission and because it had no
       nonprocurement suspension and debarment activity.
   ·   Rural Development was selected due to its rural development mission and also because
       the agency is unique in having three suspension debarment officials.
   ·   FNS was selected because of its food aid entitlement programs.
   ·   FAS was selected due to its international programs.
   ·   AMS, ARS, APHIS, NIFA, FSIS, GIPSA, and NRCS were chosen due to their scientific,
       inspection and grading, marketing, and natural resources program missions.
   ·   FS was selected due to its forestry and rangeland mission activities and the fact that its
       suspension and debarment official was below the agency administrator level. The Chief
       of the FS delegated suspension and debarment official responsibility to the Associate
       Deputy Chief, National Forest System.




Audit Report 50601-14-At                                                                       58
   ·   RMA was selected because it operates the Department’s crop insurance program and also
       because it had the highest level of suspension and debarment activity in the Department.
   ·   OCFO and OPPM were selected for review due to their responsibility for overseeing
       agencies’ implementation of suspension and debarment regulations for nonprocurement
       and procurement transactions, respectively.

To accomplish our audit objectives, we performed the following audit steps and procedures:

   ·   At OCFO and OPPM, we interviewed agency personnel to obtain any written guidance to
       USDA agencies in implementing suspension and debarment; identified any training
       provided to agencies; determined if any oversight reviews of the suspension and
       debarment process were performed; and obtained Departmental statistics on the number
       of suspension and debarment actions completed from FYs 2004 through 2007.
   ·   At RMA, FSA, Rural Development, and FNS, we interviewed agency personnel to obtain
       the agencies’ business plans and management’s internal control structures for
       implementing the suspension and debarment regulations; identified any guidance or
       training received in implementing the suspension and debarment regulations; determined
       programs exempted from suspension and debarment; obtained agencies’ statistics on the
       number of suspension and debarment actions completed from FYs 2004 to 2007; and
       determined what actions had been taken on cases referred by OIG Investigations.
   ·   We interviewed officials from other Federal departments, including OMB, EPA,
       Departments of Transportation and Interior, the National Aeronautics and Space
       Administration, the Postal Service OIG, SBA, GSA, and the chairman of the Interagency
       Suspension and Debarment Committee, to determine Governmentwide best practices and
       how USDA’s suspension and debarment implementation compared to other Federal
       agencies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence contained in our report provides a
reasonable basis for our findings and conclusions.




Audit Report 50601-14-At                                                                          59
Abbreviations
AMS............................ Agricultural Marketing Service
APHIS ......................... Animal and Plant Health Inspection Service
ARS............................. Agricultural Research Service
CCC............................. Commodity Credit Corporation
CFR ............................. Code of Federal Regulations
DLS ............................. Direct Loan System
EPA ............................. Environmental Protection Agency
EPLS ........................... Excluded Parties Listing System
FAR............................. Federal Acquisition Regulations
FAS ............................. Foreign Agricultural Service
FFAC........................... Federal Financial Assistance Committee
FS ................................ Forest Service
FNS ............................. Food and Nutrition Service
FSA ............................. Farm Service Agency
FSIS............................. Food Safety and Inspection Service
FY ............................... Fiscal Year
GIPSA ......................... Grain Inspection, Packers and Stockyards Administration
GSA............................. General Service Administration
NIFA ........................... National Institute of Food and Agriculture
NRCS .......................... Natural Resources Conservation Service
OCFO.......................... Office of Chief Financial Officer
OGC ............................ Office of the General Counsel
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPPM.......................... Office of Procurement and Property Management
RBS ............................. Rural Business-Cooperative Service
RHS............................. Rural Housing Service
RMA ........................... Risk Management Agency
RUS............................. Rural Utility Service
SBA............................. Small Business Administration
SNAP .......................... Supplemental Nutrition Assistance Program
USDA.......................... United States Department of Agriculture




Audit Report 50601-14-At                                                                  60
Exhibit A: History of USDA’s Implementation of Federal Suspension
and Debarment Procedures

Debarment and suspension are tools used by the Government to ensure that it does business with
only responsible persons and entities. A debarment is an action taken to exclude persons or
entities from doing business with the Government generally for periods up to 3 years for certain
causes, such as commission of a fraud or certain other crimes, or violations of certain statutes.
Suspension is a temporary action pending completion of an investigation or legal proceeding.
These remedies have been part of the Federal procurement system since the 1940’s but lacked a
consistent and uniform regulatory structure until the enactment of the FAR in 1983. Subpart 9.4
of the FAR covers suspension and debarment; these regulations are supplemented at the
Department of Agriculture (USDA) through the USDA Acquisition Regulation, 48 CFR
Subpart 409.4.72

Recognizing that a significant part of Federal monies are also expended on nonprocurement
activities and programs such as grants, loans, and loan guarantees, and other Federal assistance
programs, efforts were also undertaken to incorporate the suspension and debarment remedies
into the nonprocurement area. In 1986, the President signed an Executive order directing Federal
Departments and agencies to participate in a system for debarment and suspension from
programs and activities involving Federal financial and nonfinancial assistance and benefits.
The President authorized OMB to issue guidelines to Executive Departments and agencies
governing which programs and activities are covered by the order, and setting forth other details
for effective administration of the guidelines. In May 1987, the OMB implemented the
Executive order with its issuance of guidelines for nonprocurement suspension and debarment.
In May 1988, 27 agencies, not including USDA, published a common rule that set forth a
uniform system of suspension and debarment in the nonprocurement area. USDA’s
nonprocurement suspension and debarment rule was published January 30, 1989, and became
effective March 1, 1989.73 In an August 16, 1989, Executive order, the President made
suspension and debarment procedures under the FAR and the nonprocurement Common Rule
reciprocal.

The nonprocurement regulations parallel the FAR procurement rules on significant process
issues such as notice, opportunity to contest, and requirements for cause to exist. Both
suspended and debarred contractors and program participants are listed on GSA’s EPLS. Federal
agencies are required to consult this listing before granting new benefits or issuing new contracts
so that they may be certain they are dealing with responsible persons and entities.

In its May 1987 guidelines for suspension and debarment, OMB stated the common rule was to
cover all domestic assistance nonprocurement transactions including grants, cooperative


72
  See also 48 CFR, part 432.006; 48 CFR, section 423.506; 48 CFR, section 449.106.
73
  Apart from the March 1, 1989, rule that provided administrative suspension and debarment authority, many USDA agencies also have statutory
authority to sanction, fine, and disqualify those who abuse their programs. For example, RMA may disqualify those who intentionally violate its
crop insurance statutes. Disqualification under such authority is limited to the particular program and agency in which the abuse occurred. In
contrast, suspension and debarment have Governmentwide effect. Nevertheless, disqualification should be listed on the GSA’s EPLS, which will
give effective notice to other agencies of the required disqualification. The basis for the listing is 7 CFR 3017.515, 520.



Audit Report 50601-14-At                                                                                                                   61
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurance, payments for specified use, donation agreement subawards, subcontracts, and
transactions at any tier that are charged as direct or indirect costs.

Transactions that are not covered include statutory entitlements or mandatory awards; direct
awards to foreign government entities; benefits to an individual as a personal entitlement;
Federal employment; incidental benefits derived from ordinary Governmental operations;
permits, licenses, and certificates issued to regulate public health; transactions pursuant to
national or agency-recognized emergencies or disasters; and other transactions where the
application of the guidelines would be prohibited by law.

In October 1987, 20 Executive Departments published a proposed common rule for
implementing OMB’s guidelines. Instead of joining the proposed common rule, USDA
published its proposed rule in a different format. USDA excluded from coverage such areas as
all international programs, the three corporations within the Department, and certain specific
types of agreements such as those found in the 1985 Farm Bill relating to agricultural research,
extension, and teaching activities.

On March 7, 1988, OMB provided all agencies with a draft memorandum amending its
guidelines and requiring participation in the final common rule. With regard to coverage, OMB
indicated that the guidelines would apply to “all persons who have participated, are currently
participating or may reasonably be expected to participate in transactions under Federal
nonprocurement programs.” (OMB published this definition of coverage in its final rule for
nonprocurement on January 30, 1989.) Because such expanded coverage would include all
nonprocurement transactions, and because USDA agencies were concerned that the inclusion of
additional transactions could adversely affect various international trade programs, regulatory
programs, and resources use programs, USDA decided to limit the scope of its final rule to
domestic assistance transactions.

OMB initially objected to USDA’s proposed rule because of its limited coverage and other
deviations from OMB guidelines, including a provision that would have exempted USDA
agencies from considering the suspension and debarment actions of other agencies before
making awards. On May 26, 1988, 27 Executive Departments and agencies, not including
USDA, published a final common rule and OMB adopted this rule as its final guidelines. Over
the next 4 months, USDA and OMB held extensive negotiations to reconcile their differences.
Finally, OMB and USDA negotiated an agreement whereby USDA would, in effect, retain its
desired exclusions, but would adopt certain language used by other agencies in their rules to
exclude specific programs. Based on this agreement, and with OMB approval, USDA joined
other Federal agencies in adopting the nonprocurement common rule by publishing its final
suspension and debarment rule on January 30, 1989. The rule became effective March 1, 1989.

A second Executive order in August 1989 provided for the consolidation of the procurement and
nonprocurement systems.74 The Executive order defined nonprocurement activities as “all
programs and activities involving Federal financial and nonfinancial assistance and benefits, as

74
     Executive Order 12689, dated August 16, 1989.



Audit Report 50601-14-At                                                                           62
covered by Executive Order No. 12549 and OMB guidelines implementing that order.”75 In
communications with USDA subsequent to the issuance of the second Executive order, OMB
once again strongly encouraged USDA to reconsider its rule coverage. For example, in a May 2,
1990, memorandum to the OGC, OMB requested USDA reconsider a proposed rule by FAS
because the rule was inconsistent with the Executive order and the common rule.

During this period, OIG conducted an audit of USDA’s implementation of suspension and
debarment.76 OIG found that USDA agencies had not adequately established a system for
debarment and suspension for nonprocurement program participants—13 of 18 agencies
reviewed had not implemented a system for nonprocurement. This was due to agency officials
either not having a complete understanding of the requirements of USDA’s Title 7, CFR, part
3017, that became effective March 1, 1989; interpreting the regulations to mean that their
programs were excluded; or placing a low priority on completing this task. Five of 18 agencies
reviewed (AMS, APHIS, FSA then a part of the Agricultural Soil Conservation Service agency,
FNS, and FSIS) excluded all their nonprocurement programs based on interpretations by OGC.
However, OIG found no evidence OGC had issued a formal written opinion regarding these
exclusions.

During a series of program reviews, the agencies and OGC concluded that some grants and
cooperative agreements were covered transactions under the suspension and debarment rules;
however, the agencies had not implemented the required system even for these transactions.
Eleven USDA agencies did not obtain certifications regarding debarment and suspension prior to
contract award to ensure the agencies did no business with entities already suspended and
debarred by other Federal agencies.

In our June 1990 report, OIG recommended the agency officials reevaluate their policies for
excluding nonprocurement programs from suspension and debarment implementation, provide
the specific statutory basis to support program exclusions, and implement suspension and
debarment for programs not excluded. Following the report, OIG worked with OCFO to reach
agreements on the report’s recommendations. OCFO agreed to have the agencies reevaluate
their program exclusions and have OGC review their determinations.

After the agencies’ reviews, in an August 27, 1990, letter, USDA’s General Counsel informed
the Assistant Secretary for Departmental Management that, by incorporating the OMB guidelines
in the Executive order, the President adopted the expansive interpretation of OMB regarding
nonprocurement suspension and debarment. The General Counsel recommended:

           Based on the definition of “nonprocurement activities” in Executive Order 12689, it is
           clear that the President has directed Executive departments and agencies to establish a
           single, Governmentwide debarment and suspension system that includes all
           nonprocurement activities as covered by the OMB guidelines under Executive Order No.

75
   Executive Order 12689, Section 1(b) defines nonprocurement activities to mean, “all programs and activities involving Federal financial and
nonfinancial assistance and benefits, as covered by Executive Order 12549 and OMB guidelines implementing that order.” Section 3 of the
Executive order authorizes OMB to assist agencies in resolving differences in existing procurement and nonprocurement debarment and
suspension regulations and to establish a cut-off date for the resolution of such differences.
76
   USDA OIG Report 50099-22-At, “Audit of USDA Debarment and Suspension Activities and Drug-Free Workplace Compliance,” issued June
25, 1990.



Audit Report 50601-14-At                                                                                                                   63
       12549. Consequently, USDA should modify its debarment and suspension regulations by
       deleting the paragraph limiting its coverage to domestic assistance. Further, USDA
       should work with OMB to identify any additional changes in the government-wide
       common rule, including additional exceptions that will be necessary to implement
       Executive Order 12689.

In February 1991, the Assistant Secretary for Departmental Management submitted the
suspension and debarment scope issue to the Department’s Policy Coordination Council for a
policy decision. The Council was made up of the Department’s Under Secretaries and Assistant
Secretaries.

Later in a December 20, 1991, letter, the Acting Secretary provided USDA’s position on the rule
to the OMB Director. The comments were made in response to OMB’s request for comments on
its draft proposed amendments to the nonprocurement common rule and FAR suspension and
debarment provisions to establish reciprocal Governmentwide effect for suspension and
debarment actions for both procurement and nonprocurement activities. The amendments were
required by the President’s 1989 Executive order. The Acting Secretary remarked that,

       Because of our concern that the application of the Common Rule to certain USDA
       programs would have unintended detrimental effects that would outweigh the benefits of
       the nonprocurement debarment and suspension system, USDA limited the scope of its
       current nonprocurement debarment and suspension rule to USDA domestic assistance
       covered transactions. While USDA is strongly supportive of every executive branch
       effort to curb fraud, waste, and abuse in Federal programs, we continue to be concerned
       that the expansion in the coverage of the USDA rule that would result from USDA
       adoption of the common rule, as proposed for amendment, would likewise have such
       detrimental effects.

The Acting Secretary provided the following detailed concerns.

   1. Commercial Export Programs – The Acting Secretary recommended exclusion of the
      export promotion, market development, and assistance programs from coverage under the
      rule due to potential adverse impacts on foreign sales of United States agricultural
      products.
   2. Statutory Entitlements and Mandatory Awards – The Acting Secretary understood that
      the intent of the change was to provide the Government an opportunity for some
      administrative actions to address debarred and suspended principals who might
      participate in entitlement transactions, short of denying the entitlements themselves to
      eligible recipients. However, she found this proposed change to be confusing and
      unnecessarily burdensome since entitlements and mandatory awards may not be denied.
   3. Inspections and Regulatory Programs – The Acting Secretary supported adding new
      exceptions to the rule relating to transactions under regulatory programs in the interest of
      public health and safety, and the receipt of public health and safety inspection services.
      She believed that any disruption would be so detrimental to the nation that the proposed
      new exceptions should be expanded to include surveillance and control activities,
      agricultural quarantine activities, and agricultural indemnification programs.


Audit Report 50601-14-At                                                                       64
   4. Industries with a Limited Number of Interrelated Entities – Finally, the Acting Secretary
      raised a point concerning the potential effect of a single debarment on industries with a
      limited number of interrelated entities, e.g., the grain trade where daily buying and selling
      among members would be imperiled by a single debarment, or national and international
      consortia of companies engaged in research and development and engineering highly
      technical systems or products.

The Acting Secretary closed her letter by noting that the common rule had had limited
application to the programs of USDA to date.

In September 1995, following extended consultations with OMB, USDA revised its
nonprocurement common rule. It removed the provision that limited its coverage of the rule to
domestic assistance transactions. However, the Department added several additional specific
program exceptions deemed to be in the public interest. These included producer entitlements,
animal predator control, grading and inspections services, timber export, and the issuance of
licenses, permits, and certificates in the interest of animal and plant health and safety. USDA
excluded any transaction under the Department’s conservation programs, warehouse licensing
programs, or programs that provide statutory entitlements and make available loans to
individuals and entities in their capacity as producers of agricultural commodities.

In the draft proposed rule, USDA stated that these exemptions were necessary because for
certain USDA programs, the benefits resulting from full application of the rule would be
outweighed by potential programmatic harm. Thus, USDA excluded the above programs to
protect agricultural producers and the public’s health and safety. However, the rule stated that
while the Department proposed additional exceptions from coverage, the agencies’ programs
were subject to existing statutes and regulations that provided exclusionary actions that may be
imposed by USDA for improper conduct.

In 2004, the regulation was converted to a question and answer format to make it more
understandable to, and usable by, the public. Also, as part of the revision, USDA removed a
policy statement formerly in the regulation that emphasized that USDA would suspend or debar
under the nonprocurement common rule to protect other Federal agencies when it excluded
program recipients under USDA program statutes. The regulation has remained essentially
unchanged since the 2004 revision.

At least in part, USDA’s exclusions in the 1990s—especially exclusions relating to agricultural
producers—arose due to the farming crisis of the 1980s. Many farmers lost their land during this
period and rural populations decreased as farmers left the land in search of jobs. By 1988,
USDA’s Farmers Home Administration had to write off nearly one third of $8.8 billion in
delinquent farm debt. Full implementation of the Governmentwide suspension and debarment
procedures in the agricultural sector as it was being affected by these crises was resisted by
members of Congress and many agency officials concerned for the wellbeing of farmers across
the country.




Audit Report 50601-14-At                                                                          65
Agencies’ Responses




                                  USDA’S



                  Office of the Chief Financial Officer

     Departmental Management, Office of Procurement and
                   Property Management

                              Rural Development

                                Forest Service

                             Farm Service Agency

                           Food and Nutrition Service




           RESPONSES TO AUDIT REPORT




Audit Report 50601-14-At                                  66
Office of the Chief Financial Officer

             Response
                       




United States              
Department of               TO:           Gil Harden 
                                          Assistant Inspector General  
Agriculture

Office of the Chief
                                          Office of Inspector General 
Financial Officer            
                            THROUGH:      Pearlie S. Reed   ‐S‐                        May 19, 2010         
1400 Independence
Avenue, SW                                Assistant Secretary  
                                              for Administration 
Washington, DC
20250
                             
                            FROM:         Jon M. Holladay  –S‐                         May 14, 2010 
                                          Acting Chief Financial Officer 
                             
                            SUBJECT:      Office of the Chief Financial Officer’s Comments on Draft Audit 
                                          Report No. 50601‐14‐At, “Effectiveness and Enforcement of 
                                          Suspension and Debarment Regulations in the U.S. Department 
                                          of Agriculture.” 
                             
                             
                            The Office of the Chief Financial Officer (OCFO) is responding to your request 
                            for management response on the draft report.  We have some concerns with 
                            the recommendations in the report as follows: 
                             
                            General Comments:   
                             
                            We do not concur with the recommendations for establishing a centralized 
                            division that specializes in suspension and debarment.  We believe agency 
                            program managers working with the Regional Offices of the General Counsel 
                            are uniquely qualified to make determinations on program violations to decide 
                            whether suspension and debarment is appropriate.  We plan to provide 
                            Department‐wide guidance, agency staff training, program monitoring and to 
                            require reporting by agency suspension and debarment officials to address the 
                            Office of Inspector General’s concerns. 
                             
                            OCFO is publishing an interim rule establishing a new part 417 on 
                            nonprocurement debarment and suspension that adopts and supplements the 
                            Office of Management and Budget guidance.  Part 417 of 2 CFR replaces the 
                            existing U.S. Department of Agriculture (USDA) implementation of the 
                            Governmentwide common rule on nonprocurement debarment and 
                            suspension at 7 CFR part 3017.   

                             
                              
                                                                                                                
                             
                             
                             
                             
                                                 An Equal Opportunity Provider and Employer
                              
                             
     




 
 
        Gil Harden                                                                      2 
 
         
         
        USDA also made adjustments in the interim rule to its current exclusions from 
        covered transactions that will address the findings in this report.  This interim 
        rule also implements Section 14211 of the Food, Conservation, and Energy Act 
        of 2008, P.L. 110‐246 (7 U.S.C. 2209j), which requires the Secretary to debar 
        permanently from participation in USDA programs those convicted of having 
        knowingly committed fraud in USDA programs.   
         
        The management responses for recommendation numbers 1‐6, and 15‐20 are 
        attached.  
         
        If you have any questions or need additional information, please contact my 
        office at (202) 720‐5539 or call Kathy Donaldson, at (202) 720‐1893. 
         
        Thank you for the opportunity to provide management responses on the draft 
        report.  
         
        Attachments 
         




     
                              An Equal Opportunity Provider and Employer
Audit Recommendation No 1:

Issue a secretarial directive to all agencies, directing them to fully implement nonprocurement
suspension and debarment, according to the President’s Executive orders and OMB’s guidance.
Clarify, in that directive, that those who abuse transactions excluded from covered transaction
status in the suspension and debarment regulations should still be considered for suspension and
debarment to protect other Federal programs that are covered by the regulations.

Management Response: We concur.

The Secretary will issue a memo to all agencies providing clarification that those who abuse
excluded transactions should be suspended and debarred. OCFO will issue a new Departmental
regulation on Federal Financial Assistance that will require full implementation of
nonprocurement suspension and debarment requirements and clarify that those who abuse
excluded transactions should be suspended and debarred.

Date Corrective Action will be Completed: 7/31/2010

Revised regulation approved by the Secretary of Agriculture               3/24/2010
Revised regulation published in Federal Register                          5/31/2010
Issue Secretary’s memorandum                                              7/31/2010
Audit Recommendation No 2:

Direct USDA agency administrators to review their program statutes and operations to identify
program transactions that are excludable from suspension and debarment implementation. For
programs transactions to be excluded from suspension and debarment, provide adequate statutory
language justifying the exclusions or acceptable program rationale supporting their noncovered
status.

Management Response: We concur.

The Office of the Chief Financial Officer and Office of the General Counsel fully reviewed, with
applicable agencies, all of USDA’s suspension and debarment not covered transactions in the
latest round of regulation updates. All transactions that remain not covered by suspension and
debarment have been justified. As a result of this review, two types of transactions were
removed from the listing. They are:
    • With respect to the Department of Agriculture's export and foreign assistance programs,
         any transaction below the primary tier covered transaction other than a nonprocurement
         transaction under the Market Access Program between a nonprofit trade association or
         state regional group and a U.S. entity; and
    • Any transaction under the Department of Agriculture's conservation programs,
         warehouse licensing programs, or programs that provide statutory entitlements and make
         available loans to individuals and entities in their capacity as producers of agricultural
         commodities.

Date Corrective Action will be Completed: 5/31/2010

Revised regulation approved by the Secretary of Agriculture                 3/24/2010
Provide justifications for all noncovered transactions                      5/31/2010
Revised regulation published in Federal Register                            5/31/2010
Audit Recommendation No 3:

As part of Departmental efforts to fully implement the authorities, finalize USDA’s new rule
concerning nonprocurement suspension and debarment. This should include the removal of
noncovered programs and program transactions from USDA’s suspension and debarment rule
unless they are adequately justified by program statutory language.

Management Response: We concur.

The Secretary of Agriculture has approved the revised rule and it is awaiting publication in the
Federal Register. The Office of the Chief Financial Officer and Office of the General Counsel
fully reviewed, with applicable agencies, all of USDA’s suspension and debarment not covered
transactions in the latest round of regulation updates. All transactions that remain not covered by
suspension and debarment have been justified. As a result of this review, two types of
transactions were removed from the listing. They are:
    • With respect to the Department of Agriculture's export and foreign assistance programs,
        any transaction below the primary tier covered transaction other than a nonprocurement
        transaction under the Market Access Program between a nonprofit trade association or
        state regional group and a U.S. entity; and
    • Any transaction under the Department of Agriculture's conservation programs,
        warehouse licensing programs, or programs that provide statutory entitlements and make
        available loans to individuals and entities in their capacity as producers of agricultural
        commodities.

Date Corrective Action will be Completed: 5/31/2010

Revised regulation approved by the Secretary of Agriculture                 3/24/2010
Revised regulation published in Federal Register                            5/31/2010
Audit Recommendation No 4:

Require timely referrals by agency officials of indicted and convicted program violators to
suspension and debarment officials for case consideration. Also, require USDA agency
debarring officials to prepare an annual report of suspension and debarment actions taken in
cases of indictments and convictions, including reasons why no suspension and debarment action
was taken for indictment and conviction cases.

Management Response: We concur.

The Secretary will issue a memo to all agencies requiring timely referrals by agency officials of
indicted and convicted program violators to suspension and debarment officials for case
consideration. The letter will also require agencies to justify not taking suspension and
debarment action in quarterly reports. OCFO will develop supplementary guidance that will be
issued as a CFO bulletin.

Date Corrective Action will be Completed: 1/31/2011

Issue memorandum                                                            7/31/2010
Issue CFO Bulletin                                                          9/30/2010
Audit Recommendation No 5:

Require the agencies to develop performance indicators and measures to assess the effectiveness
of the agencies’ implementation of the suspension and debarment regulations. Agencies should
report their performance to OCFO.

Management Response: We concur.

The Secretary will issue a memo to all agencies creating the Debarment and Suspension Council
and reestablishing the Federal Financial Assistance Committee (FFAC). The letter will also
require reporting of performance indicators. The council and committee will have participation
from all agencies and will develop recommended performance indicators and a required
reporting schedule. OCFO will develop supplementary guidance that will be issued as a CFO
bulletin.

Date Corrective Action will be Completed: 1/31/2011

Hold first FFAC meeting                                                  4/29/2010
Hold first Debarment and Suspension Council meeting                      6/30/2010
FFAC develops performance indicators                                     7/31/2010
Issue Secretary’s memorandum                                             7/31/2010
Issue CFO Bulletin                                                       9/30/2010
First performance metrics are reported to OCFO                           10/30/2010
Audit Recommendation No 6:

Provide Departmental clarification and guidance concerning the differences between
Governmentwide suspension and debarment actions and internal agency statutory
disqualification actions and how the actions are to be used in response to program violations.
Require the agencies to report their statutory disqualification actions in the GSA EPLS in
accordance with USDA’s suspension and debarment regulation.

Management Response: We concur.

The Secretary will issue a memo to all agencies clarifying the differences between
Governmentwide suspension and debarment actions and internal agency statutory
disqualifications actions. The memorandum will also require agencies to report their statutory
disqualification actions in the General Services Administration Excluded Parties List System in
accordance with USDA’s suspension and debarment regulation.

Date Corrective Action will be Completed: 7/31/2010
Audit Recommendation No 15:

Require USDA scientific, inspection and grading, marketing, and natural resources agencies to
reassess their program transactions non covered by the suspension and debarment regulations,
and amend the proposed final rule for nonprocurement suspension and debarment to reclassify
transactions that are currently considered noncovered and are not adequately justified. For
program transactions to be excluded from suspension and debarment, provide adequate statutory
language justifying the exclusions or acceptable program rationale supporting their noncovered
status.

Management Response: We do not concur.

The Office of the Chief Financial Officer and Office of the General Counsel fully reviewed, with
applicable agencies, all of USDA’s suspension and debarment not covered transactions in the
latest round of regulation updates. All transactions that remain not covered by suspension and
debarment have been justified. As a result of this review, two types of transactions were
removed from the listing. They are:
    • With respect to the Department of Agriculture's export and foreign assistance programs,
         any transaction below the primary tier covered transaction other than a nonprocurement
         transaction under the Market Access Program between a nonprofit trade association or
         state regional group and a U.S. entity; and
    • Any transaction under the Department of Agriculture's conservation programs,
         warehouse licensing programs, or programs that provide statutory entitlements and make
         available loans to individuals and entities in their capacity as producers of agricultural
         commodities.

Date Corrective Action will be Completed: 5/31/2010

Revised regulation approved by the Secretary of Agriculture                 3/24/2010
Provide justifications for all noncovered transactions                      5/31/2010
Revised regulation published in Federal Register                            5/31/2010
Audit Recommendation No 16:

Direct the administrators of USDA’s scientific, inspection and grading, marketing, and natural
resources agencies to issue guidance to agency officials clarifying that those who abuse
noncovered entitlement programs or mandatory awards are subject to consideration for
suspension and debarment from other Federal programs covered by suspension and debarment.

Management Response: We concur.

The Secretary will issue a memo to all agencies providing clarification that those who abuse
noncovered entitlement programs or mandatory awards are subject to consideration for
suspension and debarment from other Federal programs covered by suspension and debarment.

Date Corrective Action will be Completed: 7/31/2010

Issue Secretary’s memorandum                                              7/31/2010
Audit Recommendation No 17:

Provide training and guidance to USDA scientific, inspection and grading, marketing, and
natural resources agency officials regarding the suspension and debarment regulations. Require
the agencies to establish controls and procedures to identify fraud and misconduct related to their
programs and to refer for suspension and debarment determination indicted, convicted, and other
nonresponsible program violators. Perform followup reviews to ensure implementation of the
regulations.

Management Response: We concur.

The Debarment and Suspension Council will develop Departmental debarment and suspension
training to be posted on Aglearn. The Debarment and Suspension Council will also develop and
require reporting of performance indicators. The Debarment and Suspension Council will use
the performance indicators to ensure implementation of the regulations and determine when
additional actions may be required. Finally, the Secretary’s memorandum will include guidance
regarding the suspension and debarment regulations.

Date Corrective Action will be Completed: 10/30/2010

Issue Secretary’s memorandum                                                7/31/2010
FFAC develops performance indicators                                        7/31/2010
Performance metrics are reported to OCFO                                    10/30/2010
Audit Recommendation No 18:

Establish a centralized division that specializes in suspension and debarment; provides
coordination, guidance, and training to all relevant agency officials; promotes consistency in
handling the Department’s suspension and debarment cases; and processes case referrals for all
actions. Provide appropriate staffing resources, funding, and training to the centralized division
to enable it to effectively and efficiently carry out its responsibilities.

Management Response: We do not concur.

USDA will establish the Debarment and Suspension Council (Council), and reestablish the
Federal Financial Assistance Committee (Committee). The Committee will provide
coordination, guidance and training to all relevant agency officials and promote consistency in
handling the Department’s suspension and debarment cases. The Council will provide executive
oversight over the debarment and suspension process while the Committee will provide working
level knowledge to implement decisions and make recommendations to the Council. However
referrals for debarment and suspension actions will be conducted by agency program staff.
USDA Federal financial assistance programs are diverse and complex. There is impressive
program and legal expertise at the agency level relative to each program, making it inappropriate
to consolidate this activity into a centralized unit. As a compensating control, the Council and
Committee will develop performance metrics to be used in monitoring program compliance with
debarment and suspension requirements.


Date Corrective Action will be Completed: 6/30/2011

Hold first FFAC meeting                                                     4/29/2010
Hold first Debarment and Suspension Council meeting                         6/30/2010
Audit Recommendation No 19:

Require the centralized suspension and debarment division to develop and promulgate
Departmental policy and an internal control plan for identifying cases to be referred for
suspension and debarment consideration, and assuring suspended and debarred entities do not do
business with USDA.

Management Response: We concur.

The Debarment and Suspension Council will develop a training program, performance indicators
and policy that will be issued as a CFO bulletin. In addition, each agency will be required to
develop an internal review plan to identify cases to be referred for suspension and debarment
consideration.

Date Corrective Action will be Completed: 1/31/2011

Hold first Debarment and Suspension Council meeting                     6/30/2010
Performance indicators developed                                        7/31/2010
Agencies provide internal review plan                                   8/30/2010
CFO Bulletin issued                                                     9/30/2010
Performance metrics are reported to OCFO                                10/30/2010
Departmental debarment and suspension training posted to Aglearn        11/30/2010
Audit Recommendation No 20:

Amend the Department’s suspension and debarment regulations to require that the centralized
division monitor how the agencies implement suspension and debarment, including establishing
agency performance indicators and measures, and reporting requirements; identifying and
correcting any problems detected; and reporting annually on agencies’ performance in
implementing the suspension and debarment authorities to the OCFO.

Management Response: We concur.

The Debarment and Suspension Council will develop a training program, performance indicators
and policy that will be issued as a CFO bulletin.

Date Corrective Action will be Completed: 1/31/2011

Hold first Debarment and Suspension Council meeting                    6/30/2010
Performance indicators developed                                       7/31/2010
CFO Bulletin issued                                                    9/30/2010
Performance metrics are reported to OCFO                               10/30/2010
Departmental debarment and suspension training posted to Aglearn       11/30/2010
Departmental Management, Office of Procurement

           and Property Management
                                                                                     May 21, 2010

      TO:            Gil H. Harden
                     Assistant Inspector General
                         For Audits

      FROM           Pearlie Reed //s//
                     Assistant Secretary
                        For Administration

      SUBJECT        Office of Inspector General Draft Audit: Effectiveness and Enforcement of
                     Suspension and Debarment Regulations in the U.S.
                        Department of Agriculture


      The response from DM OPPM to the draft audit report is attached. Please feel free to direct any
   questions related to the content of this response to Donna Calacone at 202-205-4036 or at
   donna.calacone@dm.usda.gov


Attachment




                                                                                            Page 1 of 5
COMMENTS on DRAFT AUDIT REPORT                                                              May 14, 2010

Departmental Management
Office of Procurement and Property Management

The Office of Procurement and Property Management (OPPM) submits these comments in response to the draft
audit report issued by the USDA Office of Inspector General titled “Effectiveness and Enforcement of
Suspension and Debarment Regulations in the U.S. Department of Agriculture,” dated April 14, 2010.


DM OPPM Comments on Relevant OIG Recommendations:
    a. Recommendation 25: OPPM concurs with the recommendation.

    OPPM Actions Planned and Taken: In support of a vibrant suspension and debarment program in the
public interest for the Government’s protection, OPPM has initiated debarment and suspension training for the
procurement staff of USDA agencies. OPPM will continue the training with all agencies on a regular basis.
Training will include a discussion of performance and integrity issues regarding agency contractors and will
stress the importance of debarment and suspension as a Government-wide practice. OPPM will also require all
agencies to establish a suspension and debarment coordinator to establish and maintain internal agency
procedures, provide a point of contact for OPPM, and monitor that proper practices are being followed.

    b. Recommendation 26: OPPM concurs with the recommendation on the condition that the differences
between the FAR and the nonprocurement rule are acknowledged and that the FAR and AGAR continue to be
used as the authority for suspensions and debarments regarding procurements.

   c. Recommendation 27: OPPM concurs with the recommendation on the condition that the Heads of
Contracting Activities (or their designees) are included in the process and so cited.


Additional OPPM Comments on the Draft Audit Report:

Executive Summary

1. Page 3:

   a. “Standard of Proof ” (first paragraph, last sentence): The “standard of proof” only exists in the
nonprocurement rule in 2 CFR 180. There is no “standard of proof” in the procurement rule in the Federal
Acquisition Regulation (FAR) at 48 CFR Subpart 9.4.

        Recommendation: Rewrite the sentence to read as follows:
         “ …even though a conviction meets the standard of proof in the nonprocurement rule
         that an individual could be debarred. The procurement rule in the FAR contains no
         standard of proof.”

    b. Permanent Debarment – World Bank (third paragraph): Note that the permanent World Bank
debarment procedure cited is done under a special authority that is not part of either the procurement rule in the
FAR or the nonprocurement rule in 2 CFR 180. The FAR states that, with only two specifically limited
exceptions of one and five years, “debarment should not exceed 3 years.”


                                                                                                         Page 2 of 5
        Recommendation: In the last sentence following the words “the World Bank” add: “under special
authority.”


2. Page 6:

    a. OPPM Suspension and Debarment Training (first paragraph, third sentence): Suspension and
debarment training is included in several procurement courses required by all contract specialists and contracting
officers. Procurement training is not generally a function of a procurement policy branch. However, due to its
importance, OPPM has begun to conduct training to procurement staff and will continue to do so.

        Recommendation: Add the following sentence prior to the words “In addition:”
         “Suspension and debarment training is included in several procurement courses required by
         all contract specialists and contracting officers.”

    b. Comparison with GSA (first paragraph): The paragraph compares the number of debarment actions at
USDA with those at GSA. This is an inappropriate comparison since GSA is in a unique position vis-à-vis
federal procurement including debarment and suspension. GSA maintains the Multiple Award Schedules for
government-wide use. Therefore, GSA would have lead agency responsibility in making suspensions or
debarments for all of these contractors. Many, and possibly the majority, of USDA’s orders are placed against
these GSA contracts. In fact, GSA has a fulltime official and staff fully dedicated to suspension and debarment
due to its unique situation within federal procurement.
    As a side note, in a recent informal survey of 15 Executive Branch agencies, the Chair of the Interagency
Suspension and Debarment Committee found that at least six agencies (departments) had made no debarments in
the entire previous year.

              Recommendation: Remove the reference to GSA.


3. Page 10:

    a. Permanent Debarment – World Bank (first paragraph): See comment 1.b., above.

   b. Covered Transactions and Exclusions (last paragraph): This paragraph refers only to the
nonprocurement rule covered transactions (7 CFR 3017) and to Section 14211 of the Food, Conservation and
Energy Act of 2008 (7 U.S.C. 2209j). The latter authority is separate from the authority of the procurement rule
under the FAR. However, it does apply to procurement activities.

        Recommendation: Remove the words “and procurement” from the first sentence. Specify the special
separate authority cited here (7 U.S.C. 2209j).


4. Page 30:

    Delegation of Authority: Recommendations 15, 16 and 17: Since these recommendations pertain to
nonprocurement debarment and suspension, they fall under the authority of the Chief Financial Officer, in
accordance with 7 CFR 2.28 (b)(17).

        Recommendation: Add “Chief Financial Officer” to the heading.


5. Page 36:



                                                                                                        Page 3 of 5
Delegation of Authority: Recommendations 18, 19 and 20: Since these recommendations pertain to
nonprocurement debarment and suspension, they fall under the authority of the Chief Financial Officer, in
accordance with 7 CFR 2.28 (b)(17).

       Recommendation: Add “Chief Financial Officer” to the heading.
6. Page 38: Finding 6

    a. OPPM Suspension and Debarment Training (first paragraph): As stated previously in comment 2.a.,
above, suspension and debarment training is included in several procurement courses required by all contract
specialists and contracting officers. Procurement training is not generally a function of a procurement policy
branch. However, OPPM recognizes its importance and has begun to conduct training to procurement staff and
will continue to do so.

        Recommendation: Add the following sentences:
         “Suspension and debarment training is included in several procurement courses required by
         all contract specialists and contracting officers. Although procurement training is not
         generally a function of a procurement policy branch, OPPM has begun to conduct training to
         procurement staff.”

     b. OPPM Staff Assignment (first paragraph, third sentence from the end): The paragraph erroneously
states that OPPM “assigned one part-time employee to handle procurement suspension and debarment cases.”
However, the OPPM employee cited is a full-time employee for whom debarment and suspension is one of a
number of collateral duties.

        Recommendation: Correct the reference to the OPPM staff assigned debarment and suspension duties.


7. Page 39:     Finding 6 (continued)

    a. Guidance provided by OPPM: Throughout this finding the audit report erroneously states that OPPM
“provided no guidance to the contracting officers in USDA agencies.” In fact, OPPM issues the Agriculture
Acquisition Regulation (AGAR), the Department’s supplement to the FAR at 48 CFR Chapter 4, Parts 401
through 453, which implements procurement policy for USDA. The AGAR provides mandatory, Department-
wide policy and procedures on procurement issues including suspension and debarment.

      Recommendation: Remove the reference that OPPM has not provided guidance. Acknowledge that
OPPM provides guidance through the AGAR, 48 CFR Chapter 4, Subpart 409.4.

     b. Training: In the past year, OPPM has provided training on debarment and suspension to contracting
staff in two of its major contracting activities: the Forest Service and Departmental Management, Procurement
Operations Division (formerly part of OPPM). OPPM plans to offer training to more contracting staff in the
future. However, notwithstanding OPPM training, contract specialists and contracting officers receive
debarment and suspension training in a number of required courses approved by the Federal Acquisition
Institute.

     c. Remarks regarding Contractors (third paragraph): The audit report cites an OPPM official as stating
that “they normally deal with large contractors who are preapproved by GSA…” This official was either in error
or misquoted since the majority of USDA contractors are small businesses. (From fiscal year 2004 through
2007, 72% of all USDA awards and 52% of all procurement dollars went to small businesses.) Additionally,
OPPM confirms that reliance on contractors and the use of contract compliance tools and procedures in no way
circumvents or replaces the need for an effective suspension and debarment program.

    d. Need for OIG Cooperation. The report cites a case where a contractor providing guard services failed
to pay employees and was not subject to suspension or debarment action.
                                                                                                      Page 4 of 5
Recently, OIG declined to investigate a similar case after receiving requests from both OPPM and the
contracting activity. In this case there appeared to be serious contractor misconduct, integrity violations, and
possible fraud due to the falsification of records and the contractor’s refusal to pay subcontractors. It is
important for OIG to be more responsive to requests from OPPM and the agencies to investigate cases.

Where there has not yet been a criminal conviction or civil judgment, the debarring official needs a background
investigation to confirm that allegations are not mistaken or simply hearsay. The AGAR in 48 CFR 409.406-3
(a) states that “where the statement of facts indicates the irregularities to be possible criminal offenses, or for any
other reason further investigation is considered necessary, the matter shall be referred to the HCA (Head of the
Contracting Activity) who should consult with the Office of Inspector General to determine if further
investigation is required prior to referring to the debarring official.” The AGAR further states that the debarring
official’s determination is to be made “after reviewing the recommendations and consulting with the Office of
Inspector General and Office of the General Counsel, as appropriate.”

    Recommendation: That OIG establish a clear line of communication with OPPM regarding the
investigation of potential suspension or debarment cases. Cooperation among USDA offices is important in
implementing a successful debarment and suspension program.


8. Page 40:      Finding 6 (continued)

    EPLS (first paragraph, first sentence): The audit report states that “agency officials did not always check the
EPLS to verify that new contractors were not debarred…” and ascribes responsibility for this failure to OPPM
“since OPPM did not train agency officials on suspension and debarment procedures.” In fact, this is not a
specific responsibility of OPPM. This is required by the FAR at 48 CFR 9.404 and every contract specialist
government-wide should be aware of this since this duty is covered in numerous required contracting courses.

         Recommendation: Remove the erroneous statement that OPPM is responsible for agency officials’ lack
of diligence in checking the EPLS. Delete these words from the beginning of the sentence: “…since OPPM did
not train agency officials on suspension and debarment procedures…”


9. Page 41:

    a. Recommendation 25: OPPM concurs with the recommendation.

    OPPM Actions Planned and Taken: In support of a vibrant suspension and debarment program in the
public interest for the Government’s protection, OPPM has initiated debarment and suspension training for the
procurement staff of USDA agencies. OPPM will continue the training with all agencies on a regular basis.
Training will include a discussion of performance and integrity issues regarding agency contractors and will
stress the importance of debarment and suspension as a Government-wide practice. OPPM will also require all
agencies to establish a suspension and debarment coordinator to establish and maintain internal agency
procedures, provide a point of contact for OPPM, and monitor that proper practices are being followed.

    b. Recommendation 26: OPPM concurs with the recommendation on the condition that the differences
between the FAR and the nonprocurement rule are acknowledged and that the FAR and AGAR continue to be
used as the authority for suspensions and debarments regarding procurements.

   c. Recommendation 27: OPPM concurs with the recommendation on the condition that the Heads of
Contracting Activities (or their designees) are included in the process and so cited.




                                                                                                            Page 5 of 5
Rural Development
                                    United States Department of Agriculture
                                              Rural Development




TO:          Gil H. Harden                                                                                May 21, 2010
             Assistant Inspector General
              for Audit


FROM:        Dallas Tonsager                               /s/
             Under Secretary


SUBJECT:     OIG Audit: Effectiveness and Enforcement of Suspension
             and Debarment Regulations in the U.S. Department of
             Agriculture (Audit No. 50601-014-AT)


Rural Development appreciates the opportunity to respond to the
recommendations pertaining to our programs contained in the
subject Official Draft Report dated April 14, 2010.

These responses are being submitted to reach management decision
on the three Rural Development recommendations in the Official
Draft Report.

Recommendation No. 21

OIG’s Recommendation:

Require the Rural Development Administrators for Business and
Cooperative Programs, Housing Facilities, and Rural Utility
Programs to inform the agency’s suspension and debarment
coordinator upon notifications from OIG’s Office of
Investigations that a program violator has been indicted or
convicted.




                                  1400 Independence Ave, SW • Washington, DC 20250-0700
                                              Web: http://www.rurdev.usda.gov

                                          Committed to the future of rural communities.

                                    “USDA is an equal opportunity provider, employer and lender.”
        To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                       Washington, DC 20250-9410 or call (800) 795-3272 (voice) or (202) 720-6382 (TDD).
OIG Audit: Effectiveness and Enforcement of Suspension and
Debarment Regulations in the U.S. Department of Agriculture
(Audit No. 50601-014-AT)


Agency Response:

The intent of this recommendation is to expedite notification of
the Agency’s suspension and debarment coordinator of currently
indicted and/or convicted program violators. Rural Development
has implemented a process effective April 2010, which
accomplishes this end result. The Financial Management
Division, upon notification by the OIG Office of Investigations,
is providing the Rural Development suspension and debarment
coordinator with this information. The coordinator, in turn, is
following up with field staff in the affected State Offices to
ensure the appropriate proposed debarments/suspensions are
executed.

Recommendation No. 22

OIG’s Recommendation:

Require the Rural Development Administrators for Business and
Cooperative Programs, Housing Community Facilities, and Rural
Utility Programs to develop a manual system to be used by the
loan specialist and approving official as an interim
compensating control to ensure the GSA EPLS is reviewed and the
review documented for new loan applicants.

Agency Response:

The intent of this recommendation is to ensure a reliable
process for debarment screenings of new applicants to Rural
Development programs is in operation. While regulations are in
place to require loan making staff to check the Excluded Parties
List System (EPLS) for loan and grant applicant names,
documentation of such screenings has not been consistent in many
cases. To orient our newly appointed State Directors and any
new loan making staff in the field, an Unnumbered letter will be
issued during May 2010, reinforcing the debarment screening and
documentation requirements promulgated in our regulations.
OIG Audit: Effectiveness and Enforcement of Suspension and
Debarment Regulations in the U.S. Department of Agriculture
(Audit No. 50601-014-AT)


Direction will also be provided to our Debarment Program
intranet website where a link to the EPLS web site for debarment
queries is provided.


Recommendation No. 23

OIG’s position:

Require the Rural Development Administrators for Business and
Cooperative Programs, Housing and Community Facilities, and
Rural Utility Programs, to include an automated system control
in the Comprehensive Loan Program, Common Loan Origination
System, to require a certification by the loan specialist that
the EPLS has been reviewed and the review documented before the
system will allow the application to be finalized.

Agency Response:

The intent of this recommendation is to ensure compliance with
debarment screening due diligence using an automated process.
Rural Development will include an automated system control in
its Common Loan Origination System, which will require debarment
screening certifications by loan specialists making loans in
order to finalize loan applications.

This automated system control will be accomplished by adding an
input field to the Common Loan Origination System's application
entry page. The loan specialist's required response to this
input field will certify they reviewed EPLS and documented the
certification in the applicant's file. Validation of the loan
specialist's response will be performed manually. Deployment of
the Common Loan Origination System is expected to occur by
September 30, 2015.

If you have any questions, please contact John Purcell,
Director, Financial Management Division, at (202)692-0328.
Forest Service
 Forest                             Washington                              1400 Independence Avenue, SW
 Service                            Office                                  Washington, DC 20250


 File Code:   1430/1580                                             Date:   May 21, 2010

   Subject:   Response to OIG Official Draft Audit Report No. 50601-14-AT, "Effectiveness and
              Enforcement of Suspension and Debarment Regulations in the USDA,"

        To:   Gil Harden, Assistant Inspector General for Audit, Office of the Inspector General

Thank you for the opportunity to review and comment on OIG Official Draft Audit Report No.
50601-14-AT. The report provides an in depth analysis of the Suspension and Debarment program in
USDA. The Forest Service has extensively reviewed the report and has the comments below regarding
the agency’s exclusions and rationale.

Export Violations:
In four Federal Register notices pertaining to rulemaking for 7 CFR 3017 published between 1995 and
2003, the Secretary of Agriculture and the Chief Financial Officer notified the public that purchasers
who committed export violations would be referred for debarment under the Export Act (16 U.S.C. 620,
et seq.) rather than under the government-wide non-procurement suspension and debarment regulations.
The Federal Register notices included information that the Export Act provided separate statutory
authority to debar persons engaged in both primary covered transactions and lower tier transactions for
export violations (68 FR 66533, 66564; 67 FR 3265, 3293; 61 FR 250-51; 60 FR 49519-20, 49522).
Because of the statutory scheme set up for debarment based on violations of the Export Act, we have a
statutory justification and program rationale for continuing to exclude Export Act violations from the
government-wide rule’s coverage. The exclusions at 7 CFR 3017.215(k) should continue to remain in
place. Please see the enclosed paper supporting this conclusion.

Natural Resource Permits, Licenses, Exchanges, and other Acquisitions of Real Property, Rights of way,
and Easements:
The exemption for natural resource permits at 7 CFR 3017.215(p) was placed in the rule on the basis
that the benefits of applying the government-wide non-procurement debarment and suspension rule are
significantly outweighed by the inability to efficiently manage and administer the rule, as hundreds of
thousands of permits (charge and free use permits for removal of firewood and forest products) are
issued under natural resource programs annually for which nominal benefits may be received by
permittees (60 FR 49519, 49522, Sept. 26, 1995). Note that fuelwood permits on many national forests
provide firewood to heat homes. The public is entitled to the benefits of these activities. Specifically,
we believed at the time the rule was implemented that a significant amount of time, money, and effort
would be expended to prepare debarment and suspension referrals and the associated evidence, for
violations that could arise on the hundreds of thousands of permits issued annually. The final rule for
USDA’s non-procurement debarment and suspension (7 CFR 307) published in the Federal Register on
January 4, 1996, spelled out that permits under natural resource management programs were excepted
transactions (61 FR 251).

We continue to believe that the nominal benefits of applying the government-wide non-procurement
debarment and suspension rule are significantly outweighed by the inefficiencies of managing and
administering the rule to the permit program. Specifically, natural resource permits issued to individuals
by the Forest Service include permits for the removal of firewood, Christmas trees, or other forest
products of nominal value or use. Permits for some forest products are issued free of charge.
Furthermore, in light of the government-wide effect of the non-procurement debarment and suspension
rule, and of the reciprocal effect of non-procurement and procurement debarments, we question whether


                       America’s Working Forests – Caring Every Day in Every Way           Printed on Recycled Paper
Gil Harden, Assistant Inspector General for Audit, Office of the Inspector General                           2



debarment and suspension of an individual who received forest products via a free permit or who
received forest products that have minimal value, is appropriate given that debarment and suspension are
among the most severe actions an agency can take.

There has been discussion that agency permits would be excluded from debarment under the guidance
for grants and agreements found in 2 CFR 180.215(e). However, the definition found in 2 CFR
180.215(e) applies to permits issued as a means to regulate the environment, and this definition is not
broad enough to include natural resource permits used by the agency which include charge and free use
permits for removal of firewood and forest products, as well as recreation and range permits.

For the reasons stated above, the Forest Service has adequate statutory language and program rationale
for the exclusions for Export Act violations and natural resource permits. We renew our request that
these exclusions remain in 7 CFR 3017.215(k) and 7 CFR 3017.215(p) which will become 2 CFR
417.215(a)(2) and 2 CFR 417.215(a)(7) in the new agency rule.

Report Finding Number 4 acknowledges the Forest Service issues thousands of permits having no or
nominal value to high value commercial/industrial permits for concessions, timber sales and other forest
activities. During the Forest Service exit conference with OIG, OIG confirmed that the low value
activities could be excluded from consideration for suspension and debarment. Additionally, the Forest
Service response to the draft audit report submitted on January 7, 2010, provided a detailed analysis of
the legislative history and rationale for exempting timber export violations and forest product permits
from the rule’s coverage.

Regarding Recommendation Number 24, the Forest Service will review the audit recommendation as it
is directed towards high value activities, including federal financial assistance. However, to consider
applying suspension and debarment to other Forest Service program areas, the agency will need to
review every activity and the associated legislation and rule making to determine if statutory language or
other adequate rational exists for excluding an activity from suspension and debarment. The Forest
Service program managers will review which mission areas, in addition to timber sales, warrant
establishing and implementing a suspension and debarment program. The agency will designate a lead
to oversee this effort of requested information, and will follow up by meeting with representatives from
the affected staffs. The agency will then formulate initial procedures to train program staff and fully
implement the recommendation.

If you have any questions, please contact Donna M. Carmical, Chief Financial Officer, at 202-205-1321
or dcarmical@fs.fed.us.



/s/ Hank Kashdan (for)
THOMAS L. TIDWELL
Chief

Enclosures

cc: Janet M Roder, Darci Birmingham, Marie-Louise Smith, Gloria Manning, Christopher K
Coppenbarger, Laurie Lewandowski, Jennifer McGuire, Sherry Gardner
         Forest Resources Conservation and Shortage Relief Act of 1990, as amended
                                 (16 U.S.C. §§ 620, et seq.) (Export Act)


The Debarment Provision of the Export Act of 1990 (16 U.S.C. § 620d(d)) reads as follows:

        (d) ADMINISTRATIVE REMEDIES.--

         (1) DEBARMENT.--The head of the appropriate Federal department or agency under this title may debar
             any person who violates this title, or any regulation or contract issued under this title, from entering
             into any contract for the purchase of unprocessed timber from Federal lands for a period of not more
             than 5 years. Such person shall also be precluded from taking delivery of Federal timber purchased by
             another party for the period of debarment.
         (2) CANCELLATION OF CONTRACTS.--The head of the appropriate Federal department or agency
             under this title may cancel any contract entered into with a person found to have violated this title or
             regulations issued under this title.

In 1990, when the Export Act was enacted, the Forest Service initiated debarment and
suspension actions related to timber sale contracts in accordance with 36 CFR §§ 223.130, et
seq.1 The Forest Service debarment and suspension rules in effect in 1990 authorized debarment
and suspension of timber sale purchasers and affiliates, upon a showing of the appropriate
standard of evidence (36 C.F.R. §§ 223.136 & .141), for a number of causes, and would have
precluded a person from (1) bidding on or being awarded a contract for unprocessed timber, (2)
entering into a third party agreement with another person for the acquisition of Federal timber, or
(3) renewing or otherwise extending an existing contract unless the Chief or an authorized
representative determined, in writing, that a compelling reason existed for doing so (36 C.F.R.
§ 223.135).

In contrast to the Forest Service regulations at 36 C.F.R. §§ 223.130, et seq., the Export Act of
1990 was more restrictive. Specifically, the Act limited:

        (1) The type of administrative action that could be taken, i.e. the head of the
            appropriate Federal department or agency (Interior or USDA Forest Service) could
            only debar, not suspend, a person;
        (2) The type of action (cause) that could result in administrative action, i.e. only
            persons who violate the Export Act or implementing regulations and contracts could
            be debarred; and
        (3) The effect of administrative action, i.e. a debarred person could be prohibited only
            from purchasing unprocessed Federal timber and from taking delivery of such timber
            purchased by another party.


1
         Forest Service debarments and suspensions were initiated under USDA Forest Service administrative
(regulatory) authority. Debarments and suspensions related to timber sale contracts were not initiated pursuant to
the government-wide (nonprocurement) rule until February 5, 1996. 61 Fed. Reg. 250 (1996); see also, 60 Fed.
Reg. 49519.
In regulations implementing the Export Act of 1990, the Forest Service revised its existing
debarment and suspension regulations to reflect the debarment provisions in the Act (See, e.g. 60
Fed. Reg. 46921 (Sept. 8, 1995)).

When amendments to the 1990 Export Act were being considered, the OGC Natural Resources
Division (NRD) assisted the Forest Service with drafting suggested changes to the proposed
amendments. Because the proposed amendments, in the agencies’ view, would have reduced the
Secretary’s ability to implement and enforce the export restrictions originally enacted in 1990,
the suggested revisions were intended to improve, to the extent possible, the Secretary’s ability
to administer and enforce the export restrictions as proposed for amendment.

Specifically, with respect to debarment, the 1997 amendments proposed a new paragraph:
....

        (d)(1)(A) . . .

        (B) PREREQUISITES FOR DEBARMENT.—
                           (i) IN GENERAL. – No person may be debarred from bidding for or entering into a
        contract for the purchase of unprocessed timber from Federal lands under subparagraph (A) unless the head
        of the appropriate Federal department or agency first finds, on the record and after an opportunity for a
        hearing, that debarment is warranted.
                           (ii) WITHHOLDING OF AWARDS DURING DEBARMENT PROCEEDINGS.—The
        head of an appropriate Federal department or agency may withhold an award under this title of a contract
        for the purchase of unprocessed timber from Federal lands during a debarment proceeding.

The 1997 amendments to the Export Act require that before a debarment is imposed, a finding,
on the record and after an opportunity for a hearing, must be afforded to a person who violates
the Act or its implementing regulations. Such a hearing is required regardless of whether there
are material facts in dispute during the debarment proceedings. The government-wide
(nonprocurement) rule authorizes immediate preclusion (suspension) upon adequate evidence of
a cause (§§ ___.700 & .710). Additionally, neither suspension or debarment under the
government-wide rule require a hearing, on the record, prior to imposition of suspension or
debarment, unless there are material facts in dispute and the action is not based on conviction,
civil judgment, or other finding by an appropriate Federal, State, or local body. (§§ ___.735 &
___.830).

In its suggested revisions to the 1997 amendments, the Forest Service and NRD provided draft
language that would have eliminated the requirement for a hearing on the record under certain
circumstances, including where there are no material facts in dispute, or where a person has been
indicted or has received a conviction or civil judgment.2



2
         The draft language reads as follows: “Provided however, that where there are no material facts in dispute,
or a person has been indicted, received a criminal conviction or civil judgment, a person may be precluded from
bidding for or entering into a contract for the purchase of unprocessed timber from Federal lands under
subparagraph (A).”
       In its explanation of the suggested language, the Forest Service and NRD stated: “This
suggested revision provides due process and allows the Secretary or the head of the agency
concerned to immediately preclude someone who has engaged in criminal or other activity
which is not disputed from bidding on or being awarded a timber sale contract for unprocessed
timber.” (emphasis added). The final amendments to the Export Act do not contain the
language suggested by the agencies. See 16 U.S.C. § 620d(d).

Additional support for the idea that Congress intended a different process for debarment under
the Export Act, as amended in 1997, is its statement in the House Conference Report:

       Section 492(d)(1) has been modified to ensure that a person receives due process prior to
the imposition of debarment for a violation of FRCSRA or its regulations.3

One may conclude from this language, and the other differences outlined above, that Congress
intended a different scheme for debarment under the Export Act than the process provided in
either the Forest Service stand-alone debarment and suspension regulations, or in the
government-wide (nonprocurement) regulations.

Additional support for the idea that Congress did not intend broad application and effect of the
debarment provision, and many other provisions in the Act, can more generally be found by
comparing other differences between the 1990 Export Act and the 1997 amendments. For
example, the 1990 Act authorized the imposition of significant civil penalties for violations of
the Export Act. 16 U.S.C. § 620d(c). Monetary penalties up to $500,000 or three times the value
of the timber involved, could be imposed if the Secretary concerned found, on the record and
after an opportunity for a hearing that ―a person, with willful disregard for the prohibition
contained in this title against exporting Federal timber, exported or caused to be exported
unprocessed timber originating from Federal lands in violation of” the Act. 16 U.S.C.
§ 620d(c)(1). Penalties up to $500,000 or three times the timber involved also could be imposed,
based on varying degrees of intent, for other violations of the Act. 16 U.S.C. § 620d(c)(2).

In the 1997 amendments, Congress added language making the Secretaries’ ability to impose
civil penalties more difficult. Specifically, before imposing a penalty, the appropriate Secretary
is required to consider the seriousness of an offense, and consider all mitigating factors including
mistake, inadvertence, and error. Based on the mitigating factors, the Secretary concerned may
reduce the penalty, not impose the penalty, or ―on condition of there being no further violation
under [§ 620d(c)] for a prescribed period, suspend imposition of the penalty.” 16 U.S.C.
§ 620d(c)(2)(C). Further, if the Secretary concerned determines an offense is “a minor
infraction, of [the Export Act] or its regulations,” the Act provides that the “Secretary should
delegate the matter to the contracting officer who need not impose a penalty.” 16 U.S.C.
§ 620d(c)(2)(C)(ii) (emphasis added).4

3
         H.R. CONF. REP. 105-337, 105th Cong., 1st Sess. 1997, 1997 WL 664422, 1997 U.S.C.C.A.N. 2183
(Legis. Hist.) ( See attached excerpts ).
4
         See also, the September 19, 1995 Congressional Record (Senate) wherein the Senate considered S13838,
and Sen. Slade Gorton expressed concerns about the regulations implementing the 1990 Export Act. Sen. Gorton
repeatedly stated that the implementing regulations, which included the provisions for debarment under the Forest
Comparison of other changes between the 1990 Export Act and the 1997 amendments show
Congress intended to weaken, not strengthen, the Secretaries’ ability to enforce export
restrictions and the associated administrative and civil remedies. In its Statement of
Administration Policy issued by the Office of Management and Budget on September 11, 1997
in response to the 1997 Export Act amendments, the Clinton Administration objected to the
amendments and stated:

The Committee bill includes a new Title VI, the “Forest Resources and Conservation Shortage
Relief Act of 1997, which would amend restrictions on exports of raw logs harvested from
Federal and State lands that were enacted in 1990 to protect American timber industry workers.
The Administration has concerns that this complicated, 15-page rider has not undergone public
or congressional hearings and that the requirements may inadvertently weaken, rather than
improve, program implementation.”5 (emphasis added).

It does not appear Congress intended violations of the Export Act would also be subject to the
broad scope and effect of the government-wide debarment and suspension rules.




OGC-NRD:LPJ (12-10-09)

Service stand-alone regulation, coupled with the civil penalties, were overly burdensome on the timber industry.
The relevant portions of the Unofficial version of the Congressional Record are attached for ease of reference.
5
        Emphasis added. See attached Statement of Administration Policy.
====================================================================
                               USDA Forest Service (FS)
====================================================================
              Office of Inspector General Audit Report No. 50601-14-AT
      Effectiveness and Enforcement of Suspension and Debarment Regulations
                         in the U.S. Department of Agriculture
                          Official Draft Dated: April 14, 2010

                                    Management Decision

====================================================================

Recommendation Number 24: Establish and implement a suspension and debarment program
for all FS mission areas in addition to the already operating unit established for the agency’s
timber program.

FS Response to Recommendation No. 24: The FS concurs with this audit recommendation and
will establish and implement a suspension and debarment program for all its mission areas, as
applicable. The FS would also like to acknowledge that many of the recommendations in this
report require a corporate approach, and the actual corrective actions have not yet been
determined by the Department. In the interim, the agency will:

       1) Designate a lead to oversee this effort for the entire agency by June 30, 2010

       2) Convene its first meeting with a representative from all affected mission areas by mid
          August 2010 and begin formulating a plan of action that moves the FS towards full
          implementation of this recommendation

       3) Present the plan to the ELT for approval by October 29, 2010, and

       4) Implement the suspension and debarment program in applicable mission areas by
          April 29, 2011.

Estimated Completion Date: April 29, 2011




                                             1 of 1
Farm Service Agency
United States
Department of
Agriculture

Farm and Foreign
Agricultural
Services             DATE:          May 13, 2010
Farm Service
Agency               TO:            Assistant Inspector General for Audit
                                    Office of Inspector General
Operations Review
and Analysis Staff

1400 Independence
                     FROM:          Philip Sharp
Ave, SW                             Agency Liaison Officer
Stop 0540
Washington, DC                       for the Farm Service Agency
20250-0540
                     SUBJECT:       Response to Audit 50601-14-AT, Effectiveness and Enforcement of
                                    Suspension and Debarment Regulations in the U.S. Department of
                                    Agriculture – Recommendations 7 through 10

                     This is the Farm Service Agency’s (FSA) response to your April 14 memorandum
                     requesting comments on the official draft report of the subject audit. Our response is
                     limited to the four recommendations directed to the FSA Administrator.

                     Recommendation 7

                     In collaboration with OGC and OCFO, review all FSA program transactions to determine
                     if they should be classified as noncovered by suspension and debarment according to the
                     President’s Executive orders and OMB’s guidance. For program transactions to be
                     excluded from covered transaction status for suspension and debarment, provide adequate
                     statutory language justifying the exclusions or acceptable program rationale supporting
                     their noncovered status.

                     Agency Response

                     FSA agrees with the need to identify those FSA program transactions that should be
                     classified as noncovered by suspension and debarment. On April 29, 2010, FSA was
                     notified that the Secretary cleared a substantial revision to Departmental suspension and
                     debarment regulations. This revised rule will be published in the Federal Register. It is
                     anticipated that many of FSA’s nonprocurement programs will no longer be exempt from
                     the suspension and debarment process. Within 180 days from the date the revised
                     regulations are published, FSA will work with OCFO and OGC to review what program
                     transactions should be classified as noncovered by suspension followed by debarment.




                                                          USDA is an Equal Opportunity Employer
Assistant Inspector General for Audit
Page 2

Recommendation 8

Issue guidance to agency officials clarifying that those who abuse any noncovered program
should still be considered for suspension and debarment to protect other Federal programs
that are covered by the suspension and debarment regulations.

Agency Response

FSA understands that suspension and debarment is a serious action used to protect the
public interest and is reserved for the most serious cases where immediate suspension,
followed by debarment, serves as a tool to ensure integrity of the Government’s programs
by conducting business only with responsible persons. As discussed in
Recommendation 7 above, the Secretary has cleared revised suspension and debarment
rules that will be published in the Federal Register. FSA recognizes that, following
publication of the new rule, there may be very few noncovered transactions. Within
180 days of publication of the revised rules, FSA will issue guidance to agency officials
implementing the new regulations. This guidance will outline the purpose of suspension
and debarment and that FSA program transactions determined to be noncovered should be
considered for suspension followed by debarment in order to protect the integrity of other
covered Federal programs.

Recommendation 9

Implement a tracking system with the Direct Loan System to record indictments and
convictions of agricultural producers so that FSA officials will be alerted if convicted
producers should reapply for farm program benefits. Establish controls and procedures to
ensure that indicted, convicted, and other nonresponsible program violators are referred to
the designated suspension and debarment official for case determination.

Agency Response

FSA does not agree with the recommendation to implement a tracking system to record
indictments and convictions of agricultural producers within the Direct Loan System
(DLS). FSA’s DLS is limited to tracking the Farm Loan Programs’ direct loan application
and loan making process, and loan servicing activities. This web-based system is not used
by FSA to track the application and payment process, and compliance activities for FSA’s
direct subsidy and non-credit commodity loan programs. Further, due to the sensitive
nature of the information contained in DLS that concerns FSA’s direct farm loan
borrowers, only FSA employees responsible for Farm Loan Programs have access to the
database. Employees responsible for Farm Programs, such as the County Executive
Director, do not have access to DLS. OIG found that between FYs 2004 to 2007,
19 producers received additional program payments after they were convicted of program
violations. A total of 19 cases in the span of four years, in relation to the billions of
dollars of direct subsidy payments and loan disbursements issued by FSA to millions of
Assistant Inspector General for Audit
Page 3

participants in that same timeframe does not justify the substantial cost to enhance DLS in
order to track participants who are indicted, convicted, or otherwise determined to be
irresponsible.

FSA agrees with the recommendation to establish controls and procedures that will help
ensure that program violations are referred to the designated suspension and debarment
official in order to determine if suspension and debarment is warranted. Within 180 days
from the date of publication of the revised regulations in the Federal Register, FSA will
develop and establish the necessary controls and procedures for determining when to refer
program participants who have been indicted, convicted, or otherwise determined to be
irresponsible to FSA’s designated suspension and debarment official.

Recommendation 10

Provide training to FSA headquarters and State officials, and State and county committees
about suspension and debarment; develop and implement procedures to refer the violators
for case determination for suspension and debarment actions; and conduct followup
reviews to ensure effective implementation.

Agency Response

FSA agrees with the recommendation. FSA will consider the use of the Agriculture
Learning (AgLearn) System and other tools to provide the necessary training to all FSA
headquarter and State office officials about suspension and debarment. Automation
modernization programs currently in development within FSA will also be considered
when designing training. Further training will also be provided to FSA State and county
committees. FSA will issue directives based on applicable Departmental regulations to all
FSA offices that outline the procedures for referring violators for suspension and
debarment determinations.

After suspension and debarment training and issuance of referral procedures throughout
FSA, followup reviews will be conducted as necessary.

The actions listed above will begin after the revised suspension and debarment rules have
been published in the Federal Register.
Food and Nutrition Service
United States
Department of
Agriculture
                 DATE:          May 24, 2010
Food and
Nutrition
Service          REPLY:         50601-14-AT

3101 Park        TO:            Gil Harden
Center Drive
Room 803                        Assistant Inspector General for Audit
Alexandria, VA
22302-1500       FROM:          Thomas O’Connor on behalf of Julia Paradis /S/
                                Administrator
                                Food and Nutrition Service

                 SUBJECT:        Effectiveness and Enforcement of Suspension and Debarment Regulations
                                 in the U.S. Department of Agriculture


                 This responds to the official draft audit report #50601-14-AT, Effectiveness and
                 Enforcement of Suspension and Debarment Regulations in the U.S. Department of
                 Agriculture. Specifically, I am responding to those recommendations directly addressed
                 to the Food and Nutrition Service (FNS).

                 Recommendation 11

                 In collaboration with OGC and OCFO, review all FNS program transactions to determine
                 if they should be classified as noncovered by suspension and debarment, pursuant to the
                 President’s Executive orders and in OMB guidance. For programs to be excluded from
                 suspension and debarment, provide statutory language justifying the exclusions or
                 acceptable program rationale supporting their noncovered status.

                 Food and Nutrition Service Response:

                 FNS has consulted with our Office of General Counsel (OGC) and performed a
                 comprehensive review of all FNS program transactions. FNS and OGC have determined
                 that program benefits are transactions that are not covered for suspension/debarment
                 rules. In support of this determination, Departmental Regulations at 7 CFR 3017.215 list
                 non-procurement transactions that are excluded. They include benefit payments to
                 individuals (7 CFR Sec. 3017.215(b) of the attached Interim Final rule).

                 The Departmental Regulations also speak to entitlements and mandatory awards. Section
                 3017.215(h) excludes “entitlement or mandatory awards required by statute, including a
                 lower tier entitlement or mandatory award that is required by statute.” This passage
                 appears on Federal Register page 3292 of the attached file.




                                             AN EQUAL OPPORTUNITY EMPLOYER
As the audit team understands, the vast majority of program transactions conducted by FNS
by nature fall under the category of benefits, entitlements and mandatory awards. Therefore,
most of FNS’s transactions are excluded from suspension and debarment activities by
Departmental Regulation 3017. A few transactions, such as SNAP retailer authorizations,
are not program benefits, but neither are they covered transactions. Administrative actions
taken against retailers who violate program rules include disqualification and termination,
which are administrative actions that may serve as a basis for initiation of
suspension/debarment action. In our determination of whether such actions would be
appropriate, FNS has considered the adequacy of administrative actions taken, the general
need to protect the Federal Government from potential abuse, and the cost effectiveness of
such actions. FNS has determined that, 1) the possibility of administratively disqualified
SNAP retailers doing business with other Federal agencies is relatively low because few
other Federal benefit programs provide their benefits by augmenting their beneficiaries’
buying power in the retail system; and 2) the initiation of suspension/debarment procedures
against such entities, which have already been disqualified via program-specific sanctions,
would be costly and in most cases not result in a net benefit to the government.

The above being said FNS agrees there may be cases where the need to protect the interests
of other federal agencies may necessitate initiating suspension and debarment actions for
certain SNAP retailers. FNS will investigate our disqualification and termination actions to
develop a protocol for initiating suspension and debarment actions against SNAP retailers
where appropriate and cost effective.

Recommendations 12, 13 and 14

FNS has no specific responses at this time to recommendations 12-14, as these
recommendations stipulate administrative actions for FNS to undertake that are contingent
upon the results of the review called for in Recommendation #11.

We believe it would be more appropriate for the OIG to hold off on making specific
recommendations at this time pending the results of our review described above and our
consultations with OGC.


Attachment




                               AN EQUAL OPPORTUNITY EMPLOYER
Wednesday,
January 23, 2002




Part II

Governmentwide
Debarment and Suspension
(Nonprocurement) and
Governmentwide
Requirements for Drug-Free
Workplace (Grants);
Proposed Rule
Office of Personnel Management
Department of Agriculture
Department of Energy
Small Business Administration
National Aeronautics and Space Administration
Department of Commerce
Social Security Administration
Office of National Drug Control Policy
Department of State
Agency for International Development
Peace Corps
Inter-American Foundation
African Development Foundation
Department of Labor
Federal Mediation and Conciliation Service
Department of Defense
Department of Education
National Archives and Records Administration
Department of Veterans Affairs
Environmental Protection Agency
General Services Administration
Department of the Interior
Federal Emergency Management Agency
Department of Health and Human Services
National Science Foundation
    National Foundation on the Arts and the Humanities
    National Endowment for the Arts
    National Endowment for the Humanities
    Institute of Museum and Library Services
Corporation for National and Community Service
Department of Transportation
                 Federal Register / Vol. 67, No. 15 / Wednesday, January 23, 2002 / Proposed Rules                                 3275

involved in the transaction, as permitted    transaction if any of the following            person, unless the [Agency noun] grants
under § _.120.                               applies:                                       an exception under § l.120.
                                                (a) The contract is awarded by a
§ l.210 Which nonprocurement                 participant in a nonprocurement                § l.310 May I use the services of an
transactions are covered transactions?       transaction that is covered under              excluded person under a covered
   All nonprocurement transactions, as                                                      transaction?
                                             § l.210, and the amount of the contract
defined in § l.970, are covered              is expected to equal or exceed $25,000.           (a) You as a participant may continue
transactions unless listed in § l.215.          (b) The contract requires the consent       to use the services of an excluded
(See appendix to this part.)                 of a(n) [Agency adjective] official. In        person as a principal under a covered
                                             that case, the contract, regardless of the     transaction if you were using the
§ l.215 Which nonprocurement                                                                services of that person in the transaction
transactions are not covered transactions?   amount, always is a covered transaction,
                                             and it does not matter who awarded it.         before the person was excluded.
   The following types of                                                                   However, you are not required to
                                             For example, it could be a subcontract
nonprocurement transactions are not                                                         continue using that person’s services as
                                             awarded by a contractor at a tier below
covered transactions:                                                                       a principal.
                                             a nonprocurement transaction, as shown
   (a) A direct award to—                                                                      (b) You may not begin to use the
   (1) A foreign government or foreign       in the appendix to this part.
                                                (c) The contract is for federally-          services of an excluded person as a
governmental entity;                                                                        principal under a covered transaction
   (2) A public international                required audit services.
                                                                                            unless the [Agency noun] grants an
organization;                                § l.225 How do I know if a transaction in      exception under § l.120.
   (3) An entity owned (in whole or in       which I may participate is a covered
part) or controlled by a foreign             transaction?                                   § l.315 Must I verify that principals of my
government; or                                  As a participant in a transaction, you      covered transactions are eligible to
   (4) Any other entity consisting wholly    will know that it is a covered                 participate?
or partially of one or more foreign          transaction because the agency                    Yes, you as a participant are
governments or foreign governmental          regulations governing the transaction,         responsible for determining whether
entities.                                    the appropriate agency official, or            any principal of your covered
   (b) A benefit to an individual as a       participant at the next higher tier who        transactions is excluded or disqualified
personal entitlement without regard to       enters into the transaction with you,          from participating in the transaction.
the individual’s present responsibility      will tell you that you must comply with           You may decide the method and
(but benefits received in an individual’s    applicable portions of this part.              frequency by which you do so. You
business capacity are not excepted). For                                                    may, but you are not required to, check
example, if a person receives social         Subpart C—Responsibilities of                  the governmentwide List.
security benefits under the                  Participants Regarding Transactions
Supplemental Security Income                                                                § l.320 What happens if I do business
provisions of the Social Security Act, 42    Doing Business With Other Persons              with an excluded person in a covered
                                                                                            transaction?
U.S.C. 1301 et seq., those benefits are      § l.300 May I enter into a covered
not covered transactions and, therefore,     transaction with an excluded or disqualified     If as a participant you knowingly do
are not affected if the person is            person?                                        business with an excluded person, we
excluded.                                       (a) You as a participant may not enter      may disallow costs, annul or terminate
   (c) Federal employment.                   into a covered transaction with an             the transaction, issue a stop work order,
   (d) A transaction that the [Agency        excluded person, unless the [Agency            debar or suspend you, or take other
noun] needs to respond to a national or      noun] grants an exception under                remedies as appropriate.
agency-recognized emergency or               § l.120.                                       § l.325 What requirements must I pass
disaster.                                       (b) You may not enter into any              down to persons at lower tiers with whom
   (e) A permit, license, certificate, or    transaction with a person who is               I intend to do business?
similar instrument issued as a means to      disqualified from that transaction,               Before entering into a covered
regulate public health, safety, or the       unless you have obtained an exception          transaction with a participant at the
environment, unless the [Agency noun]        under the disqualifying statute,               next lower tier, you must require that
specifically designates it to be a covered   Executive order, or regulation.                participant to:
transaction.
                                             § l.305 What must I do if a Federal               (a) Comply with this subpart as a
   (f) An incidental benefit that results
                                             agency excludes a person with whom I am        condition of participation in the
from ordinary governmental operations.
   (g) Any other transaction if the          already doing business in a covered            transaction. You may do so using any
application of an exclusion to the           transaction?                                   method(s), unless § l.430 requires you
transaction is prohibited by law.              (a) You as a participant may continue        to use specific methods.
                                             covered transactions with an excluded             (b) Pass the requirement to comply
§ l.220 Are any procurement contracts        person if the transactions were in             with this subpart to each person with
included as covered transactions?            existence when the agency excluded the         whom the participant enters into a
  Covered transactions under this part       person. However, you are not required          covered transaction at the next lower
do not include any procurement               to continue the transactions, and you          tier.
contracts awarded directly by a Federal      may consider termination. You should           Disclosing Information—Primary Tier
agency (those transactions are covered       make a decision about whether to               Participants
under the Federal Acquisition                terminate and the type of termination
Regulation), but they do include some        action, if any, only after a thorough          § l.330 What information must I provide
procurement contracts awarded by non-        review to ensure that the action is            before entering into a covered transaction
Federal participants in nonprocurement       proper and appropriate.                        with the [Agency noun]?
covered transactions (see appendix to          (b) You may not renew or extend                 Before you enter into a covered
this part). Specifically, a contract for     covered transactions (other than no-cost       transaction at the primary tier, you as
goods or services is a covered               time extensions) with any excluded             the participant must notify the [Agency
3292               Federal Register / Vol. 67, No. 15 / Wednesday, January 23, 2002 / Proposed Rules

3017.435 What must I require of a primary        3017.735 Under what conditions do I get an     3017.965 List of Parties Excluded or
    tier participant?                                additional opportunity to challenge the        Disqualified From Federal Procurement
3017.440 What method do I use to                     facts on which the suspension is based?        and Nonprocurement Programs.
    communicate those requirements to            3017.740 Are suspension proceedings            3017.970 Nonprocurement transaction.

    participants?                                    formal?                                    3017.975 Notice.

3017.445 What action may I take if a             3017.745 Is a record made of fact-finding      3017.980 Participant.

    primary tier participant knowingly does          proceedings?                               3017.985 Person.

    business with an excluded or                 3017.750 What does the suspending official     3017.990 Preponderance of the evidence.

    disqualified person?                             consider in deciding whether to continue   3017.995 Principal.

3017.450 What action may I take if a                 or terminate my suspension?                3017.1000 Respondent.

    primary tier participant fails to disclose   3017.755 When will I know whether the          3017.1005 State.

    the information required under                   suspension is continued or terminated?     3017.1010 Suspending official.

    § 3017.330?                                  3017.760 How long may my suspension            3017.1015 Suspension.

3017.455 What may I do if a lower tier               last?                                      3017.1020 Voluntary exclusion or

    participant fails to disclose the            3017.765 How may I appeal my                       voluntarily excluded.
    information required under § 3017.350 to         suspension?
                                                                                                Subpart J [Reserved]
    the next higher tier?
                                                 Subpart H—Debarment
                                                                                                Appendix to Part 3017—Covered
Subpart E—Governmentwide List of Parties         3017.800 What are the causes for               Transactions
Excluded or Disqualified From Federal                debarment?
Procurement and Nonprocurement                   3017.805 What notice does the debarring          Authority: 5 U.S.C. 301; Pub. L. 101–576,
Programs                                             official give me if I am proposed for      104 Stat. 2838; Sec. 2455, Pub. L. 103–355,
3017.500 What is the purpose of the List?            debarment?                                 108 Stat. 3327 (31 U.S.C. 6101 note); E.O.
3017.505 Who uses the List?                      3017.810 When does a debarment take            12549 (3 CFR, 1986 Comp., p. 189); E.O.
3017.510 Who maintains the List?                     effect?                                    12698 (3 CFR, 1989 Comp., p. 235); 7 CFR
3017.515 What specific information is on         3017.815 How may I contest a proposed          part 2, subpart D, § 2.28.
    the List?                                        debarment?                                    2. Part 3017 is further amended as set
3017.520 Who gives the GSA the                   3017.820 How much time do I have to            forth below:
    information that it puts on the List?            contest a proposed debarment?                 a. ‘‘[Agency noun]’’ is removed and
3017.525 Whom do I ask if I have questions       3017.825 What information must I provide       ‘‘Department of Agriculture’’ is added in
    about a person on the List?                      to the debarring official if I contest a   its place wherever it occurs.
3017.530 Where can I get the List?                   proposed debarment?                           b. ‘‘[Agency adjective]’’ is removed
                                                 3017.830 Under what conditions do I get an
Subpart F—General Principles Relating to             additional opportunity to challenge the
                                                                                                and ‘‘Department of Agriculture’’ is
Suspension and Debarment Actions                     facts on which the proposed debarment      added in its place wherever it occurs.
3017.600 How do suspension and                       is based?                                     c. ‘‘[Agency head or designee]’’ is
    debarment actions start?                     3017.835 Are debarment proceedings             removed and ‘‘the Secretary of
3017.605 How does suspension differ from             formal?                                    Agriculture or designee’’ is added in its
    debarment?                                   3017.840 Is a record made of fact-finding      place wherever it occurs.
3017.610 What procedures does the                    proceedings?                                  3. Section 3017.50 is further amended
    Department of Agriculture use in             3017.845 What does the debarring official      by adding a sentence to the end of
    suspension and debarment actions?                consider in deciding whether to debar      paragraph (c) to read as follows:
3017.615 How does the Department of                  me?
    Agriculture notify a person of               3017.850 What is the standard of proof in      § 3017.50 How is this part written?
    suspension and debarment actions?                a debarment action?                           (c) * * * The ‘‘Covered Transactions’’
3017.620 Do Federal agencies coordinate          3017.855 Who has the burden of proof in a      chart in the appendix to this part shows
    suspension and debarment actions?                debarment action?
3017.625 What is the scope of a suspension       3017.860 What factors may influence the
                                                                                                the general model for the levels or
    or debarment action?                             debarring official’s decision?             ‘‘tiers’’ at which the Department of
3017.630 May the Department of                   3017.865 How long may my debarment             Agriculture enforces an exclusion under
    Agriculture impute the conduct of one            last?                                      this part. However, the chart in the
    person to another?                           3017.870 When do I know if the debarring       appendix shows only the general model
3017.635 May the Department of                       official debars me?                        and the model will vary for certain
    Agriculture settle a debarment or            3017.875 May I ask the debarring official to   categories of transactions in accordance
    suspension action?                               reconsider a decision to debar me?         with the exclusions from covered
3017.640 May a settlement include a              3017.880 What factors may influence the        transactions in §§ 3017.215 and
    voluntary exclusion?                             debarring official during
3017.645 Do other Federal agencies know if           reconsideration?
                                                                                                3017.220.
    the Department of Agriculture agrees to      3017.885 May the debarring official extend        4. Section 3017.215 is further
    a voluntary exclusion?                           a debarment?                               amended by adding paragraphs (h)
                                                 3017.890 How may I appeal my debarment?        through (p) to read as follows:
Subpart G—Suspension
3017.700 When may the suspending official        Subpart I—Definitions                          § 3017.215 Which nonprocurement
    issue a suspension?                          3017.900 Adequate evidence.
                   transactions are not covered transactions?
3017.705 What does the suspending official       3017.905 Affiliate.
                           *      *     *    *     *
    consider in issuing a suspension?            3017.910 Agency.
                                 (h) An entitlement or mandatory
3017.710 When does a suspension take             3017.915 Agent or representative.
             award required by a statue, including a
    effect?                                      3017.920 Civil judgment.
                      lower tier entitlement or mandatory
3017.715 What notice does the suspending         3017.925 Conviction.
                          award that is required by a statute.
    official give me if I am suspended?          3017.930 Debarment.

                                                                                                   (i) With respect to the Department of
3017.720 How may I contest a suspension?         3017.935 Debarring official.

3017.725 How much time do I have to              3017.940 Disqualified.
                        Agriculture’s export and foreign
    contest a suspension?                        3017.945 Excluded or exclusion.
               assistance programs, any transaction
3017.730 What information must I provide         3017.950 Indictment.
                          below the primary tier covered
    to the suspending official if I contest a    3017.955 Ineligible or ineligibility.
         transaction other than a
    suspension?                                  3017.960 Legal proceedings.
                   nonprocurement transaction under the
                 Federal Register / Vol. 67, No. 15 / Wednesday, January 23, 2002 / Proposed Rules                             3293

Market Access Program between a              transaction requiring the participants’       § 3017.870 When do I know if the
nonprofit trade association or state         compliance with Subpart C of this part        debarring official debars me?
regional group and a U.S. entity, as         and requiring them to include similar           (a) * * * However, the record will
defined in part 1485 of this title.          term or condition in lower-tier covered       remain open for the full 30 days, as
   (j) Any transaction under the             transactions.                                 called for in § 3017.820, even when you
Department of Agriculture’s                     7. Section 3017.755 is further             make a submission before the 30 days
conservation programs, warehouse             amended by adding a sentence at the           expire.
licensing programs, or programs that         end of paragraph (a) to read as follows:      *     *     *     *    *
provide statutory entitlements and make                                                      11. Section 3017.890 is added to
                                             § 3017.755 When will I know whether the
available loans to individuals and           suspension is continued or terminated?        subpart H to read as follows:
entities in their capacity as producers of
                                               (a) * * * However, the record will          § 3017.890 How may I appeal my
agricultural commodities.
                                             remain open for the full 30 days, as          debarment?
   (k) The export or substitution of
                                             called for in § 3017.725, even when you          (a) An appeal may be filed only after
Federal timber governed by the Forest
                                             make a submission before the 30 days          the respondent has exhausted the option
Resources Conservation and Shortage
                                             expire.                                       to contest the debarment in § 3017.815.
Relief Act of 1990, 16 U.S.C. 620 et seq.
(The ‘‘Export Act’’), which provides         *     *     *     *    *                      The appeal must be filed within 30 days
separate statutory authority to debar.         8. Section 3017.765 is added to             of receiving the decision required
   (l) The receipt of licenses, permits,     subpart G to read as follows:                 § 3017.870 and it must specify the basis
certificates, and indemnification under      § 3017.765 How may I appeal my
                                                                                           of the appeal. The respondent must file
regulatory programs conducted in the         suspension?                                   the appeal in writing to the Hearing
interest of public health and safety, and       (a) An appeal may be filled only after     Clerk in the Office of Administrative
animal and plant health and safety.          the respondent has exhausted the option       Law Judges (OALJ), United States
   (m) The receipt of official grading and   to contest the suspension in § 3017.720.      Department of Agriculture (USDA),
inspection services, animal damage           The appeal must be filed within 30 days       Washington, DC 20250. The decision of
control services, public health and          of receiving the decision required            a debarring official under § 3017.800
safety inspection services, and animal       § 3017.755 and it must specify the basis      may be vacated by the assigned appeals
and plant health and safety inspection       of the appeal. The respondent must file       officer only if the officer determines that
services.                                    the appeal in writing to the Hearing          the decision is:
   (n) If the person is a State or local                                                      (1) Not in accordance with law;
                                             Clerk in the Office of Administrative
government, the provision of official                                                         (2) Not based on the applicable
                                             Law Judges (OALJ), United States
grading and inspection services, animal                                                    standard of evidence; or
                                             Department of Agriculture (USDA),
damage control services, animal and                                                           (3) Arbitrary and capricious and an
                                             Washington, DC 20250. The decision of
plant health and safety inspection                                                         abuse of discretion.
                                             a suspending official under § 3017.700
services.                                                                                     (b) The appeals officer will base the
                                             may be vacated by the assigned appeals
   (o) The receipt of licenses, permit, or                                                 decision solely on the administrative
                                             officer only if the officer determines that
certificates under regulatory programs                                                     record.
                                             the decision is:
conducted in the interest of ensuring                                                         (c) Within 90 days of the date the
                                                (1) Not in accordance with law;
fair trade practices.                           (2) Not based on the applicable            appeal is filed with USDA’s OALJ
   (p) Permits, licenses, exchanges and      standard of evidence; or                      Hearing
other acquisitions of real property,            (3) Arbitrary and capricious and an           Clerk, the appeals officer will notify,
rights of way, and easements under           abuse of discretion.                          in writing, the respondent(s) and the
natural resource management programs.           (b) The appeals officer will base the      debarring official, who took the action
   5. Section 3017.220 is amended by         decision solely on the administrative         being appealed, of the decision.
adding paragraph (d) to read as follows:     record.                                          (d) The appeals officer’s decision is
                                                (c) Within 90 days of the date the         final and it not appealable within
§ 3017.220 Are any procurement contracts     appeal is filed with USDA’s OALJ              USDA.
included as covered transactions?                                                             12. Section 3017.935 is further
                                             Hearing Clerk, the appeals officer will
*      *    *    *      *                    notify, in writing, the respondent(s) and     amended by adding paragraph (b) to
   (d) The contract is for the               the suspending official, who took the         read as follows:
procurement of ocean transportation in       action being appealed, of the decision.
connection with the Department of                                                          § 3017.935 Debarring official.
                                                (d) The appeals officer’s decision is
Agriculture’s foreign assistance             final and it not appealable within            *      *      *   *     *
programs. With respect to the                USDA.                                            (b) Within USDA, the Secretary has
Department of Agriculture’s export and          9. Section 3017.800 is further             designated the Administrators of
foreign assistance programs, such            amended by adding paragraph (e) to            program agencies to be the debarring
contracts are the only procurement           read as follows:                              official, i.e. Administrator, Food and
contracts included as covered                                                              Nutrition Service. Further, the Secretary
transactions, not withstanding the           § 3017.800 What are the causes of             authorizes these officials to delegate any
                                             debarment?                                    and all functions except for making the
provisions in paragraphs (a) through (c)
of this section.                             *     *     *     *    *                      final decision. Final decision includes
   6. Section 3017.440 is added to read        (e) Notwithstanding paragraph (c) (1)       the decision to initiate, maintain, or
as follows:                                  of this section, within the Department of     continue a debarment.
                                             Agriculture a nonprocurement                     13. Section 3017.1010 is further
§ 3017.440 What method do I use to           debarment by any Federal agency taken         amended by adding paragraph (b) to
communicate those requirements to            before March 1, 1989.                         read as follows:
participants?                                  10. Section 3017.870 is further
 To communicate the requirement, you         amended by adding a sentence to the           § 3017.1010 Suspending official.
must include a term or condition in the      end of paragraph (a) to read as follows:      *    *     *     *     *
